<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 1999</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                 DEPARTMENT OF THE INTERIOR AND RELATED
                    AGENCIES APPROPRIATIONS FOR 1999

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION
                                ________

   SUBCOMMITTEE ON THE DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES

                      RALPH REGULA, Ohio, Chairman

JOSEPH M. McDADE, Pennsylvania         SIDNEY R. YATES, Illinois
JIM KOLBE, Arizona                     JOHN P. MURTHA, Pennsylvania
JOE SKEEN, New Mexico                  NORMAN D. DICKS, Washington
CHARLES H. TAYLOR, North Carolina      DAVID E. SKAGGS, Colorado
GEORGE R. NETHERCUTT, Jr., Washington  JAMES P. MORAN, Virginia
DAN MILLER, Florida                    
ZACH WAMP, Tennessee                   

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

Deborah Weatherly, Loretta Beaumont, Joel Kaplan, and Christopher Topik,
                            Staff Assistants
                                ________

                                 PART 8
                                                                   Page
 U.S. Geological Survey...........................................    3
 Minerals Management Service......................................  141
 Office of Surface Mining Reclamation and Enforcement.............  179
 Bureau of Indian Affairs.........................................  203
 Office of the Special Trustee for American Indians...............  218
 National Indian Gaming Commission................................  323
 Office of Insular Affairs........................................  331
 Commonwealth of the Northern Mariana Islands.....................  359
 DOI Departmental Management......................................  381
 Office of the Solicitor..........................................  399
 Office of the Inspector General..................................  413
 Indian Health Service............................................  425
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
48-341 O                    WASHINGTON : 1998
------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          











                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        ESTEBAN EDWARD TORRES, California   
HENRY BONILLA, Texas                   NITA M. LOWEY, New York             
JOE KNOLLENBERG, Michigan              JOSE E. SERRANO, New York           
DAN MILLER, Florida                    ROSA L. DeLAURO, Connecticut        
JAY DICKEY, Arkansas                   JAMES P. MORAN, Virginia            
JACK KINGSTON, Georgia                 JOHN W. OLVER, Massachusetts        
MIKE PARKER, Mississippi               ED PASTOR, Arizona                  
RODNEY P. FRELINGHUYSEN, New Jersey    CARRIE P. MEEK, Florida             
ROGER F. WICKER, Mississippi           DAVID E. PRICE, North Carolina      
MICHAEL P. FORBES, New York            CHET EDWARDS, Texas                 
GEORGE R. NETHERCUTT, Jr., Washington  ROBERT E. (BUD) CRAMER, Jr., Alabama
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director









=======================================================================


                       Department of the Interior

                         U.S. Geological Survey

=======================================================================









DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 1999

                              ----------                              

                                         Wednesday, March 18, 1998.

                    UNITED STATES GEOLOGICAL SURVEY

                               WITNESSES

THOMAS J. CASADEVALL, ACTING DIRECTOR
BONNIE A. McGREGOR, ASSOCIATE DIRECTOR, PROGRAMS
BARBARA J. RYAN, ASSOCIATE DIRECTOR, OPERATIONS
RICHARD E. WITMER, CHIEF, NATIONAL MAPPING DIVISION
ROBERT M. HIRSCH, CHIEF, WATER RESOURCES DIVISION
PHILLIP PATRICK LEAHY, CHIEF, GEOLOGIC DIVISION
DENNIS B. FENN, CHIEF, BIOLOGICAL RESOURCES DIVISION
WILLIAM F. GOSSMAN, JR., ACTING CHIEF, OFFICE OF PROGRAM SUPPORT
JAMES F. DEVINE, SENIOR ADVISOR FOR SCIENTIFIC APPLICATIONS
MARTIN E. ECKES, CHIEF, PROGRAM OPERATIONS OFFICE
MARY ANN LAWLER, DIRECTOR OF BUDGET, DEPARTMENT OF THE INTERIOR




[Pages 4 - 14--The official Committee record contains additional material here.]


                             Introductions

    Mr. Regula. We will get started. We are happy to welcome 
you this morning and hear about all the great things that USGS 
is doing and why we should give you lots more money.
    So this is the wish list, and we may be back to you to ask 
you to revise your wishes once we know what we have to deal 
with.
    Your statement or statements will be made a part of the 
record, and if you can summarize for us, we will very much 
appreciate it.
    Dr. Casadevall. Great. Good morning, Mr. Chairman and other 
members of the committee.
    Before I begin my opening remarks I would like to introduce 
the folks who are with me.
    On my right is Bonnie McGregor, Associate Director for 
Programs, and on my left is Barb Ryan, Associate Director for 
Operations, and we have some witnesses with us. Beginning from 
my right is Denny Fenn, the Chief Biologist; Jim Devine, who is 
on my staff as a special witness; Dick Witmer, Chief of the 
National Mapping Division; Bill Gossman, the Acting Chief of 
the Office of Program Support; Pat Leahy, who is the Chief 
Geologist; Bob Hirsch, the Chief Hydrologist; Marty Eckes, the 
Budget Officer; and the lady in the blue dress is Mary Ann 
Lawler from the Interior Department.
    Mr. Regula. She is a regular here.
    Dr. Casadevall. She's a regular with Regula. [Laughter.]
    Mr. Regula. I have to ask you, because the President of the 
Garden Club of America said on outside witness day that we need 
more botanists in the Government, in the science part of 
Government. I was waiting for you to introduce your botanist. 
[Laughter.]
    Dr. Casadevall. Well, Denny wears two hats, and one of his 
hats is----
    Mr. Regula. Oh, you are both a biologist and a botanist?
    Dr. Casadevall. We worry about both of those things in our 
Biological Resources Division.
    Mr. Regula. I would imagine you do.

                            opening remarks

    Dr. Casadevall. I will make some opening remarks, if you 
don't mind.
    Mr. Regula. That's fine.
    Dr. Casadevall. It is a pleasure to be here representing 
the U.S. Geological Survey and presenting its budget for fiscal 
year 1999. I have been on the job about 6 weeks, so I am not 
sure that I qualify as an expert in all matters. Probably not, 
so I will be relying on members of the staff for additional 
answers.
    It is a real honor, as a geologist, to serve as the acting 
director of the USGS and I certainly look forward to working 
with the committee to guide the future of the Survey.

                     response to effects of el nino

    This has been a challenging year for the Survey. It is a 
year in which our new motto, ``Science for a Changing World,'' 
has been put to multiple tests. In addition to extending our 
research and fulfilling our responsibilities involving natural 
hazards, natural resources, the environment, and science 
information management, our people are responding to many 
emergencies nationwide.
    In particular, I would like to highlight those stemming 
from the current winter season. Many say that these are 
associated with the current El Nino phenomenon. Our USGS 
landslide experts are working with FEMA in the State of 
California and with the National Weather Service to map, 
assess, and mitigate damage and potential damage from 
landslides and debris flows caused by El Nino-related storms.
    USGS hydrologists across the Nation are working with State 
and local officials to collect special hydrologic data during 
the El Nino season measuring ground water storage, increased 
stream flow, flood levels, and river channel changes.
    USGS coastal geologists are working with NOAA and NASA to 
evaluate the potential land loss in coastal areas. In fact, 
three sections of the Pacific coast roughly 200 miles each in 
length are being surveyed to determine changes in the coast 
line over this winter season.
    The USGS spatial data, maps, elevation models, and other 
products which are critical to emergency relief efforts by 
Federal, State, and local agencies are being made available by 
the Survey.
    USGS response teams are on call 24 hours a day to ensure 
that topographic and special maps are quickly put in the hands 
of emergency coordinators. Most recently I received a very 
impressive set of maps and GS spatial information for the 
Alabama floods.
    All of these El Nino response activities help demonstrate 
the growing relevance of the USGS to the people of the Nation 
to improving their quality of life and safeguarding their 
health through sustaining their resources and preserving the 
environment.

                           budget highlights

    Mr. Chairman, the USGS budget for fiscal year 1999 that I 
am presenting today is a good one. It is a responsible one and 
a balanced one. It provides important increases while 
maintaining sound fiscal restraint. The request level of nearly 
$807 million is a net increase of $47.5 million or about 6 
percent over our fiscal year 1998 enacted level with a total 
increase of about $70.5 million, which are partially offset 
through decreases of $22.5 million.
    This budget provides $17.5 million to cover uncontrollable 
increases in fixed costs, which is very important to maintain 
our critical base program. The budget includes $53 million in 
selective increases for program initiatives that address key 
emerging issues, improve USGS research capabilities, and serve 
the Nation and its people.
    Let me enumerate six of those increases: $16.5 million for 
clean water and watershed restoration initiatives; $15 million 
for the disaster information network; $11 million for the 
species and habitat initiative; $7 million for the water 
quality information initiative; $2.5 million for our satellite 
data archives; and finally $1 million to replace two 
incinerators used in wildlife disease research.
    While some programs of the USGS have been identified for 
reduction, the increases in our budget are focused on 
significant issues facing society. Our budget reflects a 
positive response to the changing times we live in. Issues like 
ensuring the availability of life-sustaining clean water, 
habitat protection for threatened and endangered species, and 
monitoring of natural hazards.
    The process of change is never easy. And in working to do 
our share to keep Government expenditures under control, many 
difficult decisions had to be made in arriving at our final 
budget submission. We are very pleased with our ability to be 
responsive to addressing the serious issues facing society 
today, such as the El Nino-related response I enumerated 
earlier.
    Mr. Chairman, I fully support this budget. It represents a 
major milestone in the development of the U.S. Geological 
Survey and a needed investment in the health and safety of the 
Nation and reflects our commitment to provide science for a 
changing world.
    I was hoping that Mr. Yates would be here. When he comes 
in, I would like to share some heartfelt comments from myself 
and the USGS family.
    With that, I will be happy to answer any questions that you 
and other members of the committee might like to ask.
    Thank you.
    [The statement of Dr. Casadevall follows:]

[Pages 18 - 23--The official Committee record contains additional material here.]


                      disaster information network

    Mr. Regula. Thank you very much.
    Your budget proposal includes $15 million for a new 
initiative proposed by the White House to develop a disaster 
information network. While this idea has some merit, the 
committee believes that such a network is not mission critical 
to the Survey and diverts scarce dollars away from high-
priority hazards research.
    Isn't it a fact that it is part of the Government-wide 
hazards cross-cut? It was originally decided that dissemination 
of disaster information should be provided to more than one 
agency. I know what they want to do. They are trying to 
concentrate it, but that is $15 million out of your budget. I 
am not sure that, given the present system, we need to add 
another one.
    Dr. Casadevall. Right. There are three levels here that I 
would like to address. I am also going to rely on Jim Devine, 
if Jim can join me at the table.
    The $15 million for the disaster information network really 
helps us build a piece for dissemination of information. You're 
right, the request we submitted earlier had two main parts. One 
was for improving and replacing of infrastructure, but the 
other part did relate to the information aspect. We feel that 
in this $15 million for the disaster information network we 
will be addressing that information need.
    Secondly, there will be other agencies working with us 
intimately in the disaster information network, NOAA and FEMA. 
So there are other agencies involved with us in the sharing and 
the tailoring of the product.
    Jim, would you like to add some additional comments?
    Mr. Devine. Thank you, Mr. Chairman, for allowing me to 
speak here.
    We recognize that this is a bit unusual in that we are in 
fact representing the entire component of the Federal 
Government that is concerned about disaster and disaster 
information management.
    Mr. Regula. You are really proposing to do that. Or are you 
saying that you already do that?
    Mr. Devine. I am here representing that effort right now as 
a transition team effort to put forth the argument as to why 
this ought to be done.
    Mr. Regula. So it is prospective?
    Mr. Devine. Indeed it is. We have done some preliminary 
work to try to develop the argument to show why this is an 
effective and critical element that will add to our ability to 
respond to natural disasters both before they happen, during 
the disaster, and afterwards. It is a time when the computer 
technology has advanced to a stage where we feel that 
leveraging the data from the various components of the 
Government to make a more efficient system overall is ripe to 
be done now. And with the increasing costs of disasters, we 
feel it is important to get at improving our ability to deliver 
this information to the people who need it.

             merger of biology into u.s. geological survey

    Mr. Regula. Well, we're going to have to take a serious 
look at that, given our budget constraints.
    How is the Biological Resources Division working out? You 
know the history of this. Do you feel confident you are meeting 
the needs of the Department and the agencies that are relevant?
    Dr. Casadevall. For the last 2 years I have been in the 
western region as the Regional Director there and I have had an 
opportunity to work with the five biological science centers we 
have in the western region.
    As you are aware, this committee had the clear wisdom two 
years ago to place the National Biological Service as a fourth 
division in the USGS. I think it has turned out to work 
remarkably well.
    Several recent problems that were handed to me--for 
example, the Salton Sea issue, the CalFed issue that the 
Appropriations Committee tasked the Secretary of the Interior 
with coming up with a monitoring protocol strategy--many of the 
timely issues that we were facing in the west and throughout 
the country. I don't believe I could have brought as complete a 
team to the table to address the issues if we hadn't had 
biological expertise. If we hadn't had it in-house, we probably 
would have been partnering either with universities or with 
some other Federal agencies.
    To me, it turned out to be a terrific move to have that 
expertise in-house, to have it available to work with us on a 
day-to-day basis. I have to say that I think it has worked out 
very, very well.
    Denny Fenn is here and I am sure Denny would have other 
things to add. But I think overall the Survey is quite pleased 
that we have that capability.

                           causes of el nino

    Mr. Regula. This will be the last question for me at this 
point.
    El Nino--tell me what causes it. What's the history of it?
    Dr. Casadevall. El Nino is a fairly complex physical 
phenomena. It typically affects large masses of water in the 
Pacific region. There is a close connection in a physical 
system sense between ocean temperature and the atmosphere. 
Typically what happens is an upwelling of warm water moves from 
west to east across the Pacific basin. As that water ponds in 
the equatorial region--starting from Peru to the south, up to 
California to the north--that provides a large mass of warm 
water, which has a significant effect on climate issues, 
particularly in the western margins of the Americas in North 
and South America.
    What it primarily does is that during the winter season 
when the jet stream dips down into North America it is able to 
pick up large amounts of warm moisture that it can then move on 
land and drop as precipitation, particularly in that belt 
between California and Peru.
    Mr. Regula. So it starts out as a warming phenomenon with 
the ocean?
    Dr. Casadevall. Right.
    Mr. Regula. What causes that?
    Dr. Casadevall. I am not an expert and I think if you were 
to read three different papers explaining the El Nino phenomena 
you would probably see three different explanations.
    One of the things that allowed us to anticipate this 
season's El Nino was that the National Weather Service has been 
tracking this migration or increase of temperature as it comes 
across the Pacific. Some of the scientists went out on a limb 
this past summer and said, ``I can see increased water 
temperature in the Pacific. This pattern is a forerunner for 
temperature increases that we're likely to see related to an El 
Nino for the 1997-1998 season.''
    We interacted with NOAA very carefully in planning an El 
Nino response this summer.

                            el nino response

    Mr. Regula. So you could predict it?
    Dr. Casadevall. We didn't predict it. NOAA actually made 
the prediction. We believed and acted on the basis of their 
prediction. We felt they were fairly robust.
    Last October, Ants Leetmaa and myself gave testimony before 
Congressman Doolittle's committee to basically lay out what the 
NOAA strategy was and what the USGS strategy would be in terms 
of responding. We provided information, as I enumerated 
earlier, on the landslide debris flow issue. We anticipated and 
prepared for floods. Our hydrologists in many of our districts 
prepared for that. And our coastal and marine program carried 
out some studies in cooperation with the Army Corps of 
Engineers and NOAA to basically map as a baseline several 
sections of the Pacific coast.
    As you have seen on CNN and television, we were remarkably 
ready. Some of the exhibit material you will see in the exhibit 
book--for example, number four--is a joint product we prepared 
with NOAA, with the National Weather Service. It marries two 
data sets that you normally wouldn't think of as being a 
marriageable set. One is the slope stability or inclination to 
have landslides and debris flows. We married that with NOAA's 
information about rainfall.
    When you take the El Nino phenomena and the debris flow, 
landslide problems, they are all about steep slopes and intense 
rainfalls. This map represents a marriage of these two data 
sets, slope information and rainfall information.
    [The information follows:]

[Page 27--The official Committee record contains additional material here.]


    Mr. Regula. So you are really saying that people and the 
areas affected had some warning. Even though they might not be 
able to do anything about it, at least they were alerted.
    Dr. Casadevall. That is indeed correct. In fact, if you 
lived in California beginning in about October virtually every 
bad thing that somebody could anticipate coming in the winter 
season was attributable to El Nino. It became almost a joke 
after awhile on the editorial pages.
    Mr. Regula. I know.
    Dr. Casadevall. But let me say that I think we were ready. 
I think the National Weather Service was ready. I think we have 
really served the public, particularly in the western region.
    Mr. Regula. The results could have been far worse.
    Dr. Casadevall. I think they could have indeed.
    Mr. Regula. Mr. Skaggs.

                         partnerships with noaa

    Mr. Skaggs. I really was glad that you had the conversation 
you were just having with the chairman on the interrelationship 
between your work and weather forecasting. I would just ask you 
to elaborate for the record, if you are able to, with some case 
studies--or whatever the right terminology might be--of both 
the value and the sort of costs avoided, if you can point to 
any such calculation, by having good advance word on El Nino or 
other weather phenomena. And also if there are any instances 
that lend themselves to that kind of quantification where 
better weather information would have made a difference that we 
can also get our minds around.
    I have been asking all your sister agencies for similar 
information about things within their purview as it relates to 
both the chairman and my work on another Appropriations 
subcommittee that deals with NOAA. We would just like to get as 
rich a record as we can on that.
    [The information follows:]

         Relationship Between USGS Work and Weather Forecasting

    Although there are no specific data on the value to USGS, 
or the cost avoidances that accrue to USGS associated with 
accurate weather forecasting and related flood forecasting, 
there is no doubt that the USGS makes use of these forecasts in 
scheduling our field operations. This is particularly true in 
the area of flooding. Our District Offices routinely 
participate in the flood outlook briefings provided by the NWS 
River Forecast Centers (RFCs). These outlooks provide long-
range guidance as to when and where USGS may need to increase 
its field activity to meet operational and public safety needs. 
During times of actual flooding, the forecasts provided by the 
RFCs can provide guidance to the scheduling of field activities 
when any savings in time can be critical. Good forecasts of 
river stages can help USGS schedule routine field trips to 
coincide with specific hydrologic conditions permitting 
sampling across the range of hydrologic conditions such as 
floods or droughts, and deployment of resources to the area of 
greatest expected needs.
    Accurate weather forecasts allow USGS to schedule water-
quality sampling to coincide with those specific climatic and 
hydrologic conditions that are of the greatest importance. 
Sampling at high discharges, during flood events is critical to 
determining rates of contaminant transport. Critical water-
quality conditions involving low oxygen, high temperature, or 
high dissolved solids can occur at the lowest flow conditions.

                    remote sensing data and imagery

    Mr. Skaggs. I wanted to ask you about the unique USGS 
responsibility to handle remote sensing data and imagery from 
our intelligence assets and make those available for other 
purposes within the Government. How is that going? What is the 
funding structure for it and its impact on USGS?
    Dr. Casadevall. I would be very happy to take a crack at 
the first one and the second part I will ask to be joined.
    Let me tell you about an example that you might not 
typically think of as being weather-related that is on the NOAA 
side. When volcanoes erupt, they will put large masses of 
volcanic ash up into the atmosphere. Typically, when we study 
volcanoes, the traditional approach was to look at hazards near 
the volcano, to worry about lava flows, debris flows, and gas 
emissions.
    What we learned in December 1989 was that volcanic ash can 
be transported great distances from a volcano and present a 
real hazard to aircraft. The way we learned how to track those 
ash clouds is to consider the ash cloud as a weather phenomena. 
So we rely and work very closely with folks at NOAA--
particularly the National Weather Service and their Air 
Resources Lab--who provide us information about winds aloft.
    The third leg of the ash aircraft issue relates to the FAA. 
There is very close cooperation between FAA which controls the 
air space and the air traffic, USGS which provides information 
about the activity at the volcano--the nature of the activity, 
what the style of eruption might be, whether it is going to 
produce ash or be like Hawaiian eruptions, which is a passive 
lava flow--and thirdly the important information we get from 
NOAA from their wind forecast information--either actual 
observed or predicted using the numerical model.
    There is a committee in the U.S. Government called the 
Office of the Federal Coordinator for Meteorology. That 
committee resides within the NOAA structure within the 
Department of Commerce. The committee is Chaired by two 
chairmen. One is from the FAA and the other is from USGS from 
the Department of the Interior. All three of us work very 
closely together.
    What have been the implications? With the information we 
know where the jet streams are. We know that the jet streams 
transport the ash clouds. And we know that aircraft fly and 
take advantage of the jet streams. We know where the jet 
streams occur.
    We have been able to restructure the air routes, 
particularly in the north Pacific region, so that we can avoid 
problems related to eruptions in places like Japan, the 
Kuriles, Kamchatka, and the Aleutians. There are almost 200 
active volcanoes between Japan and the North Cascades. The jet 
stream will carry that ash over the United States and impact 
the air routes in the north Pacific.
    So that is probably not an answer you might have 
anticipated about where NOAA and USGS and FAA have worked 
together on a very important problem for the American public.
    There have been cost savings. I would refer you to 
conversations we have had with United Airlines, with Federal 
Express. If they know there is going to be an event, if they 
get the warning from NOAA, they are able to reroute aircraft 
and realize fuel savings and quite an amount of financial 
savings because of this.
    I would be happy to provide for you some actual 
documentation on that.
    We also work with NOAA and the National Weather Service 
very closely with regard to the flood issue here in the United 
States. Bob Hirsch and our Water Resources Division have very 
close contact with NOAA and we could perhaps get into that.
    You asked the question about the classified assets and how 
we use that. Right now we rely very heavily on the available 
imagery--for example, from NOAA that comes from the 
geostationary satellites and from the polar orbiting 
satellites. Those platforms have, I would say, stable but 
rather limited capacity. We now know from experimental work 
that we can use remote sensing information to distinguish 
between water clouds, weather systems, and clouds that contain 
silicate particles or rock particles that are produced from 
eruptions.
    This is one of the avenues that we have been exploring 
using classified assets.
    I should say that also the Department of Defense is a 
member of the Office of the Federal Coordinator for 
Meteorology's Volcanic Ash Committee. So we rely and work with 
DOD very closely, particularly their weather command group in 
Nebraska.

                          partnership examples

    Mr. Skaggs. I hope you will take advantage of the 
invitation to make our record as rich as you can with concrete, 
practical examples in both of these areas that we've been 
talking about. This place, as you well know, gets in its own 
way because of the jurisdictional lines that get drawn among 
Appropriations subcommittees and the rest of our committee 
structures. Any help we can get in having a more synthetic view 
of how all this connects beyond the boundaries of our 
committees is very helpful and I hope will make for better 
judgments about your budget.
    I have some more questions, but I will let my colleagues go 
and I will come back again in a little bit.
    Mr. Wamp [assuming chair]. Thank you.
    Before I ask a couple of questions and give Mr. Nethercutt 
a moment to catch his breath, I want to say that I appreciate 
Mr. Skaggs for not being a lame duck. I try to come to all 
these hearings, and this is only my 2nd year on the 
subcommittee. I find it fascinating and want to learn all I can 
for a variety of other reasons. But Mr. Skaggs has given this 
committee a long time of service and he continues to be here 
all the time. I am very grateful for his interest, even on his 
way out of town in his last year. We have not really recognized 
him. Everybody recognizes Mr. Yates because he preceded just 
about everybody around here. [Laughter.]

                            budget increases

    But Mr. Skaggs continues to really honor us with his 
involvement and serve his constituents and our country very 
well with his questions.
    Mr. Director, I would like to say welcome to the entire 
USGS team. I think you all should be commended for really 
serving us well and trying to meet the needs of the country. I 
want to focus on the $48 million increase, just in layman's 
terms--and I have read your testimony and I see the breakdown 
of where the money comes from--but can you say how much, in 
layman's terms, of this $48 million increase is attributed to 
Mother Nature? When you get right down to it that this is just 
kind of a strange time?
    Dr. Casadevall. Thank you, Mr. Wamp.
    Let me first say that we want to agree with your comments 
on behalf of Mr. Skaggs. As a former resident of the great 
State of Colorado, I want to extend our appreciation for the 
support you have given us, particularly in the area of thecivil 
applications community and your interest. They have really been very 
helpful to us in our programs. We appreciate that very much.
    Mr. Wamp, you asked about whether Mother Nature played a 
significant role with regard to this increase. Is Mother Nature 
doing strange things? That is probably a little hard to say. We 
certainly have the El Nino phenomena that are triggering a 
whole set of responses with regard to physical hazards. 
Biological issues are also keenly tied in or directly tied in 
to El Nino. We have drought conditions now in Hawaii that are 
affecting critters and vegetation issues. In California, we are 
probably going to see outbreaks of some pests and perhaps 
rodents related to the additional moisture El Nino has brought.
    Is it any different than usual? I think that is probably a 
bit hard to say. We don't come to this committee this time 
talking about a big earthquake. We don't come to the committee 
this time talking about a big volcanic eruption. Those have 
been subjects of recent committee hearings for our 
appropriations.
    I think the increases we have are focusing on some of the 
key issues that the country is facing. A lot of these are 
issues related to water quality, availability of water 
information. They are related to habitat issues, ecological 
issues. Part of that increase is related to the increase in our 
fixed costs, which are something that are very difficult in our 
agency.
    When I came on board about 6 weeks ago, one of the first 
things I did was to look at some of the figures about our 
budget over the last decade. And one of the things that scares 
me a little bit is that we have been pretty much flat-lined. We 
appreciate in these tight budget times that we have been flat-
lined, but what flat-lined budget funding means is that as your 
uncontrollable costs go up, we have to continually make some 
very hard choices about what elements of programs we are going 
to be discontinuing so that we can continue to keep the agency 
afloat.

                         clean water initiative

    Mr. Wamp. Let me switch gears for just a second and go to 
clean water initiatives. The Vice President is from my home 
State and it is no secret that he is a proponent of 
environmental stewardship. This subcommittee is also a 
proponent of environmental stewardship and has put their money 
where their mouth is over and over again.
    The clean water initiatives, many of which were ongoing 
here, have been underscored by the Vice President in recent 
months. Certainly, we appreciate the cheering section. We 
continue every year to try to find the money for these clean 
water initiatives.
    Really there is a lot of noise made by Ms. Browner and 
others about air quality--and air, land, and water are all 
important. There is no question about it. But are we 
overlooking the water issue too much? Aren't we approaching a 
global crisis in fresh, safe drinking water? Fresh, safe usable 
water? And aren't our watersheds becoming more and more of a 
problem?
    I frankly recognize the $16.5 million increase in the clean 
water initiative and I know that the Vice President is sounding 
the horn and the noise needs to be made. But isn't it fair to 
say that there is more noise being made about clean air right 
now when frankly we need to be making more noise about clean 
water?
    Dr. Casadevall. Mr. Wamp, that is an excellent question.
    I am going to ask that Bob Hirsch, our chief hydrologist, 
who has intimate knowledge about several of the water areas you 
have mentioned, to address this.
    Dr. Hirsch. Thank you for the question.
    Clean water has been a major concern of the Geological 
Survey for 100 years, and over the last 2 decades we have 
increased our activities a great deal.
    I think the Nation has actually made considerable progress 
on clean water due to the Clean Water Act in 1972 and continued 
spending to clean up point sources of pollution, our municipal 
waste treatment and industrial sources. And actually air 
quality, which you mentioned, has improved dramatically, 
particularly with respect to sulphur compounds, which has made 
a great improvement in waters in particularly the northeastern 
parts of the United States.
    The Clean Water Action Plan has really focused on what is 
the remaining task that needs to be done. That remaining task 
really focuses on what we call nonpoint sources of pollution 
relating to urban land uses, relating to agricultural land 
uses. A new area that I think is of great importance all around 
the country is confined animal feeding operations. High 
concentrations of pigs, chickens, or beef cattle and the waste 
that come from those and the use of pesticides are yet other 
issues.
    So the increases that are proposed in our budget are really 
focused around these generally nonpoint sources of pollution 
and how they move through watersheds and the coupling of our 
information about the flow of rivers and the chemicals moving 
in those rivers is really where we are putting our emphasis in 
this budget.
    Mr. Wamp. Mr. Nethercutt.
    Mr. Nethercutt. Thank you, Mr. Chairman. The chair seems to 
fit you comfortably. I was going to say more until I saw the 
real chairman over here. [Laughter.]

                    stream gages in washington state

    Mr. Nethercutt. You're doing a great job.
    Welcome to you, witnesses.
    I read with interest a brief you prepared on stream gages 
in Washington State and had a chance to look at your web site 
on the real-time water resources data. In the stream gages 
brief you indicate that the information is delayed from 2 to 6 
hours due to software limitations. In accessing the stream flow 
conditions for the Palouse River, which is in my district, 
there is indicated a 3-hour delay, assuming the time indicator 
on that web site page is Pacific time.
    Is it possible technologically to allow the public to have 
access to your database to receive the information almost 
simultaneously?
    We had a serious flood in the Palouse River in 1995 and 15 
minutes would have been a great help if we could have known 
what was coming when. Heroic efforts were made to save an old 
pump house in Palouse. I happened to go down right after the 
flood occurred. The folks on the ground were saying to me that 
if they could have had more lead time it would help them 
prepare better and get into position.
    [The information follows:]

[Page 34--The official Committee record contains additional material here.]


    Dr. Casadevall. Thank you, Mr. Nethercutt.
    Let me ask Bob to address the specific issue of the lead 
time, but also let me draw your attention to the last exhibit 
in the book, on page 45. This gives you a snapshot of the USGS 
streamgaging stations and the whole issue of those stations 
which are available in real time versus those not. We have just 
under 7,000 streamgages in the country and a little more than 
half of these now have telemetry.
    Telemetry is simply a radio or a means of getting the 
information from the streamgage into a site in near real-time. 
You have asked a very important question about why we have the 
delay and I am going to pass the hard part of that to Bob.
    Dr. Hirsch. Thank you.
    I am in fact well aware of the concerns in the town of 
Palouse, Washington. In fact, about 2 months ago I had an 
exchange of several e-mail messages from Mr. Marvin Pillers, 
who is very involved in emergency management in that community, 
about the availability of data on the Internet. I think we in 
fact came to some really good accommodations with him.
    The issue of the time delay is this: in general, our data 
collection platform--that is, the device at the streamgage--
broadcasts data to the satellite once every 4 hours. Most of 
the time, that is a sufficient frequency of transmission to 
provide information for most uses. There is no significant 
delay between when we receive that data and when such an 
individual would receive it on the Internet. In fact, we have 
recently upgraded our software and I think we are down to less 
than 15 minutes of delay between when we receive it and when it 
is available on the Internet.
    During flood times, these transmitters are programmed to 
increase the frequency of transmission so that at critical 
times of flood they in fact transmit much more frequently, so 
that the data would be on the order of 1 hour old versus 3 or 4 
hours old. But there is really no difference between the 
availability of information to us and to an individual citizen.
    One of the increases proposed in this budget is for further 
enhancements of that data system. That is in our water 
information delivery line item. Our biggest concern, frankly, 
is total system reliability so that during these critical 
events when there can be power failures, communication 
failures, et cetera, that we be able to maintain that 
transmission.
    In Hurricane Fran in North Carolina, for example, our gages 
operated fine, but our office was without power and we were 
unable to transmit the information to the people who needed it. 
We need some redundant systems in order to continue to do that.

                           real-time network

    Mr. Nethercutt. We talked about this last year in the 
hearing and I am wondering, to the extent that you have more 
funding, what are your recommendations regarding the structure, 
the size, the location, and the cost of providing a real-time 
network. What would you do if you had more money to really make 
it real-time?
    Dr. Hirsch. I guess the first point would be to increase 
the number of sites at which we have these satellite data 
collection platforms. We envision in a matter of a few years 
that every one of our sites should have a data collection 
platform. It helps us do our jobs better because we know if 
there is a malfunction and we collect that data, plus providing 
many services to others. And we have some 3,000 or so 
additional sites that need these data collection platforms.
    I just mentioned the data system redundancies that we think 
are extremely important to the system.
    Another issue is that some of these gages were not 
originally created for purposes of monitoring, but were really 
designed to handle more the average flows. If they were damaged 
in a flood, that was not a great concern to those who provided 
the funding. With this new real-time capability, we need to 
rebuild and harden many of these gages so that they can 
withstand very, very large extraordinary floods. We estimate 
there to be about 500 stations around the country that need 
that kind of flood-hardening.
    The other is that over the last few years, because of 
budget limitations, we have literally lost about 268 
streamgages that were critical to the National Weather Service 
flood forecasting function. They use our streamgages in their 
flood forecasting. These were sites that--because of 
limitations on our part and our cooperators' parts in many 
cases--could no longer be funded. The Weather Service has been 
discussing with us a need to restore those sites. We quite 
agree with the importance of that.
    Mr. Nethercutt. For the record--and I know it is probably 
too technical to do it here today--I and the committee would 
like to know--if funding is available, what are your 
recommendations on the structure, the size, the location, and 
the cost of providing a real-time network?
    Dr. Hirsch. We would be happy to do that.
    [The information follows:]

[Pages 37 - 38--The official Committee record contains additional material here.]


    Dr. Casadevall. Mr. Nethercutt, if I could play off that, 
you have some insight into one of the key hazard infrastructure 
networks the USGS runs, and that is the streamgage network. We 
also have a seismic network that is made up of many small 
subsets of smaller networks across the country, which is also 
an aged system. We use technologies largely that are 10, 20, 
and 30 years old. I am not saying they are out-of-date, but 
they are older and have limited capabilities.
    We also have volcano monitoring responsibilities. We are 
the third most volcanically active country in the world and we 
have a whole string of volcanoes in the northwest.
    Mr. Nethercutt. We know. [Laughter.]
    Dr. Casadevall. The point is that we are very concerned in 
the USGS with these three sets of hazard infrastructure systems 
that we depend on very heavily to give the Nation adequate 
information about hazards.

                    number of streamgaging stations

    Mr. Nethercutt. Just to make sure on this particular 
subject, have the number of streamgaging stations been 
increased over the last year? I know we lost some.
    Dr. Casadevall. Once again, if you go back to exhibit 45, 
you will notice that we reached a peak of a little over 7,000 
stations in the early 1990s and we are now just under 7,000. So 
we have not increased.
    I think the key point is that we have increased the number 
that have the radio telemetry and that is really important. 
Rather than getting your data once a month, you can now get it 
perhaps as frequently as every 15 minutes.

                 great lakes geologic mapping coalition

    Mr. Regula [presiding]. I have a couple of questions and 
then we will go around again.
    I was interested in your opening comments about 
partnershiping with local, State, and probably the private 
sector. I know of the experience in California of finding out 
how you have worked with the universities, with the county 
governments, et cetera. I think it is great that you are doing 
that. Obviously, you are committed to it prospectively.
    This is a little parochial. The USGS justification states 
that the national mapping program assumes that ``a greater 
reliance on partnerships with other Government agencies and the 
private sector in all mission areas will be permanent. Multi-
partner consortia and shared funding agreements will be the 
basis for meeting most mapping needs in the future.''
    A coalition of the Great Lakes States--which I guess now 
includes Vermont--including Ohio has approached the Survey 
about developing 3-D surficial geologic maps in digital format. 
These maps would be able to show the geological formations of 
these glacial States and would be useful in such vital land use 
decisions as siting landfills and drilling new water wells. Of 
course, as Mr. Wamp pointed out, water is getting to be a 
greater problem.
    The question is, are you currently working with the central 
Great Lakes geologic mapping coalition in developing a program 
to map the geologic formations in the glacial States, which 
includes the Great Lakes?
    Dr. Casadevall. Yes, indeed, we are, Mr. Chairman.
    I would like to invite Pat Leahy, our chief geologist, to 
come to the table to provide some more detail.

                 national cooperative geologic mapping

    Dr. Leahy. Good morning, Mr. Chairman.
    The national cooperative geologic mapping program is a 
strong partnership with the States. Let me recount to you what 
is happening in the Great Lakes area.
    I don't have to tell you, but something like one-sixth of 
the population of the country lives in that area, and I believe 
about half of the heavy industry in the United States is 
located in that area.
    It was about a year ago that the State geologists from 
Ohio, Illinois, Indiana, and Michigan came to visit me to 
discuss the importance of the Great Lakes in terms of the need 
for geologic mapping. As a result of those discussions, we 
participated in a workshop that was sponsored by the States 
last summer. There were over 170 participants that attended 
that workshop, users of geologic information. Basically getting 
that input was extremely important in terms of crafting a 
proposal for work to be done in the area.
    I do want to point out that there were over 90 Federal, 
State, county, private, and university agencies that were 
reflected in that workshop.
    We are in the process of working with the States to develop 
a plan for 3-D mapping of extremely complicated glacial 
deposits. Unfortunately, as you know, this program is cut and 
the resources are not available to move forward with that 
activity.
    Mr. Regula [presiding]. I can remember in past years we 
funded the system whereby they overflew these areas of the 
United States and using electronic signals could get more than 
just surface mapping. Is that correct?
    And that was completed? Am I correct in that?
    Dr. Leahy. I believe so. I think the key thing here is that 
there is a map of that part of the country that was compiled by 
the USGS. However, it is a very small scale and it covers a 
large area. The issues that are facing the area will require 
much more detailed 3-D mapping. A partnership with the States 
is the way to accomplish this.

                 state and private sector partnerships

    Mr. Regula. Would it be fair to say that prospectively your 
emphasis will be more and more on partnerships with both State 
and private sector entities in order to maximize your 
resources?
    Dr. Casadevall. I would say all across the Bureau, 
virtually every division is pretty deeply involved in very 
serious partnerships issues both with other Federal agencies 
and State and local agencies.
    Let me clarify a point about partnerships. When we say that 
we are partnering, for example, with the EPA here in Chesapeake 
Bay, I think there has often been confusion about having two 
Federal agencies replicating activities. That is really not the 
case. It is like in a marriage. I am not married, so I cannot 
speak from personal experience, but from what I have read and 
observed--
    [Laughter.]
    Dr. Casadevall. You have two partners. The two partners try 
not to replicate their activities. I would say that this is a 
characteristic of most of the partnerships we have with Federal 
and State agencies. I think in talking to people back here I 
get a very strong sense that they feel that if you are in a 
partnership they are replicating activities. That is not the 
case at all. I think in the USGS we are very careful to make 
sure that we don't duplicate each other's activities.
    Mr. Regula. Mr. Skaggs.
    Mr. Skaggs. Thank you.
    I guess I feel obliged to observe that there is a lot of 
replication that goes on in marriages, just hopefully not much 
duplication. [Laughter.]

            National Cooperative Geologic Mapping Reduction

    Mr. Skaggs. I am concerned about the same--I seem to be 
following you today a lot, Mr. Chairman--about the cooperative 
mapping program. I got a very persuasive letter from folks at 
home who are real worried about this proposed cut. I do not 
want to cover this ground again, Mr. Chairman, but I sure hope 
we will be able to find a way to avoid that part of your 
request, as it were.
    Mr. Regula. If you would yield, Mr. Skaggs----
    Mr. Skaggs. Certainly.
    Mr. Regula. I agree with Mr. Skaggs. I think when we come 
back to you on prioritization and we know what kind of a number 
we are dealing with, I would hope this would have a high 
priority. I think you are reflecting the same thing.
    Dr. Casadevall. Yes, sir.

                        Satellite Remote Sensing

    Mr. Skaggs. Just to wrap up on one of the topics we were 
talking about a few minutes ago, I am not sure if we were clear 
that I would appreciate also for the record an accounting 
treatment of the satellite remote sensing national technical 
means area, how much it is costing you, and what you think it 
may be saving you.
    Dr. Casadevall. We will be sure to get you that, Mr. 
Skaggs.
    Mr. Skaggs. I know those are tough calculations, but the 
best you can do.
    [The information follows:]

[Pages 42 - 43--The official Committee record contains additional material here.]


                      Global Seismographic Network

    Mr. Skaggs. Another area where you all interface with the 
national security is the seismic network and its role in 
enforcing Test Ban Treaty. Would you remind me how that works? 
Do you get any money from DOD, CIA, or whoever it is for your 
contribution to that effort?
    Dr. Casadevall. I am going to ask Pat Leahy to address the 
specifics, but first let me refer you to exhibit nine. The 
network you are referring to is our global seismic network. 
This of course is key for providing both the Nation and the 
world with accurate information on earthquakes.
    Regarding the funding from agencies like DOD and the CIA, I 
will refer to Pat.
    [The information follows:]

[Page 45--The official Committee record contains additional material here.]


    Dr. Leahy. Mr. Skaggs, if you recall, this was an item we 
discussed last year during the appropriations hearing.
    There was a $3.8 million item in our budget that is 
supporting the USGS role in terms of the global seismographic 
network. This is a modern digital network of seismometers 
located around the globe at 150 sites. It is a strong 
partnership with NSF, the USGS, and a group called IRIS, which 
is the Incorporated Research Institutes for Seismology.
    Our contribution is the installation and maintenance of 
about 80 sites, about two-thirds of the network. NSF is also 
putting funds to support other parts of the network.
    Mr. Skaggs. And is that all coming out of your budget, or 
do we get some interagency transfers to help you?
    Dr. Leahy. Basically, our $3.8 million is for our 
responsibility here. NSF is supporting some of the network as 
well as research activities by universities.
    Mr. Skaggs. Did we get any addition to your base to cover 
this and any subtraction from the base on our Defense 
Subcommittee?
    Dr. Leahy. Not that I am aware of, Mr. Skaggs, but we can 
check that for you. We apparently did not.
    Mr. Skaggs. I am just wondering whether some of this ought 
to be accounted for under the 050 account rather than under 
this one.
    Mr. Regula. I am sure they agree with you.
    Mr. Skaggs. It is an interjurisdictional matter. 
[Laughter.]

                           Reduction in Force

    Mr. Skaggs. We had a major RIF a couple of years ago. I 
still hear from folks at home who are bruised and troubled by 
how all that happened. I know you have attempted to scrub those 
decisions and resolve any issues of inequity or much less legal 
violation. But I think there are still some appeals pending 
from that RIF, and it has not gone unnoticed by those affected 
that when the Secretary was in and we were looking at the 
departmental budget that there are at least requests for 
additional FTEs. I don't know all the OPM rules on this sort of 
thing, but it would seem to me to be more than nice if we can 
make sure that any of your RIF'd people are sought out and not 
left to their own devices with regard to any vacancies within 
the Department--not just the Survey--for which they might be 
qualified.
    Dr. Casadevall. Let me say that I agree with you. I was a 
supervisor in Lakewood, Colorado in 1995 in a program in the 
Geologic Division. I had to sit across the table like this and 
distribute six RIF notices. It was one of the worst things I 
ever had to deal with. I sort of made a personal commitment 
that to the extent possible I would try to avoid that as a 
management tool in the future.
    You are referring to the RIF in the Geologic Division, but 
let me remind you that we also, about the same time, faced a 
serious downsizing in the National Biological Service when it 
was brought over as the Biological Resources Division. Then in 
fact another group from the Bureau of Mines was largely 
decimated as that agency was abolished. We brought in a number 
of people from the minerals information team.
    I think many of us managers in the USGS are acutely aware 
of the pain that goes along when you have to go the RIF route. 
There is of course a RIF placement list that people who have 
been RIF'd can get their names on. That makes them eligible to 
be contacted by not just USGS but by other agencies in the 
Federal Government. And a number of our employees--people I 
worked with personally--have been picked up by the Bureau of 
Land Management, by the Park Service, on contractual work 
opportunities.
    Let me say that your comment about the FTE is an important 
one that I want to note. I am going to ask Barb Ryan to make a 
comment, please.

                      Buy-out Authority Extension

    Ms. Ryan. If you remember, we actually came before this 
committee and sought extension of the voluntary buy-out 
authority in 1997 because a RIF should be a tool of last resort 
for downsizing the Federal Government. As a condition of being 
granted this buy-out authority, we can seek no additional 
increases in FTE beyond our 1996 levels.
    The only other thing I would like to add is that to the 
extent that Congress can continue to look favorably on tools 
like extension of early-out authority, and buy-out authority--
these authorities give Federal agencies more tools in the tool 
box for more humane ways to downsize the Federal Government.
    Mr. Skaggs. And back in conclusion to the connection 
between what you do and what NOAA does, I suspect but don't 
know what sorts of things the Service may be involved in that 
relate to global climate change factors. Maybe this is not 
anything that you are attending to, but if it is, I was just 
curious what they might be, whether it is volcanism or other 
things that may have climatic significance.

               partnership with national weather service

    Dr. Casadevall. Are you referring to the possible 
connection that we might have in terms of research interests 
with NOAA and the Weather Service?
    Mr. Skaggs. Yes.
    Dr. Casadevall. We do have a number of programs going on 
with NOAA where the issue of climate change or global change 
comes up. We are working with NOAA in the area of oceans and 
the impact of climate variability on oceans, changes that could 
affect aquatic habitat, that could affect coastal issues.
    You are probably aware that the whole issue of sea level 
rise is one of the outcomes from current assessments of global 
change. There is global warming and the whole issue of sea 
level change.
    NOAA has responsibilities in the coastal zone. And we work 
very closely with them through our coastal and marine program. 
We have two scientists now at the NOAA Geophysical Lab up in 
Boulder that are working with NOAA on the issue of climate 
change and climate variability as part of the assessments that 
were carried out that the USGS had responsibility for both in 
Alaska and the southwest where the Survey led those assessment 
efforts. We work very closely with NOAA scientists in the whole 
issue of climate variability.
    Mr. Skaggs. If on reflection there are some other examples 
in which geologic factors that we might not normally think of 
can have some impact on the global climate issue, I am just 
interested in what a polar catalog might look like.
    Mr. Regula. Put that in the record.
    Dr. Casadevall. We would be happy to.
    [The information follows:]

                Geologic Factors Impacting Global Change

    Gases from volcanoes give rise to numerous impacts on 
climate, the environment, and people. USGS scientists are 
inventorying gas emissions at many of the almost 70 active 
volcanoes in the U.S. in order to build a better understanding 
of how volcanic emissions affect global climate.
    Volcanoes affect the climate through the gases and dust 
particles blasted into the atmosphere during eruptions. The 
effect of the dust and volcanic gases may be cooling or warming 
of the earth, respectively. Volcanic dust can cause temporary 
cooling. Tiny dust particles blasted high into the upper 
atmosphere, or stratosphere, can remain for weeks to months, 
blocking sunlight and causing some cooling over large areas of 
the Earth. For example, global temperatures dropped about a 
degree for two years after the eruption of Mount Pinatubo in 
1991, and cold temperatures caused crop failures in North 
America and Europe in the two years following the eruption of 
Tambora in 1815.
    Volcanoes that release large amounts of sulfur oxides 
affect the climate more strongly. The sulfur gases rise into 
the stratosphere and form a haze of tiny droplets of sulfuric 
acid that reflect sunlight. Sulfur hazes may have been the 
primary cause of the global cooling that occurred after the 
Pinatubo and Tambora eruptions.
    Volcanoes also release large amounts of water and carbon 
dioxide, greenhouse gases that absorb heat radiation. It is 
possible that over long periods of time (thousands or millions 
of years), multiple eruptions of giant volcanoes may have 
raised the carbon dioxide levels in the atmosphere enough to 
cause significant global warming in the geological past.

    Mr. Regula. Mr. Wamp.

                           acid mine run-off

    Mr. Wamp. If I could ask Mr. Hirsch to come back up again, 
I want to jump back on the water issue for just a moment and 
get into this issue of acid mine run-off.
    In the southeast, particularly the Appalachian region where 
I live and serve, we still have this disconnect it seems 
between the mine reclamation effort and the money that was set 
aside for that and the actual cleanup of our watershed. We 
have, for instance, not too far from where I live a great creek 
with no wildlife in it, no fish in it. The pH is so low that 
the fish died. And it is all a result of acid mine run-off.
    I just wanted you to find out where we are with that, how 
do we coordinate with other agencies, and how can we get some 
of the money back out of those trust funds to use to clean up 
these abandoned mines?
    Dr. Hirsch. I'm not sure I can address the trust fund 
issues because they are really controlled in other places and I 
am simply not familiar--and I do not know if any of my 
colleagues are familiar--with how those are managed.
    I would point to two areas in the country where we have 
been engaged in mining issues. Actually illustration number 31 
in our book is not about coal in the east, but about metal 
mining conditions in the west. But many of the issues in fact 
are quite the same. Some of the same naturally-occurring 
minerals are in coal as well as in hard rock mining areas and 
cause a variety of problems.
    We have an effort, in fact, that involves all of our 
divisions in conjunction out there in Colorado and Montana with 
the Bureau of Land Management, to assess watersheds to 
determine where in that watershed are the worst problems coming 
from so that the efforts can be targeted to where the greatest 
amounts of acids and various metals are coming from. We use 
tracer injection techniques in order to do that and use a lot 
of biological surveying techniques to understand where these 
metals are concentrated.
    We also do a lot of work in our Federal-State cooperative 
program within the Water Resources Division in some particular 
States that have a strong interest in this issue. I am aware of 
a number of studies in Pennsylvania, for example, that have 
looked at not only where the problem is coming from, but what 
are some natural treatment processes to improve acid mine 
drainage conditions.
    We would be happy to provide for the record any information 
we have about what we might be doing in Tennessee and in other 
places that relates to that in working with the State agencies 
in our cooperative program.
    [The information follows:]

[Page 50--The official Committee record contains additional material here.]


    Mr. Wamp. Such as man-made wetlands where the water works 
its way through that?
    Dr. Hirsch. Some of it is man-made wetlands. Others is 
simply introducing limestone into the flow system to do some 
neutralization as the water moves through the system. That 
would be two of the major areas.
    Mr. Wamp. Thank you, Mr. Hirsch.
    [The information follows:]

                    Acid Mine Drainage in Tennessee

    The USGS Water Resources Division has prepared a series of 
reports on the hydrology and water quality of the coal 
provinces of Tennessee. The reports, prepared as part of the 
USGS Coal Hydrology Program, summarize available surface-water, 
water-quality, ground-water data, and the location of active 
and inactive mines. Coal Hydrology Reports for Area 18 (WRI 81-
492) Area 19 (WRI 81-901), and Area 20 (WRI 82-440) cover the 
Third U.S. Congressional District.
    The U.S. Office of Surface Mining (OSM) is the primary 
agency regarding acid mine drainage problems in Tennessee. 
Recently, USGS and OSM discussed potential programs to monitor 
water-quality issues related to mining, but funding was not 
available.
    The USGS Water District Office in Tennessee continues to 
provide data and technical advice to the National Park Service, 
State and local agencies, and environmental groups such as the 
Friends of North Chickamauga Creek Greenway as they deal with 
acid mine drainage problems.
    The Biological Resources Division of USGS developed a 
prototype method for treating acid mine runoff from streams in 
direct response to problems on National Park Service lands on 
the Big South Fork River in Tennessee. A demonstration of this 
device will be constructed at Friendship Hill, Pennsylvania 
using money in the FY 1999 Clean Water Initiative. The purpose 
of this demonstration site is to prove this method useable for 
full scale treatment of a river damaged by acid mine runoff. If 
this new method is successful, it will provide a blueprint for 
treatment and restoration that can be used at the Big South 
Fork and other places throughout the Appalachians. Having a 
proven technology for treatment is a critical ingredient for 
obtaining cleanup funds.

                          abandoned mine lands

    Dr. Casadevall. Mr. Wamp, if I could just add a comment, 
you asked a very important question because you touched on 
literally all four divisions of the USGS where we are active in 
the abandoned mine lands area.
    You mentioned habitat. It is very difficult to go back into 
these areas and--when you are talking restoring, you are 
talking about restoring the habitat, you are worried about the 
critters and the vegetation that are in that landscape. So for 
example, in Colorado in the Animas abandoned mine lands focus 
area, we are working very closely with water quality folks from 
WRD, geologists, and the folks from the Biological Resources 
Division to really evaluate what we restore to.
    I also want to draw your attention to exhibit 31 where we 
touch on the whole play of expertise that we have in the Bureau 
looking at abandoned mine lands, particularly on Federal lands.
    Mr. Wamp. Thank you, Mr. Chairman
    Mr. Regula. Following up, I assume you prioritize the needs 
and then BLM and other agencies do the follow-through?
    Dr. Casadevall. As a matter of fact, in the Animas project 
we are working very closely with BLM and with the Forest 
Service. They have geologists, biologists, and hydrologists on 
the same team who are part of a stakeholders group. What we 
have done through study there is to prioritize which drainages 
are the culprit drainages. Where are the heaviest point sources 
of contribution.
    Again looking back at map 31, talking about prioritization, 
you see the State of Montana in the exhibit. Through a set of 
criteria we have developed in cooperation with BLM, the State 
of Montana, and the Forest Service, we have been able to narrow 
down--given the small amount of Federal dollars we can put 
toward the problem, you can't attack the whole State of 
Montana. But it is very clear when you do an assessment with 
some very basic criteria that there are some hot spot areas 
that deserve priority treatment.
    Mr. Wamp, in the State of Tennessee, this same approach 
could easily be applied, a geo-environmental hazard assessment 
for your streams.
    Mr. Regula. Is it safe to say that as a result of the 
National Strip Mine Act and the States' strip mine laws that we 
are not creating problems today prospectively? Are we avoiding 
this at least in terms of today's mining as opposed to 
remedying things that happened in the past?
    Dr. Casadevall. I am not an expert in this particular area, 
but my sense is that the laws that were passed to prevent this 
in the future were done wisely. My sense is that the answer is 
a qualified yes. Given the state of knowledge we had at the 
time we passed those laws, we were doing the best job. What is 
changing, though, is the way we mine mineral deposits, the way 
we mine coal deposits. Those are producing different sets of 
consequences.
    I think it is fair to say that we have not been able to 
anticipate all the possible unintended consequences of these 
new mining techniques.
    Mr. Regula. Mr. Nethercutt.

                   contracting commercial activities

    Mr. Nethercutt. Thank you, Mr. Chairman.
    I want to speak with you for a minute about the old 
National Biological Survey.
    There is an Executive Order, number 12615, which requires 
that every Federal agency ensure that new Federal Government 
requirements for commercial activities are provided by private 
industry except where statute or national security requires 
Government performance or where private industry costs are 
unreasonable.
    With regard to the Biological Resource Division--which used 
to be the old National Biological Survey--since it is newly 
formed, all of its commercial activities appear to me to be 
subject to the requirement of this Executive Order.
    Can you say at this point or for the record how the 
Biological Resources Division has complied with this 
requirement?
    Dr. Casadevall. Let me ask either Denny Fenn or Jim Devine 
if they have a comment. If they do not, then I wouldlike to get 
back to you with a written response. I do not have that knowledge.
    Dr. Fenn. Mr. Nethercutt, I guess I need a little bit of a 
clarification in terms of what you mean by commercial 
activities so that I can make sure I am answering the question 
you are asking.
    Mr. Nethercutt. I am just quoting out of Executive Order 
12615, which talks about commercial activities in trying to 
save costs.
    I am informed that OMB defines commercial activities.
    Dr. Fenn. I am not aware of us having any commercial 
activities, per se. I think we are involved in research support 
to the various Federal land managing agencies from which we 
were formed. But in terms of commercial activities, per se, I 
am not aware of any activities that would come under that 
particular circular.
    Mr. Nethercutt. Perhaps for the record and with specific 
regard to engineering, mapping, and remote sensing-related 
activities, you could provide an answer as to whether the 
Biological Resources Division has made a determination on 
national security or unreasonable private sector costs for 
those services.
    Dr. Casadevall. We would be happy to do that.
    Mr. Nethercutt. I am just wondering to what extent this 
Executive Order has been circulated within the agency and 
whether and to what extent it has been complied with.
    [The information follows:]

                   Contracting Commercial Activities

    The Biological Resources Division (BRD) of the USGS would 
not be subject to the stated requirements because the agency 
did not promulgate new Federal government requirements for 
commercial activities. The BRD does not perform any commercial 
activities. Further, BRD is not a new Federal entity. The BRD 
was formerly the National Biological Survey (later renamed the 
National Biological Service), which was created in 1994 by 
consolidating research functions already in existence and 
residing within the U.S. Fish and Wildlife Service, National 
Park Service, Minerals Management Service, Bureau of Land 
Management, Bureau of Reclamation, and Office of Surface 
Mining. In this merger of research functions, authorizing and 
enabling legislation remained unchanged, leaving BRD with the 
same responsibilities that each of its predecessor bureaus had.

                      disaster information network

    Mr. Nethercutt. You have requested a $15 million increase 
to establish a disaster information network. I am wondering 
whether any other Federal agencies--specifically NOAA--has such 
a network.
    Dr. Casadevall. Let me ask Jim Devine to come to the table. 
While he is coming, that $15 million is coming to the USGS, but 
it is to fund an interagency cooperative activity. And I 
believe that NOAA is one of the partners in this activity. Jim 
will have some specifics.
    Mr. Devine. Specifically answering your question about 
NOAA's direct involvement, there is no existing network today 
that covers what is being proposed in the disaster information 
network in this proposal. There is no existing system that 
covers that now, which is why we are proposing to have such a 
system.
    NOAA has been directly involved with the Disaster 
Information Task Force that was formed last year to assess how 
one could develop such a network to take advantage of the 
technology that is occurring so rapidly in the world today, to 
make better use of the data in a better form. NOAA has been a 
very active participant in that process.
    But there is no existing network today that completes the 
system. There are segments of it. There are portions that do 
certain elements. But an entire network does not yet exist.
    Mr. Nethercutt. So would your $15 million be the lead 
funding resource? Or would someone else have the lead funding 
resource and you are trying to connect?
    Mr. Devine. It is specifically aimed at developing the 
disaster information network as described in our budget. We are 
the only agency putting forth that proposal. It would be to 
combine all the efforts of the disaster community in Federal, 
State, and private partnerships.
    It will in fact connect with many other components that are 
in existence by other agencies. We are not starting from zero. 
There is a seismic network by the Survey, a broad weather 
network by NOAA. The proposal here is to try to help connect 
those in a better way to form the data in a more useful fashion 
and get it out more quickly.

                       usgs internet information

    Mr. Nethercutt. Let me switch back to my original 
discussion about your web page.
    Let's say that I am a farmer in Washington State or Ohio or 
wherever I might be. Understanding the sophistication now of 
American agriculture and that there is a slimmer margin from 
time to time, to what extent do farmers use the resources that 
you can provide to them? And to what extent have you focused on 
American agriculture in being a partner with American 
agriculture to truly assist them?
    I don't mean just provide information in the course of your 
work, but information that perhaps they need and rely on and 
would use. What is your experience with that throughout the 
agency?
    Dr. Casadevall. I will speak from my narrow base.
    We know that the farm community takes advantage of 
information about water resources. Water availability is a very 
important issue. Water quality. Particularly, there is a 
concern in the country today about the use of pesticides and 
the use of fertilizers. Farmers want to be good citizens just 
like we want to be good citizens. They want to make sure that 
they are not unduly polluting.
    We have our National Water-Quality Assessment Program that 
is looking at a number of drainages and things that will affect 
both surface water and ground water. Exhibits 28 and 30 in the 
exhibit book talk to the point a little bit about nitrate 
concentrations, nitrate contamination of ground water.
    We don't police any people's activities. We don't regulate. 
We don't set policy. We do provide very important basic 
information, in this case about water quality, that is used by 
policymakers and agencies concerned about the interaction with 
farmers.
    The Department of Agriculture also has a responsibility for 
the Nation's forests. You have probably seen in the last few 
weeks that the new Forest Service chief, Mike Domback, is 
placing increased emphasis on recreational use of Department of 
Agriculture land or U.S. Forest Service land. Many rivers in 
the forests which are used by recreationalists and by water 
sportsmen--those people we know are very heavy users, for 
example, of our web sites and rely on that information for 
their recreational activities.
    Let me just consult and see if there is anybody else from 
my crew who has a stronger view.
    [The information follows:]

[Pages 56 - 57--The official Committee record contains additional material here.]


    Dr. Hirsch. The National Water Quality Assessment Program 
within the Geological Survey has placed a great emphasis on 
issues relating to agriculture, and not only doing the science 
but in fact communicating with members of the agricultural 
community.
    We have had a presence at a number of farm shows, for 
instance, where many farmers attend, and we provided fact 
sheets for them that describe in a very straightforward manner 
in two to four pages some of the issues relating to nitrogen 
contamination, pesticide contamination, soil erosion, et 
cetera. As I think you know, we have recently completed a study 
of the central Columbia Plateau. I am not sure if you have been 
delivered this particular report. This is the summary report 
from that study.
    And related to that, an earlier product of that study was a 
fact sheet particularly on nitrate concentrations in the 
central Columbia Plateau ground water. This was written 
specifically to deal with the management agencies and the 
farmers in that area where nitrogen contamination of ground 
water is a significant problem in terms of the water supplies 
that they use in their own homes.
    I would like to pass that across to you. In fact, that work 
was instrumental in the development of a ground water 
management area in Grant, Franklin, and Adams counties of 
Washington, based on the kind of information that was provided 
to the county officials as well as the farmers.
    Just another example--in your area, Lake Roosevelt is a 
very popular recreational area. There is a concern for mercury 
contamination in the fish there.
    We worked very closely with the State Department of Health 
to develop a four-page fact sheet on the walleyes and mercury 
contamination. It was aimed not at an audience of scientists, 
but an audience of people who fish in the area and telling them 
what was the degree of risk associated with consuming walleye 
from Lake Washington.
    So we take very seriously the importance of communicating 
with the farm and recreational communities.
    Dr. Casadevall. Let me ask Barb Ryan to close up with that.

                       internet feedback to usgs

    Ms. Ryan. One other thing about your specific question 
about individual farmers logging on--I think the answer is that 
we don't know for sure. In January alone, we had something like 
5 million hits on our home page. That was up from 4.2 million 
in December. To the extent that we get feedback from individual 
people writing in--like Tom alluded to, the rafters and the 
canoeists say that they log in to get this streamflow data and 
use it daily in their businesses on whether the canoes can run 
or not run. We don't hear from farmers, as such. Like Bob said, 
we have agricultural groups that sit on liaison committees, but 
in terms of individual farmers, there is no real way to track 
that unless they write in to us and tell us that they are using 
our data.
    Unlike the other loggers-in where we can see whether they 
are .EDU from educational institutions or .COM from commercial 
institutions, there is no such trailer that says .farmer or 
.ag. [Laughter.]
    Dr. Hirsch. If I might just add, we have feedback pages on 
our web pages where those who would like to communicate back to 
us--either to pat us on the back or to express their concerns--
can communicate with us. I recall in the State of Idaho, 
southeastern Idaho had severe floods last spring, I believe.
    We received a message from a particular farmer who was 
having to move his cattle to high ground and making split 
second decisions about moving his equipment and moving his 
cattle. He took time out from that process, literally, to write 
a message back to our office in Boise indicating that the 
information we were providing him from our streamgages was the 
critical information he was relying on to basically save his 
property during that flood.
    That message reached my office and I spread it to every 
employee in our division to remind them of the great value they 
are providing to the American people, including in this case, a 
farmer.
    Mr. Nethercutt. I understand that.
    We heard testimony yesterday from the Smithsonian. They get 
12 million hits a month on their web page.
    I think we will see more and more of this, is my thinking. 
To the extent that farmers can rely on your agency as well as 
others to see the weather conditions and the soil conditions 
from satellite technology and so on, I think maybe there will 
be some benefit to the farmer through his computer so that he 
can use it in a sophisticated way to yield a better crop.
    This information you have presented to me seems to contain 
more hazards that are identified rather than the benefits that 
may be derived from information you find, although I can see 
you might argue that there is benefit to this, and not just 
negative. I hope your agency would think about that.

                    digital ortho-photoquad program

    Dr. Casadevall. I have a final comment on our connection 
with agriculture. We have a digital ortho-photo quad program. 
One of our largest partners on that is the old Soil 
Conservation Corps that uses this information on an annual 
basis to evaluate crop yields and to evaluate moisture 
conditions. Again, this is an increasingly technologically 
intensive kind of profession that we don't traditionally 
associate with the farmer out in the field. But I think there 
are many, many--your question really instigated quite a lot of 
thought amongst us here because we do not think of these more 
non-traditional audiences, but they all go into improving 
quality of life and crop yield. It is not a traditional outcome 
of Survey activities.
    Mr. Nethercutt. The more consumer-friendly I think you can 
be, the more acceptance you will find from those of us who are 
trying to eliminate duplication and make Government work a 
little better.
    Thank you for the extra time.

                         everglades restoration

    Mr. Regula. Thank you.
    Are you doing any of the science that is being used on the 
restoration of the Everglades?
    Dr. Casadevall. Yes, we are. We are doing quite a bit of 
the science in the Everglades. In fact, yesterday I had several 
briefings about the Everglades. But rather than try to remember 
what I was told, let me turn it over to Bonnie McGregor, who is 
very intimately involved in the Everglades science.
    Dr. McGregor. We've been doing an extensive amount of work 
in the Everglades. As you know, it is a Federal interagency 
project.
    Mr. Regula. I understand.
    Dr. McGregor. We have been very much involved in 
understanding the water budget for the Everglades, the 
circulation models. We have done some very innovative things 
looking at elevation because when you sit in the Everglades it 
looks basically like a table.
    So using some of the technology today with Global 
Positioning System, we have been looking at high resolution 
differences in elevation of the order of 6 inches or so in 
order that one can improve the water model so that when the 
Corps of Engineers begins to pump water we will know where the 
water will go.
    We are also involved in water quality issues, understanding 
mercury and other potential contaminants in the Everglades. It 
is very important to understand the methylation of mercury and 
making it mobile so that it gets picked up by the biology. In 
fact, one of the examples of how our information has been used 
recently is looking at areas for nutrient removal. They were 
trying to figure out if and where to place the nutrient removal 
areas and would they in fact become a mercury factory where 
mercury would then--because of the organics--begin to get 
mobilized. We were able to demonstrate that would not be the 
case so that they now have the opportunity to set up these 
nutrient removal areas.
    Mr. Regula. I have a couple of questions on the coastal 
marine geology program, which you dropped out, and also the 
Ohio view initiative, which you dropped out. We are going to be 
short of time here, so these are questions we will submit for 
the record.
    Mr. Moran, we can finish your questions before we vote.
    Mr. Moran. I got the picture, Mr. Chairman. [Laughter.]

                       information to localities

    Mr. Moran. In the paper today is a report about the fact 
that the area where you are located, the northern Virginia 
region, is experiencing astounding growth. Loudoun County is up 
55 percent, Prince William is up 18 percent, Fairfax 12 
percent, and so on, in less than a decade.
    My question is, with all the information that you have on 
water resources and the sediments, where the water flows, all 
the land use practices that you know are appropriate--are you 
providing that kind of information to localities? I think 
localities really have to take the initiative, but are the city 
and county managers looking for that kind of information in 
making their land use decisions?
    Dr. Casadevall. They are indeed, Mr. Moran. Exhibit 36 on 
the modelling metropolitan growth speaks directly to the issue 
you have raised with regard to Loudoun County. By the way, as 
someone just moving to the area and looking for real estate, I 
am fully aware of the explosive growth that is taking place 
just over the Fairfax County border.
    But I think if you look, for example, at the sequential set 
of plots for the Washington, D.C. area, you will see that this 
indeed is an area that was a natural extension. It is one that 
we could almost have predicted that growth would have occurred.
    Are they coming to us? We do work. We have partnerships 
with a number of counties. I do not know the exact nature of 
partnerships with Fairfax and Loudoun counties, but they are on 
our radar screen and we are certainly aware of the issue.
    As this growth occurs and as people encroach on flood 
plains and to riparian habitat, we have issues related to 
habitat and flood hazards that the USGS provides very critical 
information toward.
    As a pitch with regard to Fairfax and Loudoun counties, let 
me remind you that we are having our USGS open house in Reston 
at the end of April. We will be having some materials pertinent 
to this issue and pertinent to the effects in your district. I 
would like to personally invite you as well as the other 
members of the committee to visit us at the open house.
    [The information follows:]

[Page 62--The official Committee record contains additional material here.]


                         chesapeake bay oysters

    Mr. Moran. You would hope that at least the area where 
you're located would take advantage of that kind of information 
when there is such a need for it.
    I think the next answer is probably a one-word answer. It 
was on television last night that they are finding oysters in 
the Maryland rivers that feed into the Chesapeake Bay having 
cryptosporidium in them. I know you have been doing a lot of 
work on the Chesapeake Bay in restoring habitats and all that 
you've been doing. It has been a substantial investment.
    I guess what we really need to know is if there is anything 
more that we need to know. Has any of your modelling in water 
flows changed some of their behavior? Have you warned some of 
the sources of this potential harm to fish and humans who eat 
oysters raw? Has there been any warning system? Are you 
involved in that?
    Dr. Casadevall. First of all, with regard to 
cryptosporidium work, we do work with the Centers for Disease 
Control on this issue.
    Second, I am not aware of any specific warning activity we 
might have related to the Chesapeake Bay. We can investigate 
that and get back to you for the record.
    Mr. Moran. That would be useful to see.
    Dr. Casadevall. This is a very important question because I 
also eat raw oysters.
    Mr. Moran. I do, too. I eat a lot of them after I heard 
Strom Thurmond likes them more than any other. [Laughter.]
    [The information follows:]

                         Chesapeake Bay Oysters

    USGS has not been involved with any of the work on 
Cryptosporidium parvum infecting Chesapeake Bay oysters. This 
work conducted by scientists from the Department of 
Agriculture, Johns Hopkins University and NOAA. This study 
points to the need for improved monitoring of Bay water 
quality, better understanding of the transport of nutrients and 
microbes from on land activities to surface waters, and 
scientific information on how these factors impact the health 
of fish, shellfish, and all biological resources of the Bay. 
USGS will continue to pursue this knowledge and will be able to 
increase these activities with funds in the Clean Water 
Initiative.

    Mr. Moran. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Regula. On that very important piece of information, we 
will conclude the hearing.
    Thank you very much for coming. It has been a very 
productive hearing and we will be back to you on the 
prioritization once we have a better idea of what we will have 
available.
    Dr. Casadevall. Thank you very much, Mr. Chairman.
    Mr. Regula. Thank you.
    The committee is adjourned.
    [The following questions and answers were submitted for the 
record:]

[Pages 64 - 137--The official Committee record contains additional material here.]









=======================================================================  

                       Department of the Interior

                      Minerals Management Service

=======================================================================






[Pages 141 - 137--The official Committee record contains additional material here.]










=======================================================================  

                       Department of the Interior

          Office of Surface Mining Reclamation and Enforcement

=======================================================================






[Pages 179 - 199--The official Committee record contains additional material here.]













                                     

=======================================================================  

                       Department of the Interior

                        Bureau of Indian Affairs

                                  and

             Office of Special Trustee for American Indians

=======================================================================




                                         Wednesday, March 25, 1998.

                        BUREAU OF INDIAN AFFAIRS

                               WITNESSES

KEVIN GOVER, ASSISTANT SECRETARY
HILDA MANUEL, DEPUTY COMMISSIONER, INDIAN AFFAIRS
JOANN SEBASTIAN MORRIS, DIRECTOR, OFFICE OF INDIAN EDUCATION
PAUL M. HOMAN, SPECIAL TRUSTEE FOR AMERICAN INDIANS
THOMAS M. THOMPSON, DEPUTY SPECIAL TRUSTEE FOR OPERATIONS
JOE C. CHRISTIE, SPECIAL ASSISTANT TO THE SPECIAL TRUSTEE FOR AMERICAN 
    INDIANS
DONNA M. ERWIN, DIRECTOR, OFFICE OF TRUST FUNDS MANAGEMENT
DAVID A. GILBERT, BUDGET OFFICER, OFFICE OF THE SPECIAL TRUSTEE FOR 
    AMERICAN INDIANS
JOHN D. TREZISE, CHIEF, DIVISION OF BUDGET AND PROGRAM REVIEW, OFFICE 
    OF BUDGET, OFFICE OF THE SECRETARY

                            Opening Remarks

    Mr. Regula. We will get the committee started this morning, 
and I am pleased to welcome all of you in the audience as well 
as our guests who will be testifying.
    Mr. Gover, and Mr. Homan. What we are going to do is have 
each of you make a brief opening statement. We will put your 
full statement in the record, and then we will have some 
questions. Anyone else you would like to have give statements, 
or at least answer questions, will be fine. We will have a lot 
of questions that we will submit for the record and will 
appreciate getting a prompt response because we need the 
information when we start putting the budget together.
    So Mr. Gover, if you would like to lead off.

        Assistant Secretary of Indian Affairs Opening Statement

    Mr. Gover. Thank you, Mr. Chairman.
    With me, I have Joann Sebastian Morris, the director of the 
Office of Indian Education Programs. I expect Deputy 
Commissioner Hilda Manuel to be here very briefly.
    I will just summarize the testimony that we have submitted, 
Mr. Chairman.
    As you know, I think there are dire needs in many of the 
Indian communities out there, and the BIA is the agency 
primarily responsible for trying to help the tribes grapple 
with these issues.
    We all know that this is a difficult budget climate at 
times when the Congress and the President have really 
accomplished something very significant in the form of a 
balanced budget, and believe me, we come here regretting, in 
some ways, the amount of money that we have to ask for, but we 
do think it begins to reflect the needs out in these 
communities.
    As you know, American Indians are younger, have greater 
poverty levels, higher unemployment, a greater number of single 
parent families, and they die younger than the U.S. population 
at large, and unhappily, these trends are actually 
deteriorating at this time.
    While those conditions are deplorable, I do want to 
emphasize the problems of alcohol and substance abuse and the 
closely related problem of juvenile suicide among the tribes.
    We are experiencing several communities where there are a 
rash of teenage suicides. I believe those are directly related 
to the issues of alcohol, substance abuse, child abuse, 
domestic violence, and the whole range of social ills that we 
see there.
    Mr. Regula. Is crime accelerated?
    Mr. Gover. Crime is on the rise. While crime throughout the 
rest of the country actually seems to be dropping according to 
the FBI statistics, we are finding that there is higher crime 
on the reservations. Worse yet, those crimes tend more often to 
be violent, and again, much of that is attributable as well to 
alcohol and substance abuse.
    Let me talk quickly about three priorities that we have in 
this year's budget.

                            indian education

    The first is to improve our performance in funding to BIA 
schools on the reservations. There are really two aspects of 
that. The first is to restore the buildings that are in such 
poor condition in many cases.
    Two percent of our buildings are more than a 100 years old, 
20 percent more than 50 years old, and 50 percent are more than 
30 years old. Most educational facilities are built to have a 
functional life of 25 years. So you can see that our facilities 
are much, much older than that for most school programs.
    The initiative would provide for increased construction 
money and for increased facilities improvement and repair.
    In addition, we are asking for more operating funds for the 
schools, and let me just observe, generally, that in my visits 
to the schools, and I have been out in the country and make a 
point of visiting our schools whenever I am in an Indian 
country state.
    What I am seeing is a great deal of enthusiasm among the 
faculty and staff of these schools. Children that really are 
very optimistic about who they are, and about their school, and 
yet, deteriorating facilities, and one of the best things that 
we can do, I think, to improve conditions in the Indian 
community in the long run, is to make sure that these kids are 
in safe, good, productive school environments for the early 
years of their lives.
    Mr. Regula. What percentage of the Indian children are in 
public schools versus those that are in wholly operated Indian 
schools?
    Ms. Morris. The figure used to be around 85 percent for 
several years, and now it has increased to 90 in public 
schools, and so our bureau-funded system funds about 10 percent 
of the national Indian student population.
    Mr. Regula. And the conditions you are addressing are just 
in the Indian schools?
    Mr. Gover. That is correct.
    Mr. Regula. Not the public schools.
    Mr. Gover. That is correct.
    Mr. Regula. Okay.
    Mr. Gover. Our cost estimate on the total backlog of health 
and safety code deficiencies right now exceeds $695 million. 
The budget increase that we are asking for in this category, 
this year, is about a 50 percent increase over last, and yet 
obviously with a backlog that large, we are still looking 
several years down the line to actually addressing all of those 
needs.
    Now Assistant Secretary John Berry has begun a programwhere 
we would try to deal with all Interior Department facilities backlogs 
over the next 5 to 7 years.
    This is Deputy Commissioner Hilda Manuel who has just 
arrived.
    And this is just the first step in our program to address 
that issue.

                            law enforcement

    The second priority that we are bringing to the committee 
this year is on the issue of law enforcement.
    As we indicated, there is a rising crime rate in Indian 
country, even as crime drops elsewhere. We note serious rises 
in both violent crime and in youth crime. The President asked 
the Secretary and the Attorney General to begin to take a look 
at this problem, and try to understand why it exists and what 
we can do about it.
    What they found is that Indian police forces are funded at 
about one-fourth the level of comparable size rural communities 
throughout the country, and so, clearly, the problem is a lack 
of resources.
    The nice thing about a law enforcement program is that the 
resources really are very directly spent in the communities. 
Administrative costs are minimal and the money actually goes 
into putting police officers in uniform, equipping them and 
putting them on patrol on the reservations. So we are asking 
for a $25 million increase.
    Now, this would be combined with a very substantial 
increase that the Department of Justice has requested, and both 
for construction of new detention facilities as well as through 
their COPS program, to put more officers on the street.
    We are working with Justice, in great detail, to be able to 
implement this program very quickly, so that when we have a new 
officer, we also have a plan for equipping that officer, 
training that officer, and putting them into service on a very 
quick basis in the tribal communities, and we think that is one 
area where, again, we can have a very direct impact on the 
quality of life in these reservation communities.

                         environmental clean-up

    The third initiative that I would like to speak to is one 
that really troubles me a lot and that is our failure over 
many, many years to comply with Federal environmental laws.
    We now have a number of serious situations on the 
reservations and while we are not aware of any that are 
immediately life-threatening, there is no question that we have 
failed over the years in dealing with issues, especially 
involving underground storage tanks and landfills.
    We are proposing an increase which is, frankly, modest, 
compared to those for schools and law enforcement, but one that 
we consider important nevertheless.
    Mr. Regula. Now are you subject to all Federal 
environmental regulations such as underground storage and 
asbestos?
    Mr. Gover. Yes. We are.
    Mr. Regula. And you just simply have not had the funds to 
address these problems?
    Mr. Gover. In essence. I do not want to say it is entirely 
a matter of resources. I think that beginning in the 1970's, 
and through the 1980's, we did not do a very good job of 
identifying the scope of the needs that we had and we have just 
begun a process with EPA to try to identify the entire range of 
environmental compliance issues, to prioritize those and then 
come up with a plan to present both to EPA and to the committee 
for how we are going to attack this problem, rather than sort 
of get into a more, or less, organized enforcement program and 
that is sort of where we are.
    EPA is going to begin fining us, has begun fining us, and 
rather than sort of have a race among the various EPA 
enforcement aspects to be the first one to get to our 
environmental money, we want to do it in a more orderly 
fashion, and EPA has been quite responsive to that request.

                   indian land consolidation project

    The final thing, Mr. Chairman, is our Indian land 
consolidation project. One of the great failures of our agency, 
historically, has been our failure to deal adequately with this 
problem of both individual Indian monies and the genesis of 
that problem which are these fractionated interests in land on 
the reservations.
    I recently, by inheritance, got a 127th interest in three 
different parcels of land, totaling no more than 100 acres in 
Pawnee, Oklahoma. The land really has no value to me, and yet 
because there are claims against the estate, I am unable to 
sort of help solve the problem a little by giving it to one of 
my relatives or to the tribe.
    That is the kind of situation that we are in right now and 
that is not at all unique. My kids, were we unable to do 
anything about this, will inherit a 154th interest in these 
same parcels.
    I was in Anadarko last week, looked at an oil and gas 
printout of a single allottee with six different accounts and 
his monthly statement was that he would get 5 cents, and yet 
there is a large computer room, we are cutting checks, and the 
special trustee has to maintain these accounts and make sure 
that that nickel is accounted for.
    What we are trying to do is find a way--we know now, from 
the Supreme Court, that we cannot simply say there is a point 
at which the interest is so small, that it just escheats to the 
tribe. We have to find some way to compensate the allottees.
    Mr. Regula. Could we change the law and make the set-up a 
de minimis amount?
    Mr. Gover. That is what we tried to----
    Mr. Regula. Then you could possibly do that?
    Mr. Gover. Well, the Supreme Court, unfortunately, seems to 
be saying that property is property, no matter the size, and so 
we cannot just take it, as sensible as that seems. So what we 
are going to have to do is compensate the owners and what we 
propose to do is operate a pilot project where we would begin 
to acquire these smaller interests, try to put them into a form 
where the interest actually has some economic significance, and 
then hopefully use the revenue from that effort, that 
consolidation effort, having put the land to use to start 
repaying and continue to acquire, over time. If we do not solve 
this problem, it obviously grows, exponentially, generation by 
generation.
    Mr. Chairman, that is the highlights of what I wanted to 
say this morning and we would be happy to answer questions.
    [The information follows:]

[Pages 208 - 217--The official Committee record contains additional material here.]


                  SPECIAL TRUSTEE'S OPENING STATEMENT

    Mr. Regula. Thank you. Mr. Homan.
    Mr. Homan. Thank you, Mr. Chairman.
    Our priorities are two. One is to continue the Trust 
Management Reform Act initiatives which were started in 1994, 
and two, involves the ongoing trust management of the Office of 
Trust Fund Management which handles the receipt, investment and 
disbursement of the Indian trust funds.
    To do this, we have requested for 1999 a budget of $42 
million, an $8.1 million increase over the 1998 level, most of 
which will go to trust fund improvement initiatives.
    Separately, we have also requested a fiscal 1998 
supplemental of $4.7 million to provide initial resources 
required for document collection to support the Government's 
defense of a law suit filed on behalf of the IIM account 
holders last year, some 300,000 account holders.
    I am happy to report that with this committee's assistance 
much has been accomplished since I appeared before the 
committee last year.
    The strategic plan required by the American Indian Trust 
Fund Reform Act of 1994 was completed in April and in August, 
the Secretary and I agreed to a plan of implementation which 
agreed to implement certain aspects of the plan, namely, data 
clean-up, elimination of trust asset processing backlogs, 
revamping of trust management systems and associated support 
efforts in records management training, policies, procedures, 
systems and controls.
    These reforms are currently being implemented in a 
coordinated fashion with effective bureaus under the oversight 
of the Office of the Special Trustee. The Secretary and I have 
agreed to implement these reforms over a 3 year period ending 
in fiscal year 2000.
    To illustrate the progress being made, in January of this 
year OST awarded an 18 month contract, the contract to clean up 
the IIM account files. We are looking essentially at 700,000 
accounts. We hope to have this complete by next year. The 
second major initiative which will be announced tomorrow, is 
the awarding of a large contract to buy a commercial off-the-
shelf system to account for the trust funds. We call this the 
trust fund accounting system, TFAS.
    A pilot of the new system is scheduled to begin in Phoenix 
in August of 1998, and full implementation is scheduled for 
1999. These two efforts will contribute to ensuring that funds 
are properly accounted for, once collected, and will recover 
receipts, investments, and disbursements.

              TRUST ASSET AND ACCOUNTING MANAGEMENT SYSTEM

    Mr. Regula. So this would cover the whole spectrum of 
receipts that you would have on this computerized system?
    Mr. Homan. Yes, but it is only one aspect of the overall 
program. The other two are resource management which involves 
not only the management of the lands, the leasing of the lands, 
a master lease system, accounts receivable system and a 
collections system, which will be included in what we call 
TAAMS, which is the trust asset and accounting management 
system.
    That is scheduled for later on, and it will be accomplished 
once the overall clean-up is accomplished, hopefully by the 
year 2000.
    The other aspect is a clean-up, a major effort to improve 
the systems of the Land Title and Record Offices, much of which 
is driven by, what Mr. Gover indicated, the fractionated 
interest.
    We are, at times, sometimes 4 years behind in researching 
title documents, and it has contributed to a large backlog in 
probates across the board.

                             INDIAN PROBATE

    Mr. Regula. Are the land transfers, probate, and other 
cases, on a separate court system or do you use the courts of 
jurisdiction in a given area? In other words, to get you your 
\1/27\th obviously somebody had to probate an estate.
    Mr. Gover. They are probated by an administrative law judge 
of the Department of the Interior.
    Mr. Regula. So it is a separate system from the 
conventional county seat programs?
    Mr. Homan. It is run by the Federal Government and it is 
called the Office of Hearing and Appeals, and also the BIA 
itself gets involved in certain probate backlogs. They do the 
research on a lot of the title documents since they maintain 
the land records as well.
    Mr. Regula. If you were going to de jure your \1/27\th, 
this would be through this particular system that is a part of 
BIA?
    Mr. Gover. Exactly, and ironically, the probate proceeding 
cannot be closed because there are remaining claims against the 
estate, so this is one of the probate backlogs that Mr. Homan 
is talking about.
    Mr. Regula. It cannot be closed. Why?
    Mr. Gover. It cannot be closed until all claims against the 
estate are paid.
    Mr. Regula. Oh. Sure.
    Mr. Gover. The estate does not generate any money to play 
claims, or it does so at a very slow rate, and so it remains in 
open probate and part of the backlog.
    Mr. Homan. They tell me some go as long as 10 years, so it 
is a very difficult position we must deal with.
    Just to highlight the two or three initiatives, the budget 
includes a total of $18 million to continue, and initiate a 
number of fiduciary improvements contained in the Trust 
Management Improvement Project, notably the balance of the IIM 
data clean-up activities which I just mentioned and this will 
be completed in the four remaining areas.
    The operational activity for the trust funds' accounting 
system in Phoenix, and funding needed for approximately eight 
additional areas to be converted to the new system next year.
    Funding for an essential training, testing and conversion 
process for the TAAMS system, which will occur during the 
period October 1998 to May 1999, and finally, funding for 
supporting efforts including records management solutions, 
electronic imaging, developing and issuing a policies and 
procedures manual, important, training and improved internal 
controls.
    The operational budget of OTFM is approximately $18 million 
and it is utilized to conduct the day to day operations of the 
financial trust activities and it is at about the same level of 
last year.
    Finally, the 1999 request also includes $5 million for 
settlement and litigation support, a $2.9 million increase to 
fund settlement and litigation support necessary to support 
ongoing litigation, and phase one of the Department's proposed 
Tribal Trust Fund Settlement Process Legislation which should 
be introduced, shortly, in the Congress.
    And finally, the budget provides about $1.7 million for 
executive direction which includes the funding of my advisory 
board and also the Intertribal Monitoring Association both of 
which provide myself and the Congress with their advice on the 
management of the Office of Trust Fund Management.
    Mr. Chairman, that concludes my statement and I would be 
glad to answer any questions you may have.
    [The information follows:]

[Pages 221 - 225--The official Committee record contains additional material here.]


    Mr. Regula. Thank you.
    Do either of you want to make a statement?
    Ms. Manuel. No.
    Mr. Regula. Mr. Skeen, you can jump in here any time, if 
something occurs to you.
    Mr. Skeen. Just so there is plenty of water to jump in to.
    Mr. Regula. Yes; right.
    Mr. Skeen. Thank you very much, Mr. Chairman.
    Mr. Regula. It is pretty deep. [Laughter.]
    Mr. Skeen. Deep and wide.
    Mr. Regula. In your testimony, Mr. Gover, you address your 
concerns about alcohol and substance abuse.
    Do you have any recommendation for how BIA can assist with 
this problem, and is this a BIA or an Indian Health Service 
situation?
    Mr. Gover. Mr. Chairman, it is actually both. I mean this 
whole problem, it is, on the one hand a health issue; on the 
other, it is equally a social issue.
    We are not requesting any funds for this approach this 
year, except in the context of our various social service and 
education programs.
    I do not believe that it is worthwhile, for those of us 
here in Washington, to sit down and try to develop a master 
plan to attack this issue out in the communities.
    What I do want to be able to do is to be responsive to 
those tribes that develop a comprehensive community based 
program in their communities. If they want to combine 
resources, if they want to call upon other agencies, we will 
use every bit of flexibility we have to help them fund such an 
effort.
    But I do not want to get in the business of trying myself, 
sitting in my office in Washington and trying to develop a 
problem that is so very local in nature.
    I suppose the good news for the committee is we are not 
asking for money for this. We are trying to bring attention to 
it and trying to use our existing authority and resources to 
attack it.

                      TRIBAL PRIORITY ALLOCATIONS

    Mr. Regula. The fiscal year 1998 Conference Report required 
the establishment of a joint Federal/tribal task force to 
determine the allocation of certain TPA funds.
    Did the task force give you some insights to improve the 
fairness of the TPA distribution?
    Mr. Gover. Certainly it gave us insights. I think that the 
result of the task force was a mix of good and bad ideas, and 
given the time constraints that we were operating under, it was 
unlikely to produce something that has universal application.
    However, both the task force and the Bureau have agreed 
that we need to do an independent study to try to develop--our 
big problem, right now, is we cannot tell you what the actual 
need is out in Indian country, because need is estimated in a 
variety of ways from tribe to tribe, area to area, region to 
region, and we want to develop a set of standard methodologies 
for assessing actual need on the reservations, and then use 
that information to begin a reallocation of the TPA fund.
    Mr. Regula. Do you have a standard or guidelines that you 
use in making TPA allocations?
    Mr. Gover. We do have some. Basically, we ask the tribes to 
do their own assessment of the needs in their communities. I 
guess I must say we do not have a lot of confidence. We have no 
confidence that it is being done consistently, from place to 
place, and as to any given tribe, we cannot vouch for the 
accuracy of the information that has been provided to us.
    We do not want to create a system where the tribe that gins 
up the greatest need is rewarded.
    Mr. Regula. Yes. I can understand that.
    Mr. Gover. And so that is why we are looking for a standard 
methodology that both the tribe can use and can use effectively 
and that we can verify in order to get realistic information on 
the degree of need out there.

                          BACKLOG MAINTENANCE

    Mr. Regula. Do you have a system to identify your backlog 
maintenance problems? If so, do you have a plan to work your 
way out of some of this backlog?
    Mr. Gover. We do in the sense that we have what we call a 
FACCOM, F-A-C-C-O-M. I cannot remember exactly what that stands 
for. But basically, we rely on reports from the areas and from 
the facilities themselves, for example, a school 
superintendent, to report to us any particular maintenance and 
repair needs that they have, beyond the ordinary, beyond 
routine upkeep.
    That, in turn, goes into a system and is weighted according 
to a variety of factors, the most important being safety 
issues.
    Once we have that information it is then rated against all 
of the others. So we actually have a list that adds up to 
$695,000,000.
    We are in the process of updating that information now 
because we know that it is old information. We have a pretty 
good--I have a sense that the information as to the greatest 
needs is pretty good, just from having gone to a couple of 
schools, comparing what they told me to the list that we 
maintain.
    The information list was fairly good, but I am sure that as 
we sort of step down the ladder to some of the smaller and yet 
still important needs, that we do not have all the information 
we need.
    The plan for attacking it is simply to take them in order, 
not in the order they are received but in the order that they 
are ranked, according to these criteria that we use.
    Mr. Regula. Is this backlog mostly in the schools?
    Mr. Gover. It is primarily because over 80 percent of our 
building space is schools and so naturally, the greatest need 
is in the schools.

                          TEACHER RECRUITMENT

    Mr. Regula. How successful are you in recruiting good 
teachers for the system?
    Ms. Morris. The pay structure for the Bureau system is 
fairly good. By law, we have to offer teachers the same pay as 
those teachers who are in the Department of Defense pay scale 
range, and it is substantial and they get very good increases 
each year.
    The difficulty we have is in terms of the rural isolation. 
Do teachers want to come and stay at such isolated areas, and 
that is a difficulty that we have, and not getting them, not 
recruiting, but maintaining them, because we do have about a 
one in five turnover rate each year for teachers and 
principals.
    Mr. Regula. Do you have to concern yourself about their 
housing, or is it up to the teacher to find their own?
    Ms. Morris. It depends on the locality. Some of our school 
sites do have teachers' quarters, and others do not, where 
there are other apartments and other dwellings where they can 
rent, and nearby the school. Other areas are without any 
housing, and teachers drive about an hour or more to get to 
their job. Teachers coming from Rapid City to go to some of the 
sites at Pine Ridge or some of the other schools, and that is a 
problem, then, too, for maintaining them.

                             reorganization

    Mr. Regula. Has the Bureau taken any action to consolidate 
small offices to get greater efficiency?
    Mr. Gover. Mr. Chairman, we have not done that yet. I think 
that the two things that are on our plate for, literally, the 
next few months--I think that that is partly because I only 
arrived in November and we are not yet comfortable with, in 
priority setting out there.
    I think we have two things that we want to accomplish this 
year. The first is to present you an actual plan for central 
office reorganization.
    We are in the process right now of establishing priorities 
and trying to give ourselves a work plan for the next three 
years. Based on that, we can then turn around and start looking 
at what are the employee resources we need and where do they 
need to be.
    Finally, we will need to go out and share our ideas with 
the tribes, get their input, but I am hopeful that we can 
actually be ready to implement a central office reorganization 
at the beginning of fiscal year 1999.
    Out in the field, it is a little more problematic. I am 
prepared to tell you that we are going to look at the single 
person agencies and offices that exist out there and see what 
savings are available by reorganization, in that form. We have 
not done it yet, but you have my commitment to proceed with 
that in the next few months.

                       law enforcement initiative

    Mr. Regula. You are going to work with the Justice 
Department on the law enforcement initiative, is that correct?
    Mr. Gover. Yes.
    Mr. Regula. Will what you get from Justice change the TPA 
allocations?
    Mr. Gover. Actually, it will not. Our law enforcement 
funds, as you know, are in the tribal priority allocations 
account, and we do not anticipate a lot of changes in how we 
allocate those funds out there.
    I think that, over time, we will try to make the law 
enforcement program and the allocation of resources more 
directly responsive to the situation in a particular community.
    Justice will be putting a lot of police officers into these 
communities and we will work with them to try to target 
resources, so where there is a clear deficiency they can send 
more of their people into that area. I find it hard to imagine 
a surplus in any community, but we will try to meet the most 
dire need through a combination of our resources and we are 
communicating. There was a large meeting yesterday of the 
executive committee for the law enforcement initiative which, 
in the end, is about 30 people, and so there is constant and 
very specific communication with Justice on these issues.

            individual indian money litigation supplemental

    Mr. Regula. Mr. Homan, you recently submitted a request for 
a supplemental appropriation of approximately $1 million for 
BIA and $4.7 million for the Office of Special Trustee for 
document collection requirements resulting from the law suit 
filed on behalf of 300,000 holders of individual Indian money. 
I presume that is this 5 cents kind of a situation. Is that 
correct?
    Mr. Homan. Well, it is for the mismanagement and neglect of 
these accounts over a good many years. So it is driven by a lot 
of the operational difficulties we have from the fractionated 
interest, but we simply cannot give an accounting and that is 
what the law suit prays for.
    Mr. Regula. Two things. Will this money that you have asked 
for be adequate to do the job, and is this computer system that 
you have addressed earlier going to be part of the solution?
    Mr. Homan. Well, yes to the second. I do not know to the 
first. This is the minimum amount. The $4.7 million is the 
minimum amount we think we will need to do a records production 
based on where the Justice Department, our solicitor's office, 
and the plaintiffs are, to date, in terms of doing a sampling 
of these accounts. To do a full accounting--to give you an 
example--to do a full accounting would run into perhaps the 
100s of millions.
    We had an estimate from Arthur Andersen who did the 20 year 
trust reconciliation in 1992 for the tribes, and at the time 
they looked at these 300,000 IIM accounts to do the same type 
of reconciliation and estimated it would take between $108 
million and $280 million to do that.
    Our problem is that we have almost no electronic records on 
these accounts prior to 1988. They are either missing or 
destroyed by the Government and most trust law would say that 
those records should have been held to perpetuity to perform 
this type of an accounting.
    So what you are seeing, Mr. Chairman, unfortunately, is the 
minimum amount we think is necessary for this records 
production. We have had estimates as high as $20 million for 
the sampling approach, and it will simply depend on what the 
court orders us to do.
    Mr. Regula. How do you validate claims without records?
    Mr. Homan. You cannot and there is some hope that with 
these sampling techniques, that you can approximate the amount 
of damage, if any, that the Indians suffer, and both sides are 
negotiating with accountants to come up with a formula that is 
acceptable to both sides, and of course it will have to be 
blessed by the courts.
    Mr. Regula. In the absence of additional resources, do you 
see a danger that we would have to appropriate large sums to 
address settlement issues, prospectively, and to do this at the 
expense of social and economic programs?
    Mr. Homan. Well, I would hope not the latter. But there is 
separately coming to the Congress settlement legislation for 
some of these past wrongs having to do with the tribal 
accounts.
    So the Congress will be asked to settle what we call the 
known errors of the Arthur Andersen study as it applies to the 
tribes.
    But the 300,000 individual Indian accounts are not part of 
that settlement legislation and the only issue addressing that 
at the present time is this law suit.
    The Congress will be asked to authorize a negotiated 
settlement process for tribal accounts.

                      future funding requirements

    Mr. Regula. The supplemental information provided to the 
committee indicates that you originally requested approximately 
$156 million for program operations support and improvements. 
What is the rationale for a funding level of this magnitude?
    Mr. Homan. The strategic plan contained funding--on a 2-
year basis, contained a $61 million estimate for the 
improvement of the systems, notably, the two I talked about 
today, the trust fund accounting system and the TAAMS system, 
which is the asset management system, accounts receivable 
system, and also an upgrade of the land title and record 
offices, plus the information infrastructure that goes with it, 
in terms of a network and desk stations to service some 1,900 
individual users, including some 450 tribes that are on line 
with our proposed system.
    It also includes some $50 million for data clean-up. We 
have now come to the conclusion that that is going to be low, 
and we simply do not know the number, but we know it is going 
to be in excess of $50 million. And finally, there is a good 
number of investments we must make in support activities such 
as records management which is at the heart of this whole 
problem, imaging, training, policies and procedures, and 
internal controls.
    At present, we have asked for, in the 1997-1999 period, 
some $43 million to address those issues, not including the 
overall clean-up efforts of the Bureau of Indian Affairs, but 
including my office's clean-up efforts.
    The out-year estimates for the year 2000, is $90 million. 
So we will spend another $90 million or very close to what I 
originally estimated in clean-up efforts and in improvements in 
the year 2000, with the one caveat, that we simply do not know 
the total extent of the clean-up until we actually get into the 
field, into the record centers, and determine what those costs 
are going to be.
    Mr. Regula. You are talking about the TAAMS system and the 
TFAS system.
    Mr. Gover. Right. Awkward acronyms.

                           systems operations

    Mr. Regula. Yes. You have employees, now, who will operate 
these? Or are you going to train employees, because any of 
these systems would only be as good as the people operating it.
    Mr. Homan. Mr. Chairman, I am a professional banker. I have 
never seen these type of systems institutionalized, so to 
speak, with people that do not know how to use them. So my 
agreement with the Secretary, and, really, his insistence, was 
that we use commercial off-the-shelf trust systems that are 
proven, and in both cases, the announcement tomorrow for the 
first accounting system will be one of the four major providers 
of these systems to major U.S. trust companies, and it is a 
proven system that goes back at least 15 years.
    Mr. Regula. It still takes people to operate them.
    Mr. Homan. It takes people to operate them. The service 
bureau, the contractor, essentially, will design, it is already 
designed, will modify them to our use, will maintain them and 
operate the data processing parts of it. The Bureau of Indian 
Affairs, or my office, or the tribes, in certain cases--the 
system is indifferent as to who actually uses the output.
    They will of course have to do operational reconciliations, 
manage the resources, manage the collection process, and the 
like, but the basic data, the basic record management will be 
done by an outside servicer. That is true for both the 
accounting system and the asset management system we are 
proposing.

                            indian education

    Mr. Regula. A question on the schools.
    Do you have a problem with dropouts? Are you fairly 
successful in keeping young people in school from K through 12?
    Ms. Morris. Any loss of a student is, you know, 
problematic, and our current dropout rate is at about 13 
percent, nationally. According to National Center for 
Statistics 1997 report, the overall dropout rate for children 
across the Nation is 5.7 percent, but for low-income students 
it is 13.3 percent, because poverty, and those kind of issues 
do enter into the picture. So our students, for better, for 
worse, are at approximately the same dropout rate as children, 
nationally, who are in communities of poverty.
    But the schools have to address this. They are mandated 
under the Improving America's Schools Act, to address this 
issue, and each of our schools has a comprehensive school 
reform plan that specifically targets improved student 
retention and decreasing the dropout rate for each one of our 
schools.
    They are doing it by a number of measures, with after-
school programs, weekend programs for youths, at-home programs 
for pregnant girls, and then just by working at having improved 
professional development so that our teachers are teaching more 
to the students' needs, right in the classroom, so that they 
are more willing to come back to school. So it is an issue but 
we are addressing it.
    Mr. Regula. Ninety percent of the students are in the 
public schools and 10 percent are in BIA schools. Of the 10 
percent, what percentage are in residential schools where they 
are so far away from the facility that they have to go and 
stay?
    Ms. Morris. About 20 percent. About one in five. Yes. We 
have approximately a little over 50,000 children, 50,300 plus, 
and about 10,000 are in a residential setting, a dorm of a 
boarding school.
    Mr. Regula. You probably have an extensive busing system 
for the students.
    Ms. Morris. Yes. We have to.
    Mr. Regula. A lot of miles, I would assume.
    Ms. Morris. Yes, and that is an area where we constantly 
need to be asking for increases, because these are unimproved 
roads as well.
    Mr. Regula. Is the responsibility for busing those that go 
to the public schools your responsibility, or the public 
schools' responsibility?
    Ms. Morris. We simply house the young people.
    Mr. Gover. We only do the BIA students, or we only bus the 
BIA students.
    Mr. Regula. Well, that is what I meant. A lot of your BIA 
students go to public schools. Am I correct?
    Ms. Morris. Yes. Those who are in dormitories. Right. Yes.
    Mr. Regula. Well, if I understand this correctly, 90 
percent of the children, students, go to public schools. Am I 
right?
    Ms. Morris. Right.
    Mr. Regula. And of that 90 percent, do most of them live at 
home and a bus takes them to the public school?
    Ms. Morris. Probably the majority of those young people, I 
would say 65 percent are probably in urban areas.
    Mr. Regula. Okay.
    Ms. Morris. Yes, because there are public schools on 
reservations, but there are not that many.
    Mr. Regula. Is the transportation your responsibility or 
the school's responsibility? Because they get compensated, as I 
understand it, for those students.
    Ms. Morris. The only children that we bus are BIA students.
    Mr. Regula. Right.
    Ms. Morris. Yes.
    Mr. Regula. Mr. Dicks.

                   individual indian money litigation

    Mr. Dicks. Mr. Homan, can you tell me about the status of 
the litigation.
    Mr. Homan. Generally, I can, but that is really a question 
for our Solicitor's Office. We would be glad to provide you an 
answer for the record. But essentially, the so-called IIM 
litigation was filed last year. It requests two things. First, 
an accounting of the past, and quote, to be made whole for any 
administrative errors, deficiencies, losses, et cetera.
    And finally, and second, an injunction requiring the 
Department of the Interior to institute new trust reforms for 
the ongoing trust management systems. It has not gone to trial. 
We are in the process of negotiating with the plaintiffs, a way 
to sample the accounts.
    Mr. Dicks. Is this a class action law suit?
    Mr. Homan. Class action; yes, sir.
    Mr. Dicks. You represent all of the 300,000?
    Mr. Homan. Yes. We have approximately 300--at that time, a 
little over 300,000 IIM accounts.
    Mr. Dicks. And you think you can get this thing 
straightened out in 3 years?
    Mr. Homan. I can get the trust reform, which is the second 
part, straightened out in 3 years. We have a plan to do that. 
That is to fix the trust systems, going forward. But obviously, 
the accounting of the past, which has major records 
deficiencies associated with it, and the settlement of any 
claims will take much longer.
    Mr. Dicks. Are you responsible for that as well?
    Mr. Homan. I am responsible only for the----
    Mr. Dicks. Setting up the new systems?
    Mr. Homan. Setting up the new systems. Yes.
    Mr. Dicks. And that is the one that is going to cost a 100 
and how many million?
    Mr. Homan. Our original estimates were about $168 million, 
and we are going to be on track with that, plus some more for 
the unknown amount to clean up some of the Bureau's records 
problems.

                            conract efforts

    Mr. Dicks. Is this being competitively bid?
    Mr. Homan. Yes. The first RFP went out on the accounting 
system and it was successfully won, and we are going to 
announce tomorrow, in fact, a major provider to provide a 
commercial trust system accounting that is used in many major 
banks around the United States, and which is equal in terms of 
cost to our original projections, and competitive with what is 
provided in the private sector.
    The same thing will be true with these clean-up contracts, 
and also the other system which will come in next year, the 
TAAMS system, which is the Trust Asset and Accounting 
Management System.

                             file clean-up

    Mr. Dicks. Now the clean-up system, is this to go back and 
straighten out what happened, or is this a different one?
    Mr. Homan. No, this is strictly to clean up the records 
that are currently associated with the accounts, and go 
forward. The search for any possible claims for deficiencies of 
closed accounts, or past accounts, and some of these accounts 
go back to treaty time, will be done as part of this law suit, 
or separately, as it applies to the tribe in settlement 
legislation which is going to be introduced in the Congress 
within the next month or so.

                     tribal settlement legislation

    Mr. Dicks. Do you know who is sponsoring the settlement 
legislation?
    Mr. Homan. No; I do not.
    Mr. Dicks. Is this an administration request bill, or----
    Mr. Homan. This is an administration request bill. It is 
presently at OMB. I think the congressional staffs have been 
briefed on it, and it should be out by the next week or two, to 
my knowledge.
    Mr. Gover. Which one is that?
    Mr. Homan. The settlement legislation.
    Mr. Gover. Yes. The tribal trust settlement legislation 
should clear OMB soon, and will be sent to the Speaker.
    Mr. Homan. I do not know that any sponsorship has been 
associated with it, as yet.

                   trust fund accounting system pilot

    Mr. Dicks. Now you are doing a first test in Phoenix? Did I 
read that correctly?
    Mr. Homan. Yes.
    Mr. Dicks. Phoenix, Arizona. What is going to happen there?
    Mr. Homan. We are going to test this new trust accounting 
system there, and since it is a fairly well proven system, we 
expect this test to be successful. The system we are acquiring 
is very similar to the one we installed for the tribes a couple 
of years ago, and therefore, we have no reason to suspect that 
with a pilot program in Phoenix, we cannot implement it for the 
IIM accounts, which are the particular issue of the class 
action law suit, and resolve at least one aspect of that case.
    Mr. Dicks. Did you say that we have taken care of the 300 
tribes? Has that been resolved?
    Mr. Homan. No. There are two separate issues--the 
litigation involves 300,000 individual Indian accounts which we 
hold at the Office of Trust Fund Management. That is the class 
action suit.
    Mr. Dicks. Right.
    Mr. Homan. Separately, in the early 1990's, we did a 20 
year reconciliation of only tribal accounts, the so-called 
Arthur Andersen report which was given last year, and that 
addresses the reconciliation and/or errors of the past for 
tribes only.
    That is going to be addressed by this settlement 
legislation which is coming up to Congress in the next month or 
so.
    Mr. Dicks. That only deals with the 300 tribes?
    Mr. Homan. Yes; approximately.
    Mr. Dicks. The 300,000 individual accounts--that is going 
to be the subject of the settlement?
    Mr. Gover. No. That is the subject of the litigation.
    Mr. Homan. No; just the reverse. There is a class action on 
the individuals. There is settlement legislation coming up on 
the tribes.

                     tribal settlement legislation

    Mr. Dicks. So the settlement legislation will work out. 
Now, the money has still been there, right? The $2.5 billion is 
in an account?
    Mr. Homan. You are referring to the missing documents, the 
2.5--the Arthur Andersen report looked to some $20 billion 
worth of transactions on the general ledger. We could not find 
sufficient documentation for $2.4 billion, or 33,000 
transactions. That still exists.
    Mr. Dicks. Documentation.
    Mr. Homan. Documentation.
    Mr. Dicks. You could not find the documentation?
    Mr. Homan. Could not find the documentation. So absent 
that, you must come up with some sort of way to negotiate a 
settlement on claims, if any, and that is what this settlement 
legislation proposes to do, by negotiating with the tribes, by 
mediating with the tribes. We are going to pay for the known 
errors.
    In other words, we found some known errors in the other, 
the 17 billion odd that we did find documentation for.
    Mr. Gover. And just to be clear, I do not think anybody is 
saying there are $2.4 billion missing. What has happened is we 
cannot completely document to the satisfaction of an 
appropriate accounting standard $2.4 billion in transactions. 
Some of those were monies that went into the account; some was 
money that came out. But nobody is saying that there is that 
much money missing.
    The tribal trust fund settlement legislation is a proposal 
to set up a system for estimating any losses that each tribe, 
one by one, might have suffered in offering a settlement to the 
tribes to forego any litigation of the matter.
    Mr. Dicks. Do we know what the amount is in the settlement?
    Mr. Gover. I think we have some estimates, but they are not 
coming to my mind, right at the moment.
    Mr. Dicks. You have your supporting cast back here. Do any 
of them know?
    Mr. Gover. I think we need a lawyer for that one.
    Ms. Morris. We do not have that with us.
    Mr. Dicks. 200-plus million? Does that ring a bell to 
anybody in this crowd?
    Mr. Gover. I do not want to be inaccurate. I just do not 
remember. It could be.
    Mr. Dicks. This is hard for me to believe, you cannot 
remember what this number is.
    Mr. Gover. Well, there are a lot of numbers, Congressman, 
that go through on this, and the $2.4 billion, in specific, is 
one that we are all familiar with.
    As they went through and continued to reconcile accounts, 
it----
    Mr. Dicks. This has to be negotiated, right?
    The settlement still has to be--is that something that has 
been negotiated? Do we have an agreement that we are sending up 
here to get authorized, and then money appropriated?
    Mr. Gover. No. We are asking for authority to go out and 
negotiate, knowing our parameters beforehand.
    Mr. Dicks. Okay. Thank you, Mr. Chairman.
    Mr. Nethercutt [presiding]. Thank you, Mr. Dicks.
    Let me just follow up on that line of questioning. When do 
you expect settlements to be reached? Are you starting the 
negotiation process or has it been ongoing, and you are closing 
in on it?
    Mr. Gover. No. Congressman, Mr. Chairman, what we are 
trying to do is get Congress to agree on how we should proceed 
in these settlement negotiations. We are very hopeful that the 
vast majority of the accounts will be settled. In most cases, 
we are talking about fairly small sums of money, even in the 
range of $10,000 for a good many of these tribal accounts. For 
some, there is no indication that any money was lost.
    There are only a handful of tribes, meaning maybe 30, that 
have claims of enough size, and enough ambiguity as to the 
amount that we might owe them, that they would want to litigate 
rather than settle. But we need Congress's approval before we 
think we can go forward with making settlements and beginning 
to pay off a number of these claims.
    Mr. Nethercutt. Where would the litigation occur? Would it 
be U.S. District Court, Court of Claims, would it be trial 
courts, or where?
    Mr. Gover. I believe, Mr. Chairman, it would be the United 
States Claims Court.
    Mr. Nethercutt. You say, Mr. Secretary, that the $2.4 
billion is not missing, or not lost, however you characterized 
it. Do we have assurance that it was properly spent?
    Mr. Gover. Not in all cases. In a good many, what was going 
on--remember, these tribal trust funds, over various periods of 
time, quite often were drawn upon by the tribes to pay anything 
from a phone bill to a car payment to a land purchase.
    We can show, eventually, at the end of the day on many of 
them, that in fact that is how it was spent.
    But the effort that would be required to do that probably 
does not justify the expense.

                         education construction

    Mr. Nethercutt. Let me turn my questions to the subject of 
school construction and education.
    I hear from tribes regarding the issue of school 
construction, and I am sure you know the needs are enormous. 
You maintain a school priority list for construction and I am 
wondering what factors go into formulating that list?
    Mr. Gover. That list predates my involvement by several 
years. Joann, do you know what went into developing the 
priority list?
    Are we talking about the new school construction or the--
    Mr. Nethercutt. I am just wondering if there is a procedure 
in place, and if so, what is that procedure, or is there no 
procedure? And if there is none, I am interested to know what 
determinations go into deciding what schools get constructed 
and which ones do not.
    Ms. Morris. Our Bureau staff person who handles facilities 
is here. Mr. Jerry Schweigert.
    Mr. Gover. Well, no, I think we can--if we are talking 
about new schools, we have not taken applications in several 
years. We have been instructed by Congress, do not plan on any 
new schools beyond the existing priority list.
    Now, were the committee and the Congress to enact our 
request for fiscal year 1999, we would anticipate beginning a 
process of accepting applications for fiscal years 2001, and 
forward, in order to be prepared.
    We would work with the tribes and in fact are planning 
consultation sessions with the tribes to develop the criteria 
that would be applied in evaluating the applications we would 
receive, and as those are developed, we will certainly share 
those with the committee.
    Mr. Nethercutt. That is fine, but I am talking about the 
prior list, a list that has existed over the years, that 
obviously predated your----
    Mr. Gover. Let us ask Mr. Schweigert.
    Mr. Nethercutt. Please. Welcome, sir.
    Mr. Schweigert. Mr. Chairman, we requested applications on 
an annual basis, in the past. However, fiscal years 1992 and 
1993 were the last two years that we requested applications, 
and in those applications we had certain specific items that we 
were interested in.
    The major item that counted in the ranking was unhoused 
students, or those students for which we did not have adequate 
space, or facilities in order to handle the student load at the 
school.
    Also, we looked at the condition of the facilities and at 
that time we were also looking to see if there were any public 
schools that were available in the immediate region within an 
hour's drive or something, in that neighborhood. So there was 
specific criteria on which we ranked the list of 16 schools.
    Mr. Nethercutt. There is a tribe in our State, not in my 
district but in my State, the Lummi Nation, that informs me 
that they were high on the list for a number of years. 
Suddenly, they disappeared from the list, and they do not know 
what the reason is, and so I want to explore that, if I can. If 
there is a reason, I would like to know it for the record, and 
if there is not, maybe we could figure out why, if in fact they 
were dropped, why they were dropped.
    Mr. Schweigert. Yes. They were on the list, and I think it 
was late 1980's. What we used to do is every year, we requested 
new or updated applications. There was a moratorium during part 
of the 1980's by Congress to restrict any new school 
construction, and during that time we took no applications.
    In the latter part of the 1980's, then we were allowed to 
go back out and take applications again, and at that time, each 
year we requested applications, and the schools and tribes were 
allowed to submit applications, and based on the criteria, a 
ranked list was established. The list changed from year to 
year.
    In the case of Lummi, I know we did have some FI&R projects 
there. We brought in a number of portable classrooms to meet 
their needs, and if recollection serves me, they were once high 
on the list, fourth, fifth, whatever. But normally, we only 
received enough funding to construct one or two schools, 
maximum, a year, and so the next year we may have a totally 
different list, and a school may fall lower on the list.
    Mr. Nethercutt. I wonder if you would, kindly, for the 
record, identify the criteria that were in place previously, 
what criteria and priorities are in place today that determine 
how school construction funds are distributed. How that one 
school, or two, or however many on the list end up being 
selected.
    I have heard from other tribes who have some concern that 
political considerations, perhaps, are involved in these 
decisions, and I would hope you would dissuade the committee of 
that, if that is the case; but if it is not we would like to 
know that, too, just for the purposes of those many tribes who 
have competing interest, to have faith in the system.
    I think that is valuable for them, and certainly valuable 
for you and your agency. So if you could kindly provide that 
for the record, and answer, if you would, if political 
considerations are a factor in these decisions.
    Mr. Gover. Mr. Chairman, none of us were here, and the last 
time we took these applications and when the list was actually 
made. I hear the same thing, that there seem to be unaccounted 
for changes in the priority list.
    What I will say is, first of all, we will provide you the 
answer to the question you have asked and that we are committed 
to running an objective and non-political process at the point 
where we are allowed, again, to take applications for new 
school construction.
    [The information follows:]

[Pages 239 - 243--The official Committee record contains additional material here.]


    Mr. Schweigert. Sir?
    Mr. Nethercutt. Yes?
    Mr. Schweigert. I was involved, back in 1988, when we 
started taking applications again. It was non-political as far 
as my experience. We selected people from education, from 
facilities program, and from the Department of Interior, and I 
think it varied from 6 to 9 people, and they looked at the 
applications and ranked them separately.
    So if there was biases, and we had an educator from a 
specific school that was serving on the task group, they were 
recommended to not participate in that particular school.
    Mr. Nethercutt. All right. Well, thank you.
    Mr. Skeen.

                             tribal courts

    Mr. Skeen. Thank you, Mr. Chairman.
    Let me ask a question about the justice system. Do you 
still have tribal courts in every one of these organizations?
    Mr. Gover. We have tribal courts at many reservations; not 
at every single one.
    Mr. Skeen. Not at every single one.
    Do you have cross-jurisdiction with the non-Indians and 
Indians as far as tribal justice is concerned?
    Mr. Gover. Right now, the tribal courts have no criminal 
jurisdiction over non-Indians. They do have criminal 
jurisdiction over Indians from other tribes.
    Mr. Skeen. It is solely over other tribes as well?
    Mr. Gover. That is right.
    Mr. Skeen. So that it is not tribe-specific or reservation-
specific?
    Mr. Gover. That is correct. A few years ago, the Congress 
made clear that tribes have criminal jurisdiction over Indians.
    Mr. Skeen. On your land situation, I am more familiar with 
the New Mexico situation, which we have a lot of checkerboard 
lands. A lot of those are adjacent to reservation lands.
    Has there ever been a plan to consolidate some of these 
checkerboard areas?
    Mr. Gover. The answer really is no, simply----
    Mr. Skeen. It causes a great deal of problem because a lot 
of them were graded by pueblo members of tribal members, and 
there has never been clear definition about who is responsible 
for what.
    Mr. Gover. There is legislation in place that authorizes 
the tribes to develop Indian land consolidation areas.
    Mr. Skeen. In areas such as the checkerboard areas?
    Mr. Gover. Exactly. In checkerboard areas. We do our best 
to facilitate tribal acquisitions of land in order to 
consolidate within those consolidation areas. However, we have 
never had the resources--neither we nor the tribes, to make the 
sort of land acquisitions that would be required to fully 
consolidate tribal land within a reservation.
    Mr. Skeen. I know some of those we have had to do by 
legislation.
    Mr. Gover. Right.
    Mr. Skeen. To get it done. But it is a system that we ought 
to take a look at because there is a lot of problems with 
checkerboard lands, and also, there is no way that you can ever 
say that you got a continuance with this thing. It is always 
hung on birth, with a small thread of accommodation.
    Mr. Gover. It would certainly resolve a lot of 
jurisdictional issues to resolve the checkerboard situation. No 
question.
    Mr. Skeen. The idea of the checkerboards, years ago, was to 
develop the railroad system. It was a very interesting 
prospect, except that it is a hellacious way to try to operate 
on the land.
    Mr. Gover. Many laws have unintended consequences.
    Mr. Skeen. Well, the other thing is, too, nobody knows 
whose jurisdiction most of it comes under. There are multiple 
jurisdictions, so if you have a law enforcement problem on 
checkerboard lands, or something of that kind, a violation, it 
is very difficult because you have got the tribal interests, 
you have got the local county interests, and so forth.
    Mr. Gover. We are finding, at least, that the law 
enforcement agencies out in the field are finding ways to cope 
with the problem. Quite often, they will cross-deputize or deal 
with it in some manner. It is a problem. It is not necessarily 
debilitating when the tribe, the State, local and county 
Governments will work together, and for the most part that does 
take place. There are circumstances, though, where----
    Mr. Skeen. Where it does not; where it does not. Housing 
for non-Indians such as teachers, and I think we talked about 
this a little earlier when I was here. I had to leave, and come 
back again. I know it depends on the location, but housing has 
been a terrible problem with the educational groups, especially 
in isolated areas.

                                housing

    Mr. Gover. It is really unfortunate, and it speaks to the 
overall shortage of decent housing on many of the reservations.
    Mr. Skeen. In total, there is a problem, an overall 
problem.
    Mr. Gover. Right. We were in North and South Dakota, and at 
one school where the teachers drove about 60 miles one way to 
come to work, because there simply was no place for them to 
live on the reservation.
    Mr. Skeen. After I graduated from college in about 1952--I 
think that was about when it was, I have forgotten, it has been 
so long--but the first job I got was with the BIA as a 
conservation engineer at Zuni, and I moved my wife and myself 
into a duplex.
    Well, it was very pleasant except for one thing. The 
bathroom was in the middle room, the kitchen was on one end, 
and the living room was on the other. So if you went to the 
bathroom you had to lock everybody out, and they had to go 
outside and come around the----
    [Laughter.]
    Mr. Skeen. So I know a little bit about reservation 
housing. [Laughter.]
    I think the teepee was a lot easier.
    Mr. Gover. More convenient, certainly.
    Mr. Skeen. Or the hogan. [Laughter.]
    Mr. Gover. It is a critical problem.
    Mr. Skeen. It is very critical.
    Mr. Gover. It is too bad to see the teachers put to such an 
inconvenience because what it means is of course they cannot 
spend as much time at the school as they would like to do.
    Mr. Skeen. That is true, too. But housing, in a general 
sense, on a reservation for members of the tribe is very 
difficult. In the pueblos it is a little easier to do something 
about it, but then some, like the Navajos and so forth--I have 
a story to tell you about that. I was supposed to build a dam 
for a guy by the name of John Pino, and so I went over to his 
hogan several times, but nobody was there.
    The women and children would all disappear. So I went over 
two or three times, and about the third time I went over there, 
why, I stopped this red Ford pickup coming down the road and 
asked them if they knew where John Pino lived, and they said 
yes.
    And you know, most Indians do not point with their hands. 
They point with their chins. So two stops back. Well, then I 
went down there and nobody there. About a week later, I went 
back there, went to the same place, and this Ford pickup was 
parked outside the hogan, and the gentleman came out of hogan, 
and was walking, and I said, ``By any chance, are you John 
Pino?'' He said, ``Yes, I am.'' I said, ``I just talked to you 
a week ago. I have been trying to find you so I could build a 
dam on your place. Why did you not say who you were?''
    He said, ``You didn't ask me if I was John Pino. You asked 
me where I lived.'' [Laughter.]
    And he laughed and laughed. I said, ``You are absolutely 
right.'' [Laughter.]
    So there were a lot of problems, but it was a great 
experience, and I certainly enjoyed it. Of course I have a 
great Apache leader next to me over there. He is in the 
gambling business.
    That is all I have, Mr. Chairman. Thank you.
    Mr. Nethercutt. Thanks, Mr. Skeen. I am fascinated by it.
    Mr. Skeen. I think you all have gotten tired of being 
questioned, so it is just as well I offer a good story. 
[Laughter.]
    Mr. Nethercutt. Mr. Dicks.
    Mr. Dicks. I have no questions.

                           facilities repair

    Mr. Nethercutt. Okay. I want to ask a few more questions, 
if I may, for the record here.
    With regard to school repair, your agency has requested an 
increase of $14 million for education facilities and repair, 
and you also identify about $695 million in needs to bring 
schools up to standard.
    You are going to have a tough time matching one with the 
other in terms of your need versus the resources. How do you 
intend to deal with the repair needs that you have, given the 
budget requests that you have made?
    Mr. Gover. Well, we want to be realistic. One of the 
problems that we have had over the years is even when Congress 
has been generous in appropriating funds, we have not been so 
good at getting it spent. So we do not want to ask for an 
increase that we cannot spend as we receive it, and so we are 
asking for an increase of only $14 million this year.
    However, Assistant Secretary John Berry has instructed all 
of us to create a plan, including a budget plan, that will 
allow us, in 5 years, to deal with the entirety of the Interior 
Department backlog.
    So what you will see are increasing requests in the out-
years.
    Mr. Nethercutt. It is going to be tougher in the out-years, 
perhaps, for this committee to respond to your needs, given the 
fact that we are in a discretionary budget crunch, you know, 
daily.
    Are you saying you could not spend more than $14 million, 
if you got it?
    Mr. Gover. We would find a way to spend it. [Laughter.]
    Mr. Nethercutt. I understand.
    Mr. Gover. And seriously, we do want to be quite sure that 
we are able to commit any funds that we do get, and we have the 
people in Facilities Management already working on a plan, so 
that very specifically, we will know, day by day, week by week, 
what we have to do to make sure that the money gets committed 
in fiscal year 1999, were the Congress to appropriate it to us.
    Mr. Nethercutt. Is that $14 million your decision, the 
amount that you requested, or was that modified, shall we say, 
by the Office of Management and Budget or people within your 
agency?
    Ms. Morris. I think this has been a pretty consistent 
request, internally, from the field, and----
    Mr. Gover. We were very well-received at OMB this year on 
all of the education aspects of the program. In fact they were 
even suggesting that we should put more money in the budget, 
for example, in the area of tribal community colleges, and so 
we did not have any difficulties persuading our superiors of 
the need for this money.

                    indian land consolidation pilot

    Mr. Nethercutt. You have requested $10 million to establish 
a pilot land acquisition program to consolidate fractionated 
ownership of Indian lands, much of what Mr. Skeen was referring 
to.
    How will you spend that $10 million?
    Mr. Gover. My understanding is that we would set up a pilot 
program to acquire small fractionated interests in land, and so 
presumably the lion's share of that money would go to the 
actual purchase of those fractionated interests. I probably 
ought to get you a more detailed answer for the record, but I 
know that most of it is to go for actual purchase of those 
interests.
    Mr. Nethercutt. It seems to me that is better initiated by 
the tribes themselves. You are going to have to make some 
decisions about which lands to give priority, which tribes are 
going to have priority, so----
    Mr. Gover. In the long run, our long-range legislative 
proposal envisions that we would set up is a revolving loan 
fund that the tribes would call upon to purchase interest in 
accordance with a plan that they develop.
    We are not yet authorized to do that, and so we are asking 
for a pilot project to--sort of a shake-down cruise--until we 
get the actual authorizing legislation we need.
    Now, whether the authorizing legislation will pass this 
year--and we are hopeful that it would--then obviously, that 
money would go into that program as opposed to into our pilot.
    Mr. Nethercutt. Well, it would not go into the program 
until you had the pilot accomplished, would it? Would you not 
do your pilot first?
    Mr. Gover. If we got the authorizing legislation this year, 
we would not do it on a pilot basis. We would implement the 
legislation.
    Mr. Nethercutt. Okay. Then how would you target tribes to 
give the available money for acquisition?
    Mr. Gover. I do not know the answer to that. I guess I do 
not know the answer to that.
    Mr. Nethercutt. Does someone? I mean, is there a policy, or 
procedure in place to decide who would benefit, and what 
criteria would go to benefit those----
    Ms. Manuel. We have two or three areas that have the 
largest number of fractionated lands.
    Mr. Nethercutt. Which ones are those?
    Ms. Manuel. Washington State is one. The Billings area. 
Aberdeen. Phoenix. The pilot, I think, when we were talking 
about where we would start piloting this project, we were 
looking at Billings, where I think we have the largest volume 
of land and interest, and the best relationship in terms of the 
staff, the tribes, and the special trustee staff to allow us to 
be able to facilitate the objectives of the project.
    But we have an idea where we will go, and, in particular, 
in Washington, the two or three tribes that are immensely 
affected by the fractionated interests have actually been very 
interested in seeing some legislation, because they are 
interested in resolving this problem.
    Mr. Nethercutt. Which tribes are those?
    Ms. Manuel. Quinault.
    Mr. Nethercutt. I am sorry?
    Ms. Manuel. Quinault.
    Mr. Nethercutt. Quinault. Any others? You said two or 
three.
    Mr. Gover. Yakima, I believe.
    And probably Lummi.
    Ms. Manuel. Lummi.
    Mr. Nethercutt. Okay. If you would, for the record, provide 
the criteria that you will look at, whether it is as you stated 
it, or otherwise.
    [The information follows:]

[Page 249--The official Committee record contains additional material here.]


                            law enforcement

    Mr. Nethercutt. Let me ask you about the fact that the BIA 
is proposing a performance goal of increasing law enforcement 
officers by 25 percent. It seems to the committee that there 
ought to be some performance goals established as an on-the-
ground component of this initiative.
    What would be the rationale for not choosing performance 
indicators like reducing the homicide rate or the teen suicide 
rate, or alcohol-related crimes?
    Ms. Manuel. One of the reasons is that we just want to be 
able to get enough manpower out there to be able to provide the 
kind of coverage to detect crime. I mean, right now, we have--
statistically, we are like three officers short, when you 
compare it to the national standard of--I think it is 3.5 per--
what is it?--100,000 people, and we do not even have that 
number of police officers.
    We want to get as many officers on the ground as possible, 
in the first instance, and then begin to address some of the 
crime statistics that have become fairly well known.
    On the Justice side, they are also proposing to have a 
large influx of human resources. The FBI. They are looking at 
hiring 50 more FBI agents, U.S. Attorneys, and victim crime 
counselors. We are talking about police officers, detention 
officers, dispatchers.
    Mr. Nethercutt. Would it not make more sense to consolidate 
all these law enforcement initiatives under the Department of 
Justice, given your last statement in terms of the FBI and 
other--
    Ms. Manuel. Well, as you may know, that was one of the 
options that the Executive Committee reviewed, along with the 
tribes in the consultations that we undertook in response to 
the President's initiative on law enforcement.
    Both the Executive Committee and the Attorney General and 
the Secretary, and the Assistant Secretary, felt that to 
consolidate law enforcement in the Department of Justice, would 
be a change that would require a great deal of effort by 
everyone involved in a number of areas.
    For example, the Department of Justice does not have the 
same authorities that the Bureau of Indian Affairs and the 
Department of the Interior currently has to facilitate, for 
example, contracting with tribes to run their own programs. 
There are other questions with regard to whether the Department 
of Justice would be able to hire Indians, because Indian 
preference statutes do not apply to the Department of Justice.
    There were just a number of very logistical kinds of 
problems that would take much longer to overcome, and would 
defeat the whole purpose of trying to address this crime 
initiative, you know, in an immediate fashion, that it was 
recommended by both the AG and the Secretary that it remain in 
the Bureau of Indian Affairs, but that we would make some 
needed structural, organizational changes to ensure that the 
funds and the resources that will be provided to this 
initiative are carried out in the most efficient and effective 
manner, and we are going to do that.
    Mr. Nethercutt. What are those structural changes?
    Ms. Manuel. Well, the major one will be that the law 
enforcement authorities will be reorganized under the command 
of law enforcement personnel.
    As currently structured in the Bureau of Indian Affairs, 
superintendents and area directors supervise police officers, 
patrol units out on the reservation.
    Mr. Quasula, who is here, is the head of the Law 
Enforcement Office. He has no line authority over the patrol 
units. That would change. All of that will come under him, 
including the criminal investigative function, which he does 
have line authority over.
    Funding would be consolidated under the Office of Law 
Enforcement.
    Mr. Gover. Basically, it would put the law enforcement 
professionals in charge of law enforcement, and sort of remove 
the rest of----
    Mr. Skeen. Law enforcement. That sounds reasonable, does it 
not?
    Mr. Gover. It has the unusual merit of making sense. 
[Laughter.]
    Mr. Gover. One other thing. We would have developed a 
performance parameter related to the crime rate, except our 
data is not very good, and one of the things we are going to 
find is if we get more officers on the street, we are going to 
get a lot more arrests, a lot more crimes reported, and it is 
going to look like crime is rising.
    So we want to develop a capacity to get good statistics 
during the first year of the initiative, use that as our 
baseline, and then we will know whether we are having an 
impact.
    Mr. Nethercutt. Do you have adequate computer technology to 
obtain that information? I can see heads shake here that you do 
not. Should that not be priority number one? And second of all, 
what will you do about the year 2000 problem, once you have a 
computer capability that you are satisfied with?
    Mr. Gover. Well, new computers of course are Y2K compliant, 
so we do not have to worry about those. Now, for the law 
enforcement programs, computerization is a priority because 
that is what allows us to develop the statistics that will give 
us further the ability to develop performance parameters. 
Justice is already coming forward and proposing funds to 
computerize every tribal police department, and so that is in 
fact a priority for the system.
    Mr. Nethercutt. That would come out of the budget for the 
Department of Justice?
    Mr. Gover. Yes.
    Ms. Manuel. Yes.
    Mr. Gover. Let me just mention that part of the philosophy 
behind the nonconsolidation is what the commissioner said, that 
there is no self-governance, self-determination, Indian 
preference authority in Justice, but also the notion that what 
the Bureau is going to try to do is provide a base level of 
funding.
    Justice can throw additional and more discretionary 
resources on top of the funding we provide to target particular 
problems, to identify needs in the community, and we think 
between the two of us, and probably only with the two of us 
working together, we can address those needs.
    Mr. Nethercutt. Mr. Dicks or Mr. Skeen, if you have any 
questions, I will be happy to have you ask them.
    Mr. Dicks. Keep going.

                        contract support funding

    Mr. Nethercutt. All right. I am informed that a recent 
court decision concluded that the BIA is responsible for the 
payment of contract support funds as a result of nonpayment by 
non-Bureau organizations.
    Can you tell the committee, briefly, about the current 
cases and settlements related to contract support?
    Mr. Gover. Yes. You have hit a raw nerve. We in fact were 
rather extraordinarily, in our view--the Bureau has been 
decreed by a court to be responsible for contract support costs 
for non-BIA contracts, primarily from the Department of Health 
and Human Services, although I guess not exclusively from HHS.
    The settlement discussion--the case goes back over several 
years, I guess, but does not include fiscal years 1996 and 
1997, and we are looking at a settlement of about $75 million 
in contract support costs.
    Mr. Nethercutt. What court? Where did that come from? Maybe 
you can help the committee.
    Mr. Gover. Regrettably, my home State of New Mexico.
    Mr. Nethercutt. Was that a Federal District Court?
    Mr. Gover. It was a Federal District Court. Actually, it is 
the 10th Circuit Court of Appeals.
    Mr. Nethercutt. So you appealed that decision at the lower 
level.
    Mr. Gover. They appealed. We won in the District Court. 
They won at the circuit.
    Mr. Nethercutt. I see. Was there any further appeal?
    Mr. Gover. No.
    Mr. Nethercutt. Okay. That was a studied judgment, I take 
it, not to try to take it up?
    Mr. Gover. I guess. I think that was decided before I made 
it. I think the Commissioner would have liked to have seen it 
appealed. I think we all would have.
    Mr. Nethercutt. Who made that decision? Was it someone 
within your offices, or agency, or was that somewhere else?
    Ms. Manuel. It was made by the Solicitor's Office.
    Mr. Gover. And the Justice Department.
    Ms. Manuel. And the Justice Department.
    Mr. Gover. They decide when we try to go to the Supreme 
Court. On the one hand, it is not the kind of issue the Supreme 
Court is likely to take on, given that it is really arcane. On 
the other hand, it meant a lot to us.
    Mr. Nethercutt. That is a lot of money for you to have to 
try to absorb.
    Mr. Gover. The pity of it is that because of the particular 
way the law is structured, the recovery fund--there is a 
judgment fund in the Justice Department. Well, the judgment 
would initially be paid out of the judgment fund.
    However, because this is a claim under the Contract 
Disputes Act, the Bureau ends up having to reimburse the 
judgment fund, and so there is a great irony at work here.
    Obviously, in order to pay back the judgment fund we are 
going to cut operations, and so one way or the other, the money 
comes out of the tribes programs.
    Mr. Nethercutt. It looks like you are increasingly seeking 
contract support costs resulting from additional contracts and 
compacts. But from what I can tell, it looks like they are 
having a negative effect on you, so I am wondering, what are 
you going to do to address that issue? What is the solution 
here?
    Mr. Gover. Well, the problem with contract support, really, 
it is not so much the new contracts because we have a special 
fund for contract support, for new self-determination 
contracts, and that seems to be adequate.
    The problem is that we are now being told we are 
responsible for contract support, for contracts let by other 
agencies, by other Departments, and if it were not for that, we 
would be maybe not fully funding contract support, but within 
striking distance, and close enough so that we would not be 
looking at a class action judgment in the 10s of millions of 
dollars.
    So the problem is not so much what we are doing with 
contract support, but perhaps with what other agencies are not 
doing.
    We are working with IHS. We are working with OMB, and 
throughout the administration to try to come forward with a 
proposal. We do not think a moratorium on contracting is 
necessary in our case. We do think that, and we have proposed 
to the Congress some language that very specifically caps out 
liability for contract support in fiscal year 1999.
    Mr. Nethercutt. How will you settle this--did you say $75 
million worth of liability in this court case?
    Mr. Gover. Something like that.
    Mr. Nethercutt. What are your prospects for settling and, 
you know, what can you get it down to?
    Ms. Manuel. That is actually the settlement.
    Mr. Gover. That is down, considerably, from what the 
potential liability was, and so we do not know that the number 
is going to be reduced. The negotiation now revolves around the 
issue of, well, it has finally occurred to someone that it does 
not make any sense for us to pay an award that eventually is 
going to be paid for out of appropriations to the tribes.
    So now we are looking for a formula to try to avoid that 
result. It is not obvious to me what that formula is going to 
be because the law is pretty clear about how this judgment gets 
paid, and it is not a good situation.
    But we are working on a solution for that, and obviously 
the committee will be informed very early in the process as to 
how it looks like that is going to be resolved.
    Mr. Nethercutt. Let me talk to you quickly about indirect 
costs of contracts. It is a concern in the health care 
industry, and, I believe, in your agency as well, that the 
indirect costs of a contract eat up the true value of that 
contract.
    To what extent have you examined the indirect cost issue, 
and to what extent do you feel you can address that whole 
issue?
    Mr. Gover. We began a very serious review of the entire 
issue of contract support and indirect costs. The indirect cost 
rates that are on the books right now were negotiated by the 
Inspector General, and they range, wildly, from 15 percent or 
so, with the largest contractor which is Navajo Nation, to in 
excess of over a 100 percent in a number of cases.
    It probably makes more sense than is apparent on the face, 
simply because if we are looking at what it costs a contractor 
to perform under the contract, the indirect cost rates can be 
justified in some form or fashion, or the IG never would have 
approved it.
    However, what we also note is some real disparities, sort 
of from region to region, and negotiator to negotiator in the 
rates that they come up with, what they consider reasonable 
costs, what costs they think ought to be allowed.
    So we have a lot of inconsistencies that we wish to 
resolve. What we are going to do, and we are actually scheduled 
to meet, to have a national consultation meeting with the 
tribes on April 17th, as I recall, and start floating some 
ideas on how to get some consistency in thearea of contract 
support, and to immediately bring--you know, we have an obligation to 
consult with the tribes.
    We have a responsibility to make our proposal to the 
Congress and we anticipate doing that within this fiscal year, 
for how to permanently resolve the contract support issue.
    Mr. Nethercutt. It is an important one because, again, I do 
not have the years of experience of Mr. Skeen or the Chairman, 
but my sense of it is that we are in for some difficult years 
ahead, funding-wise. We have to really set priorities.
    The more plans and standards you have for how the indirect 
costs affect contracts and affect tribes and affect the money 
the better off you are going to be. It is advisable that you 
come in here with a plan to make sure you address those costs. 
It is good that you are working on it, but I think that is 
going to be absolutely necessary in the near future.
    Mr. Skeen, any further questions?
    Mr. Skeen. I will add to that. I think this is an 
indication, too, from your responses, that it is time now to 
give you and the others that have an interest in this thing 
more power to do what you are supposed to be doing.
    For instance, your health organizations. I know we have a 
terrible problem in New Mexico, because you have one of the big 
health organizations in the Albuquerque area, and some 
scattered out amongst the various tribe interests, and pueblos, 
and so forth. As a net result, we are not getting the best 
service that you can. It is the same way with your contracting. 
It ought to be left up to the people with responsibility within 
either the tribal units, or something of that kind. It is about 
time we grew up in this business.
    Mr. Gover. We would like--obviously our policy--we want to 
continue contracting services to the tribes, so that the tribes 
themselves are responsible for them.
    Mr. Skeen. For the operations.
    Mr. Gover. Right. Let me just add, and put in a good word 
for Dr. Trujillo in the IHS, that we certainly support their 
request as well, and we know what a problem is it to find 
resources in the kind of budget environment that we are in. 
Nevertheless, it seems obvious to all of us that education and 
health are the top priorities in these communities, and are 
desperately needed.
    Mr. Nethercutt. Dr. Trujillo comes in this afternoon. I 
look forward to having testimony from him and others. Indian 
health is a huge issue, one that I am particularly interested 
in, and I know Mr. Skeen is as well. You may know that the 
Speaker of the House has been supportive in terms of the 
diabetes funding that was added as part of the Balanced Budget 
Act--some $30 million a year for 5 years. It is going to really 
help that huge problem of diabetes among Native Americans and 
Indian tribal populations.
    What we want to be sure of is that the money is spent well, 
and that it goes to the people on the ground and it is not 
eaten up somehow in the bureaucracies of Government, which are 
out there. That is going to be very much a focus of our 
inquiries over the next year, to make sure that money is spent 
well.
    I know the Chairman of this subcommittee is vitally 
interested in that also, and was instrumental in making sure 
that there are some standards with regard to spending money 
wisely for Indian health.
    So we thank you for your testimony and your responsiveness 
to the subcommittee's questions, and we stand in adjournment 
till 1:30 this afternoon.
    [The following questions and answers were submitted for the 
record by the Bureau of Indian Affairs and the Special Trustee 
for American Indians:]

[Pages 256 - 320--The official Committee record contains additional material here.]










=======================================================================


                       Department of the Interior

                   National Indian Gaming Commission

=======================================================================





[Pages 323 - 327--The official Committee record contains additional material here.]















=======================================================================


                       Department of the Interior

                       Office of Insular Affairs

=======================================================================




[Pages 331 - 356--The official Committee record contains additional material here.]











=======================================================================


                      Commonwealth of the Northern

                            Mariana Islands

=======================================================================





[Pages 359 - 378--The official Committee record contains additional material here.]










=======================================================================

                       Department of the Interior

                        Departmental Management

=======================================================================




[Pages 381 - 395--The official Committee record contains additional material here.]









=======================================================================

                       Department of the Interior

                        Office of the Solicitor

=======================================================================




[Pages 399 - 409--The official Committee record contains additional material here.]









=======================================================================

                       Department of the Interior

                    Office of the Inspector General

=======================================================================




[Pages 413 - 421--The official Committee record contains additional material here.]









=======================================================================

                Department of Health and Human Services

                         Indian Health Service

=======================================================================










                                         Wednesday, March 25, 1998.

                         INDIAN HEALTH SERVICE

                               WITNESSES

MICHAEL H. TRUJILLO, M.D., M.P.H., M.S., ASSISTANT SURGEON 
            GENERAL, DIRECTOR
MICHAEL E. LINCOLN, DEPUTY DIRECTOR
KERMIT SMITH, D.O., M.P.H., CHIEF MEDICAL OFFICER
GARY L. HARTZ, ASSISTANT SURGEON GENERAL, DIRECTOR, FACILITIES AND 
    ENVIRONMENTAL ENGINEERING
DENNIS P. WILLIAMS, DEPUTY ASSISTANT SECRETARY FOR BUDGET

[Pages 426 - 430--The official Committee record contains additional material here.]


    Mr. Regula. Okay, we will get the hearing started on the 
Indian Health Service. Dr. Trujillo and whomever is going to be 
with you here joining us--Mr. Lincoln, Dr. Smith, Mr. Hartz and 
Mr. Williams.
    Your statement and any other statements will be made a part 
of the record and we would appreciate it if you would summarize 
for us.

                       Introduction of Associates

    Dr. Trujillo. Thank you. Good afternoon, Mr. Chairman. 
Today I do have three other individuals with me. Mr. Mike 
Lincoln, to my right, is the deputy director. Dr. Kermit Smith 
is our new chief medical officer for the agency. It is his 
first budget hearing this year and I welcome him to the table.
    Mr. Regula. Well, we are easy to get along with.
    Dr. Trujillo. And Mr. Gary Hartz, who is in charge of our 
facilities, sanitation, and environmental health. Thank you, 
Mr. Chairman.
    It has been four years since I became the Indian Health 
Service director and time goes fast when you are having a lot 
of fun, challenges, and opportunities. I want to thank you and 
the committee members and, especially, the staff for being very 
assistive in working with the Indian Health Service, the 
tribes, and the urban programs that we deal with every day.
    Our written statement has been formally submitted for the 
record and we are here today to present the President's 
proposed budget. There are, as you know, some increases to the 
budget for a defined period of time that are not part of the 
recurring base. Also, there are some decreases to the budget 
and several of those are not part of the budget authority. They 
really are, in some cases, decreases to the permanent base.

                             budget request

    The request is for a total service of $2.1 billion with a 
$19.7 million increase in budget authority which is 0.94 
percent increase over last year. In health services it is a 
0.15 percent for increases over last year. This also assumes a 
third party collections increase of $25 million over 1998.
    The increases in funding are in the categories of alcohol 
and substance abuse, breast and cervical cancer, and health 
facilities construction.
    The reductions we are facing are in the real budget 
authority of hospitals and clinics for $10 million, sanitation 
facilities construction for $5 million, and maintenance and 
improvement for $3.8 million.
    In this budget proposal that you see, there are no 
increases that we had proposed originally for inflation of 
$53.6 million, pay costs of $36 million, population growth of 
$37.4 million, or staffing and operating costs for four new 
facilities (that were approved last year) of $16.4 million.
    In addition, there are no increases for our contract 
support costs, which tribes depend upon when they contract or 
compact with the Indian Health Service. The additional need 
presently amounts to $135 million and the actual total 
requirement for those tribes comes to $304 million.
    I was sitting in my apartment last night reflecting on what 
I was going to be saying before the committee today and I have 
one of my daughters visiting me for spring vacation. She is not 
in the audience today. She elected to do her homework.
    Mr. Regula. A worthy cause.
    Dr. Trujillo. She was doing interesting homework on 
Pandora's box. I was reflecting how interesting it would be if 
that box was never opened and what we might be facing today. It 
would be far different.
    Mr. Regula. What grade level is she?
    Dr. Trujillo. She's in the fifth grade.
    Mr. Regula. That's an interesting assignment at the fifth 
grade level.
    Dr. Trujillo. But looking at the pictures of my 3 
daughters, I was thinking about who and what I represent and 
what I bring before you today, this afternoon. Certainly it is 
not just an exercise of discussion. And, what will my children 
think about when they read some of this testimony and hear what 
I have been saying?
    My grandfather and father used to come to Washington inthe 
past and they are now gone, but what do I represent and how do I fit 
into their path? And, in whose footsteps do I follow?
    I have made a number of trips to Indian country over the 
past several months. I have been to Hopi, San Carlos, Bylas, 
and White River, Arizona. Several weeks ago I was in the 
Oklahoma City area and I went out to Lawton and also talked 
with individuals at the Citizens Bands of Pottowatomee. By the 
end of last week I was in Minneapolis where I met with the 
tribes of Minnesota, Wisconsin and Michigan. About a month and 
a half ago, I was in Southern California where I visited some 
tribal and urban programs.
    I recently made a trip to Taos, Acoma, and Laguna. I am 
from Laguna Pueblo. I met with individuals and the governors of 
Santo Domingo and Santa Ana on a number of their health care 
concerns.
    At the beginning of next week, I will be at the California 
tribal area meeting for all the tribes there. They will be 
holding their meeting in Reno.
    Going home several weeks ago, I also had the opportunity to 
see some of my family. My uncle, who is about 84 years old, 
just recently had surgery. He still receives care from the 
Indian Health Service at the local service unit. He had to wait 
a long period of time for this required surgery.
    My aunt, who is 93, is bedridden. The public health nurse 
now occasionally comes and visits, less frequently than they 
used to. She is doing well. She has not been sick. But the 
decreases in service also affect her.
    I think we, you as congressional representatives of the 
people and I, certainly, as the director of the Indian Health 
Service, have an obligation to affirm and uphold the trust 
responsibilities and relationships that we have with Indian 
people and Indian tribes across this land. I certainly believe 
in the foundation and the federal obligation to Indian people 
and to honor and respect the sovereignty and rights of Indian 
tribes.

                             health status

    This past December there was an article in the Washington 
Post that talked about the unfortunate decreased life 
expectancy among individuals on the Pine Ridge Reservation in 
South Dakota, where the rates are 13 to 16 years less than the 
population living across this nation.
    We have major devastating health problems. We have 
alcoholism, accidents, chronic and degenerative diseases, 
suicides, disruptive and violent behavior, child and family 
abuse, mental health illness, and the list can go on. Many of 
these problems, unfortunately, are directly related to poverty, 
the lack of educational opportunities, poor housing, lack of 
roads and transportation, and the lack of economic 
opportunities.
    Many individuals who live in Indian country see an 
inability to have a productive life. There is a lack of access 
to care and they face discrimination and outright racism in 
many cases.
    What do our Indian children see, and what is their future 
and what is the future? What is the future for our children and 
my children as I reflected upon the options last night? While I 
am respectful of the budgetary process and the negotiations 
that occur, I have to be accountable as a health professional 
who has served most of my career in the field. I also have to 
be accountable, as the director of the Indian Health Service, 
an agency in the Department of Health and Human Services.
    Most importantly, I am accountable to the people I serve 
and the Pueblo communities that I come from and that I call 
home.

                    assessment of president's budget

    As I assess this year's budget, I will have to direct my 
attention, if this budget passes the way it is, to how we will 
attempt to support the current level of services and not 
decrease them further. We have had to absorb over a quarter of 
a billion dollars by not receiving mandatories these past 
years. In addition, there is insufficient funding in contract 
support costs and contract health services that I see.
    My effort certainly, as director of the Indian Health 
Service, will be directed towards slowing the decline of 
service and minimizing the negative impact among Indian Health 
Service, tribal and urban programs. The Indian Health Service 
will have to concentrate even greater on looking to outside 
resources, foundations, universities and organizations, for 
example, to assist in the delivery of care and services for 
Indian tribes, Indian programs and urban programs.

                           external resources

    We certainly will emphasize and continue to strengthen 
relationships with other federal agencies within the department 
and outside where those agencies may have had more increases 
than the Indian Health Service and have more resources.
    We certainly will be working more diligently with the state 
programs as federal dollars are rechanneled into states. 
Unfortunately, as you well know, many of the states and tribes 
do not have conducive or productive relations hips. And, when 
it comes to health and other issues, many times Indian tribes 
are not part of that system.

                     healthy people 2000 objectives

    I would have to acknowledge that a number of our Healthy 
People 2000 objectives may actually be stalled or even worsened 
while possibly, public and community health infrastructure may 
be weakened for Indian Health Service, tribal and urban 
programs.

                         contract support costs

    Because of the lack of increases in contract support costs, 
I believe many tribes will not be able to assume the health 
care administration and management of their programs in the 
spirit of self-determination that the Administration, Congress 
and the tribes have worked diligently on.
    I look forward to working with you this year and in the 
next several months to see what we might be able to do to bring 
about needed resources for Indian health care programs. We need 
to correct the great disparities that exist in Indian health as 
compared to the rest of the nation. We must concentrate on how 
we can look to the future so that Indian youth and all Indian 
people may have a more fruitful life to look forward to, other 
than poor economic conditions, poor education, the lack of 
other opportunities and the inability to see how they can be 
productive, healthy citizens, not only of their communities and 
their Indian nations but to the nation as a whole. Thank you.
    [The information follows:]

[Pages 435 - 438--The official Committee record contains additional material here.]


           rationale for omb's disparity of budget increases

    Mr. Regula. Thank you. Do any of the others want to make a 
statement?
    We have noted that the President's budget request is quite 
generous for many agencies throughout the government. In fact, 
in our bill the Administration propose an increase of $1.1 
billion over our fiscal year 1998 allocation. Yet it seems like 
you have been left out by OMB when it came to distributing all 
of these increases. I would be interested in what rationale OMB 
gave you for not even funding your fixed cost increases, like 
mandatory pay raises. Did they give you any reasoning or logic?
    Dr. Trujillo. We met with the department and we have had a 
number of discussions within the department. Also, the 
department supported our initial request to OMB. Tribes and 
urban program representatives also met with OMB and made a 
budget proposal in mid-November for about $294 million over the 
IHS budget that we had proposed.
    OMB passed back to us the figures and the Department was 
able to, with negotiations with other agencies within the 
Department, to increase the OMB figure. As to how OMB 
constructed their budget, I don't exactly know of some of the 
other reasons why we didn't receive additional funding.
    Mr. Mike Lincoln, do you have any further information?
    Mr. Lincoln. Mr. Chairman, Dr. Trujillo has summarized the 
various meetings we had with OMB. In those meetings that we had 
with OMB, we believed those meetings were productive. They 
certainly have indicated that our----
    Mr. Regula. They haven't done much for your budget.
    Mr. Lincoln. Absolutely. They have supported our GPRA and 
have made statements that indeed our Government Performance 
Results Act objectives were some of the best within the 
department and that they had seen. So we are at a loss as to 
why additional funds were not provided.

                        funding for mandatories

    Mr. Regula. If you get no additional money other than that 
proposed by the Administration, will you not have to cut health 
services in order to meet your fixed cost increases?
    Dr. Trujillo. At the present time, without having received 
any mandatories for the past several years, we have also seen a 
decline in some of our services already--in ambulatory care, 
hospitalization, dental care. I mentioned my only family 
incidence of preventive health. Public health nursing is a 
problem. Yes, we would have to face a decrease in services.
    The other area that we would see difficulty in is our 
contract health services funding, in which we purchase care 
outside the organization. Many tribes and the Indian Health 
Service rely on this category of funding for provision of 
services.
    Mr. Regula. You would have to reduce that?
    Dr. Trujillo. We are already curtailing those areas 
drastically right now. We have many deficiencies that need to 
be funded in that area and we would only see a growing rate of 
denials in the contract health service funding.
    Mr. Regula. Mr. Nethercutt, do you want to come back?
    Mr. Nethercutt. I would be glad to come back, Mr. Chairman. 
I have made particular arrangements to attend this hearing.
    Mr. Regula. I assume that you will have questions you want 
to ask?
    Mr. Nethercutt. I will indeed. I will come back after the 
vote.
    Mr. Regula. Well, we have a vote following a vote, so there 
is no use rushing over there. Why don't you go ahead and get 
started on your questions?
    Mr. Nethercutt. Welcome, Dr. Trujillo and gentlemen. I am 
delighted to have you here and have been anxiously awaiting 
your testimony.
    I want to follow up on the Chairman's comments about your 
budget. The way I look at it, the budget request is extremely 
lacking. I understand the relationship between your agency and 
OMB and the White House and the gymnastics that sometimes have 
to be gone through with OMB. I find it a failing on the part of 
the President, who speaks passionately about the need to make 
sure the cost of Americans' health care is covered but yet 
gives you a budget like you have been given. It is insulting, 
in my humble opinion, to Native Americans and Indians who have 
very critical health needs in our country.

                          funding of diabetes

    You and I have worked together and met with regard to the 
diabetes initiative.
    Dr. Trujillo. Yes.
    Mr. Nethercutt. We have talked about the high incidence of 
diabetes among Native Americans and Indian populations, the 
need to address that problem. We have had discussions, Mr. 
Chairman, with the Department of Agriculture in terms of the 
kind of food that is disbursed through Agriculture food 
programs to Indian populations and tribes and how that has, in 
many respects, a negative impact on the health of Indians and 
Indian children, because of the high incidence of diabetes.
    Mr. Regula. Is diabetes part of a nutritional problem?
    Mr. Nethercutt. It is indeed. Yes, sir. We are seeing 
diabetes now in children, Indian children, who are 11 and 12 
and 13 years old, type 2 diabetes, which usually affects 
adults. It is an adult-onset disease.
    Mr. Regula. What type of food deficiencies trigger this?
    Mr. Nethercutt. It is related to high fat foods and foods 
that encourage obesity in children. So this particular 
population, Mr. Chairman, is really affected by the kind of 
food that they consume and the kind of food that is distributed 
by our Agriculture Department.
    I happen to be on the Agriculture Subcommittee of 
Appropriations and we brought that up to the Secretary's 
attention and said you ought to look carefully at this because 
while we mean well with the food programs that come out of the 
Department of Agriculture, there may be a negative health 
impact on young children, especially, as it relates to 
diabetes, which is disproportionately affecting Native 
Americans and Indians.
    So I am sort of firm in my belief that you have to pay 
extra attention to the health care needs of the Indian Health 
Service and others, and your budget is a reflection of a 
tension and the fact that you are getting a budget reduction, 
by my calculations, I think speaks poorly of the 
Administration. I will not ask you to take sides in this one 
but, on the other hand, I know you would like to have more 
money for the needs that you have out there. If that is the 
case, I would hope you would be forceful in letting this 
subcommittee know what your requirements are.
    Dr. Trujillo. Yes. Thank you very much.
    Mr. Nethercutt. Over the past 18 years Congress has 
provided funds through the Indian Health Care Improvement Act 
to establish model diabetes programs in 19 Indian communities 
around the country. These sites were set up to provide 
information and technical assistance based on their own 
experience with treating diabetes and at two other tribes on 
how to best treat diabetes in Native Americans.
    Funding for these programs has been authorized through the 
year 2000. Can you advise the subcommittee what the Indian 
Health Service's intentions are regarding this activity.
    Dr. Trujillo. Well, in fact, with the new diabetes monies 
that have come into the Indian Health Service, the model 
diabetes programs are one of the primary points of services, as 
well as program activities, for the Indian Health Service, 
tribes and some of the urban programs to foster the care that 
has been developed and how to deliver that, especially in the 
public health and health education arena.
    We are hoping to strengthen that. Our intention is during 
the reauthorization effort for the Indian Health Care 
Improvement Act, that will be a very large part of the 
categories we would strengthen, not only by policy and 
legislative authority, but, hopefully, with some subsequent 
funding for diabetes.
    Again, as you mentioned, for earlier diagnosis of 
individuals in ages 9 and 10--we are going to see the onslaught 
of that disease 10, 15, 20 years from now when they have 
retinal problems, cardiovascular problems, peripheral vascular 
disease, and problems with end stage renal disease.
    So, we are only now seeing the initial brunt of the 
problem. The $30 million that came into the Indian Health 
Service is very good and well intended, but we could use all 
that money up in one year in one area. And when you see $30 
million spread over each of the five years and for the 
population that we will be dealing with in the future, this is 
just a beginning. I hope we can strategize on how to bring more 
resources to bear, not only for Indian people on the 
reservations, but also those individuals who are in the urban 
setting.
    Mr. Regula. We will recess to vote and be right back.
    [Recess.]

                            dental services

    Mr. Regula. We will reconvene. Sorry for the delay, but 
there were three votes.
    A few more questions. How long do patients need to wait for 
medical services, and likewise for dental?
    Dr. Trujillo. Again, Mr. Chairman, that unfortunately has 
been increasing over the past several years due to the decrease 
in the amount of mandatories and operational costs.
    Dr. Smith, do you have some idea of some figures there?
    Dr. Smith. Thank you, Mr. Chairman. Let me fill you in with 
what may be anecdotal information but is the way many of our 
systems have to work for dental appointments. They open up the 
first day of the month, perhaps just from 8 until 12, where 
people can either call in or can show up and try to make an 
appointment for our dental clinics.
    Our emphasis is on children, our elderly people, and our 
patients with diabetes and that takes up all the available time 
of the current dentists we have.
    Mr. Regula. That means that dental care must suffer 
considerably for the Indian population.
    Dr. Smith. The numbers that I have been looking at in 
preparation for this hearing is only around 25 percent of our 
population has access to dental care.
    Mr. Regula. That is pretty sad.
    Dr. Trujillo. The other thing, Mr. Chairman, is that we 
also, in many of our facilities, are unable to offer any larger 
or more comprehensive dental care other than basic preventive 
and acute care. Orthodontic surgery and other procedures like 
that are deferred in many cases. Because of the lack of 
contract health service funding, that impacts on what we might 
be able to purchase for dental care outside our system and for 
the Tribal Health Program system.

                        third party collections

    Mr. Regula. The budget assumes you will increase your 
collections from private insurance companies by $25 million in 
FY99. Whose estimate is that? Was this imposed on you by OMB? I 
think it is a phony number, to tell you the truth.
    Dr. Trujillo. The estimate that we are dealing with in our 
operations, that is with tribal and Indian Health Service 
programs, is about a $12 to $15 million increase. Much of the 
increase that came last year has been because of our 
negotiations with the Health Care Financing Agency, rate 
adjustments, and better reimbursement to our facilities.
    Now that welfare reform, the Childhood Health Insurance 
Plan and other managed care activities are taking place in many 
states, these will also affect our ability to collect that 
amount for this coming year. Again we are looking at about $12 
to $15 million.
    Mr. Regula. $25 million is an inflated figure.
    Dr. Trujillo. Mr. Lincoln.
    Mr. Lincoln. Mr. Chairman and Dr. Trujillo, the $25 million 
projected increase is a number that was provided to us by the 
Office of Management and Budget, in answer to your first 
question.
    Mr. Regula. They just imposed it on you.
    Mr. Lincoln. Yes. The second point that Dr. Trujillo is 
making is that based upon the best information the Indian 
Health Service has available at this point, there might be a 
$12 to $15 million increase. That is just based upon our year-
to-date results, comparing last year through February versus 
this year through February.
    Mr. Yates. Increase over what, Mr. Chairman? What's the 
amount?
    Mr. Regula. Over this year.
    Mr. Yates. I know, but what is the amount?
    Mr. Regula. What did you get in FY98 from private insurance 
collections?
    Mr. Yates. I know. I wondered what the base was.
    Mr. Lincoln. Mr. Chairman, we project to collect about $298 
million in Medicare, Medicaid, private insurance and other 
reimbursements. The $25 million that is projected as an 
increase in the budget would carry us to $323 million versus 
the $298 million we plan on collecting this year.
    Mr. Yates. Is that a shortfall? Will that be a shortfall, 
do you think?
    Dr. Trujillo. In regards to----
    Mr. Yates. The actual expense.
    Dr. Trujillo. We will not be able to collect those dollars, 
which are very critical because that is primarily our only 
growth area for funding at the present time. There will be 
impact to daily operations in tribal and Indian Health Service 
clinics.

                     indian self-determination fund

    Mr. Regula. We have routinely provided $7.5 million over 
the past several years to provide for new and expanded self-
determination/self-governance contracts. I see this was left 
out in the 1999 budget. Is there any reason?
    Dr. Trujillo. Yes, in our original request we forwarded to 
the Department and the Department then forwarded to OMB, a 
request for contract support costs was included for tribal 
programs. At the present time, we are estimating an additional 
need of $135 million for those tribes who wish to have 
contracts and compacts for tribes.
    Our total requirement, which includes tribes who have 
previously taken on a majority of their programs themselves, 
are around about $304 million. Unfortunately, in this year's 
proposed budget, there are no increased dollars in this 
particular category.
    From my point of view, it really inhibits and prevents 
tribes who wish to get into the self-determination effort to 
take over and manage their own health care program.
    Mr. Lincoln, do you have anything else to add on that?
    Mr. Lincoln. Mr. Chairman, our initial request for the 
Indian Self-Determination Fund, which is for those new 
contracts, was $12 million. There is an additional shortfall of 
$123 million, which adds to the number that Dr. Trujillo has 
given of a $135 million shortfall.
    Mr. Regula. Mr. Nethercutt had started his questions before 
the recess, so if you would like to finish.
    Mr. Nethercutt. I will be here. Mr. Yates, were you 
finished?
    Mr. Yates. Oh, no. I am sorry. I always interrupt the 
Chairman.
    Mr. Regula. I defer to seniority and wisdom.
    Mr. Yates. Thank you. Thank you, Mr. Chairman.
    Mr. Regula. You're on.

                         diabetes grant process

    Mr. Nethercutt. Thank you.
    Doctor, we were talking a little bit earlier about the 
funding that is going to go towards diabetes. As you know, the 
Balanced Budget Act provides that $30 million a year will be 
available for five years for the prevention and treatment of 
diabetes in American Indians and I have been asked by the 
Speaker to monitor these funds. As I said before, we had a good 
meeting on this subject previously.
    I am aware that Indian Health Service, in consultation with 
tribes, has developed a process for getting the money out to 
the tribes through noncompetitive grants and I understand this 
activity is currently in progress.
    Dr. Trujillo. That is correct.
    Mr. Nethercutt. An RFA was written which outlines the 
application procedure and one area of controversy among the 
developers of that RFA was in the area of data reporting. I am 
informed that some felt that since it was not mandated 
legislatively, that the Indian Health Service had no right to 
require any data reporting for these grants. Others felt that 
there should be some reporting of very specific data in order 
to help all Native Americans across the country with health 
issues.
    So apparently a compromise was reached so that some data 
will be collected but not much will be required of grantees.
    So the question that comes before us is what assurance can 
we have that the Indian Health Service can collect meaningful 
data from these projects? How can we be assured that there will 
be meaningful data? Could you address that?
    Dr. Trujillo. Yes. I will also ask Dr. Smith to comment on 
this because he has also been very much involved in the work 
group who developed the recommendations for me regarding the 
final outcome and the implementation of the plan.
    In discussions of the diabetes funding for the Indian 
Health Service much of it has been based upon previous 
morbidity and mortality data within the Indian Health Service. 
That emphasis needs to be continued. In fact, with the 
distribution of the diabetes dollars for this coming year and, 
hopefully, in the ensuing years a segment of those funds will 
go specifically to each region to improve their data collection 
program relating to diabetes, building upon some of the model 
diabetes efforts that have gone on in the past.
    I believe there is a consensus among the work group 
members, especially the tribes and urban programs, that there 
is a necessity for very good, valid and accurate data not only 
for administrative and management fiscal purposes but, more 
importantly, for clinical outcome data, to see where we are in 
practice and also to justify more resources or emphasis in the 
future when we work with NIH and CDC in other areas, too.
    Dr. Smith, do you have anything else to add?
    Dr. Smith. Yes, Congressman Nethercutt. The application 
process that is going on right now for the grant money 
addresses the need to have an assessment and to collect a 
common data set that we will be putting together on a yearly 
basis. The diabetes program is going to be the repository for 
that.
    To our knowledge at this point, the Diabetes grantees are 
accepting the responsibility that there will be a requirement 
to have a national data set that will be put together by the 
end of the five years. The assessments are going to be done on 
a yearly basis and we will be collecting that data on a yearly 
basis--actually, even more often.
    Mr. Nethercutt. I think that is advisable, Doctor, because 
while I wouldn't say there is a skepticism about the need for 
the money, I think there can be a confirmation that the money 
is spent wisely if you have good data. Not only on the results 
side--in other words, the incidence of diabetes--but how can we 
collect data that will allow there to be an expenditure for 
prevention? I think that is a very important component of 
Indian health, especially as it relates to diabetes.
    So the more data you have, the more questions that I and 
the Chairman, Mr. Yates and others, will want to ask, to be 
sure that we are convinced that the money is being spent wisely 
and we will be there to try to help in the future. Speaking for 
one, I want to see you get all the money necessary to make sure 
these young people are well cared for and that they don't 
contract diabetes and other diseases that may be preventable.
    Congress has acted with regard to Medicare coverage of 
mammographies, colorectal screening, prostate exams, and 
diabetes education. I think we will see some dramatic results 
in the non-Native American Medicare population so I hope you 
will pay close attention to that and be very insistent among 
those grantees, to make sure they have the data that is 
necessary to confirm what we think the results will be with 
this extra money.
    Dr. Trujillo. Thank you. The other thing I would like to 
add is that an objective in our GPRA proposals for this ensuing 
year, is to collect good prevalence data in diabetes within the 
agency and for tribes and urban programs.

                    wellpinit indian health service

    Mr. Nethercutt. That is great.
    I want to be a little parochial and talk with you for a 
minute about the Wellpinit Indian Health Service clinic in my 
district that serves the Spokane and the Kalispel tribes, as 
you know, and other Native Americans from our region. They have 
had a dramatic increase in visits without an increase in staff 
or an addition to the facility. It is not a good facility in 
terms of its physical condition.
    I am informed that they have to close their doors at 1:00 
in the afternoon in order to serve the patients that they 
receive each morning, so it is a shortfall that needs 
attention. The facility consists of three mobile homes attached 
to the main building, which is really inadequate for the needs 
of the people there. The Spokane tribe has been identified by 
the Indian Health Service as an underserved population.
    A feasibility study conducted by your agency on the 
replacement of the Wellpinit Clinic came up with several 
options. One was a replacement option that would cost about 
$1.7 million. You could also construct some new modular 
facilities for about $300,000 to $400,000, depending on what 
size the units are.
    Under the joint venture program, the third option, if the 
Spokane tribedecided to build a new medical clinic with their 
own funding, Indian Health Service would then fund new staffing and 
equipment equal to the dollar amount put up by the tribe. So that would 
lessen the need for federal dollars and the impact on federal dollars 
by requiring matching funds.
    I understand that there has only been about two facilities 
built under this joint venture concept, so I am wondering if 
you think this is a good program, if you think it has merit 
and, if so, should we continue that?
    Dr. Trujillo. Several responses to the question. I used to 
serve in the Portland area, as you well know, and have been to 
the Wellpinit Clinic many times. I met with Chairman Bruce 
Wynne about four or five months ago when we had the opportunity 
to talk about the clinic. They were having difficulty with the 
flooring and we tried to assist the tribe.
    You are correct. There is difficulty in that clinic. Space 
is inadequate. Storage and the ability for staffing to work in 
an effective manner is very poor and needs to be addressed very 
seriously. And, we are backing up patients in regards to 
clinical care.

                         joint venture program

    In regards to the joint venture aspect, I believe that is 
certainly a very good alternative for us to address the need 
for an increasing amount of ambulatory care clinics. The joint 
venture aspect will allow for a cooperative agreement between 
the tribes, the Indian Health Service and the federal 
government with the Indian Health Service providing staffing, 
operations and equipment for the building.
    We have had two projects under the joint venture program. 
The one I am very familiar with is at Warm Springs, or which 
has become a very excellent clinic. The operations are up to 
date. The equipment is excellent and the staff is top notch. 
They have had some very good improvements to their health care 
program.
    Mr. Hartz has been involved in the joint venture process 
with a number of tribes. They met recently in Oneida, Wisconsin 
and they now have formed an organization to address how we 
might go forward with the tribes, Congress and the Department, 
because this is a very fruitful area for us to seriously 
assess.
    Mr. Hartz.
    Mr. Hartz. Thank you. The information that Dr. Trujillo has 
already provided gives you an overview of the joint venture 
program and it provides a viable alternative to direct federal 
funding for all of these facilities. That is really the key of 
Section 818 of the Indian Health Care Improvement Act, which 
authorizes this alternative.
    The funding for those two facilities back in 1991 and 1993, 
I think, totalled $2.5 million to provide the money to equip 
those two facilities, Warm Springs and Poteau, Oklahoma. 
Separately funds were provided for the needed staffing to 
address the workload which went along with those new 
facilities.
    So it truly is a partnership. At this time, when it appears 
that we are looking at reduced funding for capital 
improvements, joint venture may be a way to get these needed 
improvements in Indian country because of the dire straits of 
existing facilities, both federal and tribal facilities.
    Mr. Nethercutt. I think it is a good idea. This revolving 
loan concept and being a resource and having a partnership with 
the tribes is a good one as far as I am concerned.
    I received your invitation to come out to Arizona in June. 
I will try to do that, to talk about Indian health.
    Dr. Trujillo. Thank you.
    Mr. Nethercutt. This is one, Mr. Chairman, I really want to 
pay some attention to and try to help. I know you do and Mr. 
Yates does and others, but there is a need out there and I 
think we can help future generations if we do a good job now. 
So thanks for----
    Dr. Trujillo. I am glad that you will be able to attend.
    Mr. Nethercutt. I hope so. I will do my best.
    Dr. Trujillo. We will be addressing how we can coordinate 
with academic medical centers in Indian health care programs.
    Mr. Nethercutt. Good. Thanks for your testimony.
    Mr. Regula. We may have a little more compassion than OMB. 
Mr. Yates.

                  conditions of healthcare facilities

    Mr. Yates. I would hope so.
    I want to follow up on what Mr. Nethercutt was asking 
because I am interested in both fields. He has described the 
facilities of the two tribes in his district as being 
inadequate. Are more of your facilities inadequate than are 
adequate? Can you say that your facilities are in good shape?
    Dr. Trujillo. I would have to address that in several ways 
and I will also ask Mr. Hartz to comment on that, too. We have 
a range of facilities, with the newest being the Anchorage 
medical facility, as well as facilities that are 80 to 90 years 
old. The average age of our hospitals and health centers is 
about 20 to 30 years old.
    All our facilities have met Joint Commission accreditation 
standards. That does not negate the need for improvements or 
the need for construction of new space. Many of the facilities 
for Indian Health Service and the tribes are in great need, 
primarily in the ambulatory care area. There is a growing need 
that we see in Indian country for ambulatory care facilities to 
address the increasing population and the type of therapy and 
treatment that is now on-going in the medical arena.

                           facilities budget

    Mr. Yates. Have you asked the committee for enough money to 
take care of this need?
    Dr. Trujillo. We have, of course, had a priority system to 
look at facilities----
    Mr. Yates. But you don't have enough money.
    Dr. Trujillo. Yes. Of course because of that----
    Mr. Yates. Have you told the committee how much you need 
for this?
    Dr. Trujillo. In regard to the total amount of need, it is 
not in this proposed budget.
    Mr. Yates. For the money you need?
    Dr. Trujillo. The total amount of need is not in this 
proposed budget. We have a proposed budget in this year for the 
Fort Defiance facility.
    Mr. Hartz, could you add a little more to the total----
    Mr. Hartz. Congressman Yates, nice to see you again.
    Mr. Yates. Thank you. Pleasure seeing you, sir.
    Mr. Hartz. The total for facilities in the five-yearplan, 
to pick up on what Dr. Trujillo mentioned of the priority list, is 
about $810 million to address the facilities that are quite aged that 
he was referring to.
    The average age of the federal facilities exceeds 30 years 
at this time, which is greater than, from what I understand, 
the age of facilities serving the rest of the U.S. population.
    Mr. Yates. We probably, in this committee, put those 
facilities in 30 years ago. Now they are obsolete.
    Mr. Hartz. That is the real key to what we are dealing with 
today. Even though we have a need in the isolated, remote 
locations for hospital facilities, the changing demographics of 
health care puts a tremendous burden on us for delivering 
ambulatory services, which was mentioned earlier in the 
conversation here.
    So there is a dual need. And, concurrent with that, is the 
necessity to try to maintain these old facilities, which are 
ever increasing in cost as they do age.
    Mr. Yates. You came out of OMB scathed rather than 
unscathed, didn't you?
    Mr. Hartz. One can look at it that way, yes.
    Mr. Yates. How much do you need?
    Mr. Regula. That is a leading question.
    Mr. Yates. I know. It is endless, Mr. Chairman. But is the 
amount that you are asking us for reasonable, not with respect 
to what the Budget Committee wants but with respect to what the 
Indian community needs?
    Dr. Trujillo. What the Indian community, the tribes, and 
urban programs, I believe, need, far out-strips this year's 
proposed budget. We only are, in this proposed budget, 
requesting some dollars for the Fort Defiance facility. This is 
one of the higher ones in the priority listing, but, certainly, 
it is not addressing all the needs in Indian country.
    What we might be able to do is to provide you and the 
committee with more detailed information on the amounts over a 
period of time that we would need for construction of hospitals 
and ambulatory care centers.
    [The information follows:]

[Pages 449 - 450--The official Committee record contains additional material here.]


    Mr. Hartz. One final note that I can add to that, since you 
asked about the tribal perspective. The IHS, working with the 
tribes, the urbans, the National Indian Health Board, and the 
self-governance tribes, did come up with what they felt would 
be a reasonable budget request to put forth for facilities 
construction totaling of about $90 million.
    Mr. Yates. I don't know whether or not your presentation 
includes these figures but if they don't, I wish you would 
provide them for the committee as to what you think you need 
for the construction.
    Dr. Trujillo. Yes, we will. We can do that.

                            diabetes funding

    Mr. Yates. Now with respect to the diabetes program, it was 
this committee that initiated the diabetes program for the 
Indian people maybe 10 years ago.
    And it has worked out very well, I think, in spite of the 
fact that it's usually an inadequate amount. It is never enough 
to take care of their needs.
    Following up what Mr. Nethercutt said, is the amount that 
you have set aside for diabetes adequate to take care of your 
needs?
    Dr. Trujillo. The $30 million that is going to be coming to 
the Indian Health Service each year certainly will assist us in 
providing some therapy and----
    Mr. Yates. I know that but that isn't the question I asked 
you, Dr. Trujillo.
    Dr. Trujillo. In prevention, we can utilize that amount of 
dollars in one area in one year without any problems 
whatsoever. So when you take a look at the total need, it is 
greater than that.
    Mr. Yates. How much is the total need, Dr. Trujillo?
    Dr. Trujillo. Dr. Smith, would you have any idea? It would 
number----
    Mr. Yates. Well, I don't know how you can tell the total 
need. When you try to pinpoint the exact amount, it is almost 
impossible.
    Dr. Trujillo. We are talking also of new therapeutic 
maneuvers and new drugs that are very costly. We are also 
having a growing population that has a younger age of 
identification of diabetes. The complications of those that 
have diabetes for a longer period of time are also in the 
system. They have end stage renal disease, are on dialysis, 
have kidney transplants, retinal problems, peripheral vascular 
disease, and the complications of cardiovascular problems.

                  diseases besetting indian community

    Mr. Yates. You used to give the committee a pamphlet 
indicating what the diseases were besetting the Indian 
community, how badly they were besetting them, what you were 
doing and what you need. I remember that we had to deal 
particularly with otitis media, for example. That seemed to be 
prevalent particularly in Indian community. Is that still one 
of the diseases with which you have to contend?

                              otitis media

    Dr. Trujillo. We still are dealing with otitis media but 
that has decreased because of antibiotics and early detection. 
We do still provide and have the morbidity/mortality statistics 
by region and total for the Indian Health Service that we have 
provided to the staff regarding to Indian health care programs.
    But it is interesting that you mentioned otitis media 
because that also comes into well child care and----
    Mr. Yates. That is where most of it was.

                         well child care needs

    Dr. Trujillo [continuing]. And the ability for us to 
address well child care needs is also being impacted by having 
to absorb the lack of mandatories within our operational 
programs.
    Dr. Smith, do you have some comments in that area?
    Dr. Smith. Yes, I do. We have documented about a 23 percent 
decrease in well child visits. That doesn't just mean an 
encounter between----
    Mr. Yates. Why?
    Dr. Smith. I think it is a manpower issue.
    Mr. Yates. Is that a manpower need because of a lack of 
funds?
    Dr. Smith. It has to do also with the fact that our 
physicians are being inundated with emergent care and urgent 
care and those kinds of activities that we have to deal with as 
they come through the door.
    I just want to talk about the well child for a second if I 
could. What we have developed and what we do during our well 
child visits is not just an encounter between a physician and 
an infant or a child. At that well child visit we have 
counseling available for parenting. We had counseling available 
on nutrition for the mother and child. We have family planning. 
We have all kinds of activities that take place. Most of our 
other health care clinics will allow walk-ins. Our dental 
clinics and our eye clinics will have special walk-in 
privileges for the children that are seen in those well child 
visits.
    So it is not just the encounter with the physician. It is 
all these other preventive kinds of activities that we are not 
able to provide anymore.

                           adequacy of budget

    Mr. Yates. Your budgets have gone up. Are the increases 
adequate to take care of the growing needs of the communities?
    Dr. Trujillo. The budgets essentially have stayed flat in 
real dollars. When you take into consideration pay costs, the 
increases in inflation, the population that we are seeing (that 
naturally increases because of the numbers coming in) as well 
as new tribes who have been identified and come into the 
system, the actual dollars for Indian health care programs have 
decreased.

                               new tribes

    Mr. Yates. How many new tribes are there?
    Dr. Trujillo. Over the past year there were three. We have 
a possibility of three more coming in this year.
    Mr. Yates. How many over the last 10 years, for example?
    Dr. Trujillo. I would be hard put to----

                    suicide rates among indian youth

    Mr. Yates. You can do that for the record.
    [The information follows:]

              New Tribes Recognized in the Past Ten Years

    1. San Juan Southern Paiute Tribe, AZ (1990).
    2. Aroostook Bank of Micmacs, ME (1991).
    3. Catawba Indian Nation, SC (1993).
    4. Pokagon Potawatomi Indians, MI (1994).
    5. Little Traverse Bay Bands of Odawa Indians, MI (1994).
    6. Little River Band of Ottawa Indians, MI (1994).
    7. Mohegan Indian Tribe, CT (1994).
    8. Jena Band of Choctaws, LA (1995).
    9. Samish Indian Tribe, WA (1996).
    10. Huron Potawatomi Inc., MI (1996).

    Mr. Yates. Dr. Smith was talking about the needs of 
children. I read in the newspaper the other day that the 
biggest growing problem with Indian youth is the increasing 
suicide rate. Isthat correct?
    Dr. Trujillo. There is an increasing problem with 
disruptive behavior and violence. We are also seeing a large 
number of adolescents and young adults who are utilizing drugs 
on the reservation.
    The difficulty comes, I believe, as I addressed earlier in 
my opening remarks, from a lack of economic opportunities, a 
lack of educational opportunities, and the inability for young 
children and young kids to see a fruitful future for themselves 
in their communities.
    I believe it is the fault of all of us in regards to how we 
look at Indian country--the inability to realize that many 
times Indian individuals are marginalized and they sometimes 
have no political power. We don't pay attention to them in 
regards to adequate resources. The inability for them to have 
appropriate access to care in states, where----
    Mr. Yates. We don't pay enough attention to them? You mean 
we don't provide enough funding for them or is it beyond that?
    Dr. Trujillo. I believe it is also beyond that.
    Mr. Yates. In what respects?
    Dr. Trujillo. In regards to the ability for them to be 
incorporated into adequate care in many localities where states 
sometimes do not recognize----
    Mr. Yates. What do you mean by adequate care?
    Dr. Trujillo. Sufficient care. Sometimes when states have 
funding, they do not include Indian tribes in the 
deliberations. They are not----
    Mr. Yates. Funding for what?
    Dr. Trujillo. In regards to federal dollars that are being 
rechanneled into state programs. Managed care, for example, the 
child health----
    Mr. Yates. What programs, for example?
    Dr. Trujillo. The managed care initiatives that are going 
on in many states and in setting up how they pay for providers 
and health care facilities and operations.
    Mr. Yates. Well, here we have testimony of Mr. Murphy, 
chairman of the Standing Rock Sioux Tribe. I quote from his 
statement to this committee.

    We face a very difficult time at Standing Rock. Over the 
course of the last nine months, more than 45 of our children 
have attempted to commit suicide. Most tragically, six have 
succeeded. We grieve for the families who have lost these 
children. We worry about many other children: those who have 
made attempts on their lives, those who have not, who remain at 
risk.

    Are they getting adequate care from you?
    Dr. Trujillo. I believe the problem is paramount in Indian 
country. We have seen the problems with suicide and suicide 
gestures in Indian country.
    Mr. Yates. What are you doing?
    Dr. Trujillo. We are attempting to provide some mental 
health services. At the present time our mental health program 
is funded nationwide around about 45 percent of the need.
    Mr. Yates. Forty-five percent?
    Dr. Trujillo. Yes.
    Mr. Yates. Can you tell us what that amount is?
    Dr. Trujillo. I don't have the total amount directly on my 
mind but it is around about $40 million.
    Mr. Yates. $40 million?
    Dr. Trujillo. It is about $40 million, I believe. That 
primarily addresses in many of our communities and tribal 
communities acute needs. It does not address the issues that 
you talk about when you look at family violence, the prevention 
aspects, or the amount of counseling that will have to go into 
a program. In some cases there are only one or two individuals 
on staff and the need may be for five or more in a particular 
community. So the need is very great in regard to mental 
health.
    Mr. Yates. Well, obviously the chairman of the Sioux tribe 
is aware of what has happened there. Would they know which of 
their Indian children is at risk of committing suicide?
    Dr. Trujillo. On this particular reservation, in Standing 
Rock--and I know Mr. Murphy well and the previous chairman, 
too--they have identified families and children at risk. There 
have been community efforts to work with the particular 
individuals who are at risk. The Indian Health Service at 
Standing Rock or Fort Yates and the Aberdeen area office, the 
Bureau of Indian Affairs, our headquarters as well as are also 
working with the tribe.
    The difficulty comes, of course, in how do we address that 
particular need in that locality with insufficient staff.
    Mr. Yates. With your staff inefficiency?
    Dr. Trujillo. Insufficient staff with our program, the 
tribal program and the Bureau of Indian Affairs program.
    Mr. Yates. So we can't take care of the problem in this 
committee, can we? If we gave you more money for the purpose, 
there is lack of funds from other sources, or is that 
incorrect?
    Dr. Trujillo. No, I believe that is correct. We also rely 
on States. We also rely on other professional organizations 
because we certainly realize--and tribal programs also 
realize--that all funding certainly from the Federal government 
cannot take care of all the total needs.
    Mr. Yates. You have hospitals that are not staffed?
    Dr. Trujillo. No, we have staffing in all of our facilities 
but in many cases some of that staffing does not meet the 
original allocation of what we had intended to do.
    Mr. Yates. Because of lack of funds or for other reasons?
    Dr. Trujillo. Yes, it is directly related to lack of funds 
or original appropriations.
    Mr. Yates. That we could take care of, couldn't we?
    Dr. Trujillo. Yes, it would be nice if you could.
    Mr. Yates. Thanks, Mr. Chairman.
    Mr. Regula. Mr. Nethercutt.
    Mr. Nethercutt. Just a quick follow-up.
    It is not just reservation health problems; it is urban 
health problems, too, isn't it?
    Dr. Trujillo. That is correct.

           disease/Illness disproportionate to indian country

    Mr. Nethercutt. You are facing a lot. And I know you have 
an alcoholism initiative and also a breast cancer initiative 
that I am aware of. I wonder if you, for the record, Doctor, 
would submit to the subcommittee a list of the highest, 
disproportionate to the rest of the population, illnesses or 
health conditions that you in Indian country face. In other 
words, I know you have a disproportionate effect of diabetes on 
Indians and perhaps alcoholism but also is there a higher 
incidence of breast cancer among Indian women than non-Indian 
women or how you might quantify that for the committee.
    Dr. Trujillo. Yes, I would very much like to send that 
forward. In some cases, such as in breast or cervical cancer, 
the cancer incidence may not be as high but the problem comes 
in regards to the mortality as the individuals have not been 
identified early on and, of course, the consequences of the 
disease leads to a much earlier death than you would have in 
other populations.
    We are seeing a rising problem in cardiovascular disease. 
We are seeing a rising problem in lung cancer. That directly 
reflects the amount and incidence of smoking, too. But we would 
be glad to forward that information to you because I think that 
will help assess the disparities that we are facing right now. 
The problems are also being faced in urban programs.
    [The information follows:]

[Page 456--The official Committee record contains additional material here.]


                  recruitment of medical professionals

    Mr. Nethercutt. I visited the urban clinic in Seattle and 
was impressed with the work load that you have but the 
dedication of the people who are working there. For the record 
you also might let us know to what extent you are having 
trouble getting doctors and nursing assistants to come to urban 
and rural Indian Health Clinics that serve Indian populations 
and if that is a problem, if you could identify for that, as 
well. That would be helpful.
    Dr. Trujillo. I would very much like to do that. Mr. 
Froquera at the urban clinic has done an excellent job with the 
Indian staff.
    [The information follows:]

[Pages 458 - 459--The official Committee record contains additional material here.]


    Mr. Nethercutt. He has done great. I visited that clinic 
and was so impressed with not only the dedication of the people 
that were there but the people that are served. I visited on a 
snowy day in Seattle, if you can believe it, and I believe it 
was a holiday. There was a little lady and her children who 
came to the door. Although they were closed, they took them in 
and helped them. They are really trying hard in that clinic and 
I know many others. So it is a good effort and it serves a 
continuing need.
    Dr. Trujillo. Yes. We have a number of clinics throughout 
the nation that are in various localities that also have a 
number of services that have clinical services and some are 
referral programs. Mr. Ron Morton, who is the present chairman 
of our urban program, is here in the audience. He is the 
executive officer from the San Diego clinic. They have also 
been very instrumental in advocating for the total needs of 
urban programs and for also, I believe, working much more 
closely with tribes. Many tribal members go to urban programs 
as well as programs on the reservation. They go back and forth. 
It is a general need across the nation.
    Mr. Nethercutt. Sure. Well, thank you for your work and 
effort.

                        contract health services

    Mr. Regula. A couple of questions in following up. Do you 
provide any of your services by contract with either private or 
municipal facilities? Do you, for example, contract with a 
hospital in Seattle to take care of certain classes of medical 
procedures?
    Dr. Trujillo. Yes, in various localities. We, of course, 
try to get as many services for the least amount of dollars 
available within our constrained resources. We have negotiated 
agreements with providers and also with facilities. We also 
have implemented in some localities a rate quote methodology 
program, where we provide a specific rate to a provider of care 
for a number of procedures and that has also been fruitful.
    Of course, we try to extend our dollars as much as 
possible. A difficulty we are now seeing is with the managed 
care systems coming in to states. The reimbursement process 
from the states to the to tribal programs and Indian Health 
Service programs has not always worked out as well. That, then, 
feeds back into the collections that are proposed for this 
coming year.
    Dr. Smith or Mr. Lincoln, do you have anything else to add 
on that?
    Dr. Smith. In respect to the contract services that we 
have, there is a resource management team at each service unit 
that prioritizes those requests for service that need to be 
sent out to another facility or health care provider that we 
can't provide care for.
    The list of requests for contract services that we now have 
at each of our service units is almost what it was at the end 
of last year, of those services that have been deferred because 
of lack of funds to send these people out. And it now contains 
simple things. It is for services that our children need and we 
are unable to send them out for these services.
    We had a case where a woman was sent to a specialist. He 
recommended surgery. The tests were negative but he was 
suspicious. Three times it came and went to the resource 
committee. Finally they allowed her to go and have surgery. She 
had cancer. Those kinds of tragic situations we face on a daily 
basis.

               tribal consultation during budget process

    Mr. Regula. When you developed your budget, did you consult 
with the tribes and are the recommendations that you got 
reflected to the best of your ability in the budget you have 
submitted?
    Dr. Trujillo. Since I have come into the Administration as 
director of Indian Health Service we have had a much more 
concerted effort working directly with the tribes and urban 
programs not only budget consultation but also program and 
priority-setting.
    This past year we conducted regional meetings with tribes 
through our regional offices across the nation and developed a 
priority listing for what services should be included in the 
budget and the actual budget amount that might be proposed.
    That was how our original proposal to the department was 
constructed. That was the budget proposed when the individuals 
of tribal program and the urban programs met with OMB.
    At this particular period of time, I would have to say that 
much of the priorities that we worked on with tribes this year 
is not really reflected in this year's budget.
    Mr. Regula. It appears to me that OMB pretty much ignored 
the tribal priorities that you had recommended. Is that a fair 
statement?
    Dr. Trujillo. The tribes and the urban program members did 
meet with OMB and OMB did come back with a different figure.
    Mr. Yates. Lower?
    Dr. Trujillo. Yes.
    Mr. Regula. Sounds like a real success story. Are there any 
further questions?
    Mr. Nethercutt. No, sir. Thank you.
    Mr. Yates. Thank you, Mr. Chairman.
    Mr. Regula. Thank you very much. We will make every effort 
to be sensitive to your needs, recognizing that you did get 
short-changed in the process.
    Dr. Trujillo. Thank you, Mr. Chairman, and thank you for 
all your assistance.
    Mr. Yates. Mr. Chairman, I have one more question.
    Mr. Regula. Yes.
    Mr. Yates. Can you tell us how much you asked OMB for?

                         budget proposal to omb

    Dr. Trujillo. We proposed to OMB, through the department, 
about $2.24 billion.
    Mr. Yates. And how much did they give you?
    Dr. Trujillo. Their final pass-back in December to the 
department was $2.2 billion. When the tribes----
    Mr. Yates. And it all comes out of the Indian health 
programs.
    Dr. Trujillo. And when the tribes and the urban program 
individuals met with OMB, we also identified and supported 
their proposal and their priorities, they proposed a budget of 
$2.53 billion.
    Mr. Yates. Thank you, Mr. Chairman.
    Mr. Regula. Thank you. The committee is adjourned.
    [The following questions and answers were submitted for the 
record.]

[Pages 463 - 499--The official Committee record contains additional material here.]









                           W I T N E S S E S

                              ----------                              
                                                                   Page
Berry, John......................................................   381
Casadevall, T.J..................................................     3
Christie, J.C....................................................   203
Devine, J.F......................................................     3
Eckes, M.E.......................................................     3
Erwin, D.M.......................................................   203
Fenn, D.B........................................................     3
Gilbert, D.A.....................................................   203
Gossman, W.F., Jr................................................     3
Gover, Kevin.....................................................   203
Hartz, G.L.......................................................   425
Hirsch, R.M......................................................     3
Homan, P.M.......................................................   203
Karpan, Kathy....................................................   179
Lawler, M.A......................................................     3
Leahy, P.P.......................................................     3
Leahy, J.D.......................................................   399
Lincoln, M.E.....................................................   425
Manuel, Hilda....................................................   203
McGregor, B.A....................................................     3
Morris, J.S......................................................   203
Quarterman, Cynthia..............................................   141
Ryan, B.J........................................................     3
Smith, Kermit....................................................   425
Stayman, A.D.....................................................   331
Thompson, T.M....................................................   203
Trezse, J.D......................................................   203
Trujillo, M.H....................................................   425
Williams, D.P....................................................   425
Williams, R.J....................................................   413
Witmer, R.E......................................................     3









                               I N D E X

                              ----------                              

                         U.S. Geological Survey

Abandoned Mine Lands.............................................    51
Abandoned Mine Sites on Federal Lands............................    50
Acid Mine Drainage in Tennessee..................................    51
Acid Mine Run-Off................................................    48
Biographies......................................................  4-14
    Casadevall, Thomas J.........................................     4
    Devine, James F..............................................    12
    Eckes, Martin E..............................................    13
    Fenn, Dennis B...............................................    10
    Gossman, William F., Jr......................................    11
    Hirsch, Robert M.............................................     8
    Lawler, Mary Ann.............................................    14
    Leahy, P. Patrick............................................     9
    McGregor, Bonnie A...........................................     5
    Ryan, Barbara J..............................................     6
    Witmer, Richard E............................................     7
Biological Research.............................................119, 96
Biology Merger into U.S. Geological Survey.......................    24
Budget Highlights................................................    16
Budget Increases.................................................    30
Buy-Out Authority Extension......................................    47
Chesapeake Bay Oysters...........................................    63
Clean Water Initiative...........................................31, 72
Contracting Commercial Activities................................52, 53
Cooperative Research Units.......................................   107
Digital Ortho-Photoquad Program..................................    59
Disaster Information Network.................................24, 53, 64
El Nino, Causes of...............................................    25
El Nino, Response................................................    26
El Nino, Response to Effects of..................................    15
Emergency Events.................................................    86
Endangered Species Issues........................................   120
Everglades Restoration...........................................    59
Federal-State Cooperative Water Program..........................    90
Fixed Cost Increases.............................................    75
Global Change, USGS Research.....................................   100
Global Change, Geologic Factors Impacting........................    48
Global Seismographic Network.....................................44, 45
Government Performance and Results Act...........................    80
Great Lakes Geologic Mapping Coalition...........................    39
Hazard Warning Network...........................................    37
Hazards Program..................................................    86
Hypoxia and Pfiesteria Issues....................................    90
Information to Localities........................................    60
Internet Feedback to USGS........................................    58
Internet Information, USGS.......................................    54
Introductions....................................................    15
Library, USGS....................................................    94
Maintenance Backlog..............................................    76
Menlo Park Study.................................................    76
National Atlas...................................................    95
National Cooperative Geologic Mapping............................    40
National Cooperative Geologic Mapping Reduction..................    41
National Landslide Hazard Outlook Maps...........................    27
National Mapping Program.........................................    82
National Technical Means.........................................    42
National Water Quality Assessment Program....................56, 57, 93
Opening Remarks..................................................    15
Partnership Examples.............................................    30
Partnership with National Weather Service........................    47
Partnership with NOAA............................................    28
Questions submitted for the record...............................64-137
    From the House Appropriations Committee......................    64
    From Representative Moran....................................   122
    From Representative Nethercutt...............................   124
    From Representative Regula...................................   104
    From Representative Skeen....................................   105
    From Representative Taylor...................................   121
Real-Time Hazards Initiative.....................................    70
Real-Time Network................................................    35
Reduction in Force...............................................    46
Reinventing Government...........................................   107
Relationship Between USGS Work and Weather Forecasting...........    28
Remote Sensing Data and Imagery..................................    29
Satellite Data and Costs.........................................   105
Satellite Remote Sensing.........................................    41
State and Private Sector Partnerships............................    40
State Water Resources Research Act Program.......................   108
Stream Gage Network..............................................    70
Stream Gages.....................................................    93
Stream Gages in Washington State.................................    32
Stream Gaging Stations, Number of................................    39
Stream Gaging Stations, USGS.....................................    34
Testimony........................................................ 18-23
    Managing and Providing Access to Scientific Information......    22
    Natural Resources and Problems Affecting Their Use...........    22
    New Directions for FY 1999...................................    18
    Reducing the Effects of Natural Hazards......................    20
    Understanding our Environment................................    21
Urban Dynamics--Modeling Metropolitan Growth.....................    62
Water Quality Information Initiative.............................    73
Water Resources Research Institutes.............................87, 122
Wildland Fire Research...........................................    81
Wildlife Health Monitoring.......................................   122
Willow Flycatcher................................................   112

                      Minerals Management Service

Background.......................................................   141
Challenges and Accomplishments...................................   143
Electronic Commerce and Communication............................   162
Environmental Studies Program....................................   168
Gulf of Mexico...................................................   160
Marine Minerals Research Centers.................................   174
Offshore Minerals Management Program.............................   147
Overview of FY 1999 Budget Request...............................   156
Questions submitted for the record from the Committee............   160
Reengineering the Offshore Program...............................   164
Resource Activities..............................................   169
Resource Needs...................................................   168
RMP Reengineering................................................   166
Royalty Management Program.......................................   151
Technical Information Management System..........................   167

          Office of Surface Mining Reclamation and Enforcement

Abandoned Mine Lands Trust Fund..................................   187
Appropriations Language..........................................   197
Better Abandoned Mine Land Reclamation...........................   179
Better Customer Service..........................................   181
Budget...........................................................   184
Clean Streams....................................................   191
Environmental Protection.........................................   195
Financial Management.............................................   196
Minimum Level States.............................................   194
Other............................................................   198
Questions submitted for the record from the Committee............   187
Rural Abandoned Mine Program.....................................   194

                        Bureau of Indian Affairs

Backlog Maintenance............................................227, 268
BIA Reorganization...............................................   275
BIA's Constituents...............................................   209
BIA's Programs...................................................   208
Claim Settlements and Miscellaneous Payments.....................   216
Construction...................................................216, 287
Contract Support Funding.........................................   252
Education (see also school construction, teacher retention)...204, 231, 
                                                                    281
Environmental Clean-up...........................................   206
Facilities Repair................................................   246
Forest Management Planning.......................................   294
Funding Allocations..............................................   265
FY 1999 Budget Summary...........................................   213
FY 1999 Special Initiatives......................................   211
Government Performance and Results Act.........................217, 274
Housing..........................................................   245
Indian Land and Water Settlements................................   291
Indian Land Consolidation Pilot..................................   247
Indian Land Consolidation Pilot, Selection Criteria..............   249
Indian Land Consolidation Project................................   206
Indian Probate...................................................   219
Law Enforcement................................................205, 250
Law Enforcement Initiative.....................................228, 293
Major Issues/New Initiatives.....................................   256
Opening Remarks..................................................   203
Opening Statement................................................   203
Operation of Indian Programs.....................................   214
Questions submitted for the record..............................256-303
    From the House Appropriations Committee......................   256
    On behalf of Representative Kildee...........................   293
    From Representative Obey.....................................   295
    From Representative Taylor...................................   294
    From Representative Yates....................................   298
Reorganization...................................................   228
School Construction............................................236, 299
School Construction, New Applications--Ranking Criteria..........   243
School Construction, New, Priority Ranking Process...............   240
School Construction, Wisconsin...................................   295
School Construction Prioritization Process, New..................   242
School Facilities Process, New (Replacement).....................   239
St. Augustine's Center for American Indians......................   298
Teacher Recruitment..............................................   227
Teen Suicide.....................................................   303
Testimony........................................................   208
Tribal Courts, Funding.........................................244, 293
Tribal Priority Allocations...............................226, 277, 301
Tribal Settlement Legislation....................................   234
Trust Reform.....................................................   284
Welfare Assistance...............................................   298

             Office of Special Trustee for American Indians

Advisory Board...................................................   319
Audit............................................................   316
Contract Efforts.................................................   233
Current Activities...............................................   221
Executive Direction..............................................   225
Files Clean-Up, IIM............................................233, 312
Fractionation....................................................   309
Future Funding Requirements......................................   230
FY 1998 Supplemental.............................................   222
FY 1999 Budget Request...........................................   223
Government Performance and Results Act...........................   318
Improvement Initiatives..........................................   223
Indian Probate...................................................   219
Individual Indian Money Litigation...............................   232
Individual Indian Money Litigation Supplemental..................   229
Land Records Information System..................................   315
Litigation Settlement............................................   304
Opening Remarks..................................................   203
Opening Statement................................................   218
Operations.......................................................   224
Questions submitted for the record from the Committee............   304
Records Backlogs.................................................   311
Settlement and Litigation Support..............................224, 310
Systems Operations.............................................230, 315
Testimony........................................................   221
Tribal Settlement Legislation..................................233, 234
Trust Asset and Accounting Management System...................218, 313
Trust Fund Accounting System (Pilot)...........................234, 314
Trust Reforms....................................................   305
Trust Responsibilities...........................................   309

                       Office of Insular Affairs

Allocation of Covenant Grants....................................   334
American Samoa Financial Recovery................................   333
American Samoa issues............................................   351
Brown Tree Snake Control.......................................332, 347
Commonwealth of the Northern Mariana Islands.....................   336
Compact of Free Association......................................   354
Financial Problems in the Islands................................   332
Government Performance and Results Act...........................   344
Guam Issues......................................................   353
Health Facilities................................................   350
Questions submitted for the record from the Committee............   336
Strategic Planning...............................................   331
Territorial Assistance...........................................   345
Virgin Islands Financial Recovery................................   333

                        Departmental Management

Departmentwide Priorities........................................   393
Everglades Restoration Account...................................   390
Government Performance and Results Act...........................   384
Historic Preservation of Main Interior Building..................   387
Information Technology Upgrades..................................   388
Interior Department Electronic Acquisition System................   394
Interior Franchise Fund Pilot....................................   390
Questions submitted for the record by the Committee..............   384
Statement........................................................   381

                        Office of the Solicitor

Information Technology.........................................404, 409
Legal Services...................................................   400
Questions submitted for the record by the Committee..............   406
Uncontrollable Cost Increases....................................   399
Workload and Funding Impact......................................   406

                    Office of the Inspector General

Affirmative Civil Enforcement....................................   414
Audits...........................................................   418
Chief Financial Officers Act of 1990.............................   414
Congressional and Departmental Requests..........................   415
Fiscal Year 1999 Budget..........................................   413
Investigations...................................................   421
Proactive Incentives and Task Forces.............................   416
Questions submitted for the record by the Committee..............   418

                         Indian Health Service

Adequacy of Budget...............................................   452
Assessment of President's Budget.................................   433
Budget Proposal to OMB...........................................   461
Budget Request...................................................   431
Conditions of Healthcare Facilities..............................   447
Contract Health Services.........................................   460
Contract Support Costs...........................................   434
Dental Services..................................................   441
Diabetes Funding.................................................   451
Diabetes Grant Process...........................................   444
Disease/Illness Disproportionate to Indian Country...............   455
Diseases Besetting Indian Community..............................   451
External Resources...............................................   433
Facilities Budget................................................   447
Funding for Diabetes.............................................   440
Funding for Mandatories..........................................   439
Health Status....................................................   433
Healthy People 2000 Objectives...................................   434
Indian Self-Determination Fund...................................   443
Introduction of Associates.......................................   431
Joint Venture Program............................................   446
New Tribes.......................................................   452
Otitis Media.....................................................   452
Questions for the Record to the Committee........................   463
    Questions submitted by Congressman Jim Kolbe.................   498
    Questions submitted by Congressman Sidney R. Yates...........   493
Rationale for OMB's Disparity of Budget Increases................   439
Recruitment of Medical Professionals.............................   457
Statement of Michael H. Trujillo.................................   435
Third Party Collections..........................................   442
Tribal Consultation During Budget Process........................   461
Well Child Care Needs............................................   452
Wellpinit Indian Health Service..................................   445

                             <all>
</pre></body></html>
